<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              


                        WEDNESDAY, APRIL 9, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:31 p.m., in 
room SD-192, Dirksen Senate Office Building, Hon. Dianne 
Feinstein (chairwoman) presiding.
    Present: Senators Feinstein, Murray, Landrieu, Udall, 
Shaheen, Alexander, Cochran, McConnell, Collins, Murkowski, 
Graham, and Hoeven.

                          DEPARTMENT OF ENERGY

                        Office of the Secretary

STATEMENT OF ERNEST MONIZ, SECRETARY


             opening statement of senator dianne feinstein


    Senator Feinstein. Good afternoon, ladies and gentlemen. We 
are going to start right on time. We have five votes scheduled 
for 3:30. So what we would like to do is go as quickly as we 
can. We expect 10 members. I know the minority leader will be 
here. I will interrupt the straight early bird which we do, 
that we don't alternate sides, we just go straight early bird, 
if the minority leader comes and wants to ask some questions 
because he would have to go back to the floor. So, we will do 
that.
    Mr. Secretary, I want to welcome you to this hearing; Mr. 
Poneman, you as well. The hearing is to discuss the Energy and 
Water Subcommittee budget for fiscal year 2015.
    The Department of Energy has requested $27.963 billion for 
fiscal year 2015. That's an increase of $682 million, or 2.5 
percent, from fiscal year 2014. Approximately $451 million, or 
66 percent of that amount, is for the National Security 
Administration's Nuclear Weapons and Naval Reactor Programs. 
That's a 4-percent increase for NNSA (National Nuclear Security 
Administration).
    This subcommittee will explore in greater detail NNSA's 
budget request on April 30, but the priorities you lay out, Mr. 
Secretary, for national security programs in this year's budget 
request demand an explanation.
    The Nuclear Posture Review finds that the highest national 
security priority is ``preventing nuclear proliferation and 
nuclear terrorism.'' Two weeks ago, President Obama stated that 
what kept him up at night was ``the prospect of a nuclear 
weapon going off in Manhattan.'' However, the budget request 
makes Nuclear Weapons and Naval Reactor Programs the highest 
priority at the expense of non-proliferation and environmental 
clean-up activities.
    This is hard for me to understand, why we would cut 
programs that keep nuclear materials out of the hands of 
terrorists, especially when al-Qaeda and other terrorist groups 
have repeatedly shown interest in acquiring weapons-grade 
material. What is disappointing is that we had a discussion 
about priorities before the budget submission and you assured 
me that the fiscal year 2015 budget would be more balanced 
without adversely cutting non-proliferation.
    Instead, the budget request proposes an increase of $533 
million, or 7 percent, for nuclear weapons, the largest single 
increase in the Department's budget; and an increase of $282 
million, or 26 percent, for Naval reactors. It looks like the 
Department of Defense had a strong hand in your budget this 
year.
    In contrast, non-proliferation, which is getting rid of 
nuclear material, would see a cut of $400 million, or 20 
percent, which would be the largest single decrease in the 
Department's budget; and a decrease of $209 million, or 4 
percent, for environmental clean-up activities related to past 
nuclear weapons production and nuclear energy research.
    As far as I'm concerned, this is not acceptable. What I see 
are additional cuts to well-managed programs that have made 
this country safer from nuclear terrorism at the expense of 
increased funding for poorly managed nuclear weapons programs, 
and I say that with justification that I believe you know 
about.
    Slashing programs that prevent nuclear terrorism and 
protect the health and safety of communities from the effects 
of nuclear weapons production is a major concern, and I hope 
you're prepared with a good explanation.
    I won't touch on the Office of Science. It has increased 
$45 million, or 1 percent. It looks to be in pretty good shape.
    I'd like to just quickly highlight my biggest concern. It's 
in the science budget, and it's ITER (International 
Thermonuclear Experimental Reactor).
    ITER is an experimental fusion reactor being built in 
France. After pressure from this subcommittee, the Department 
has provided a more reliable cost estimate for this project. 
Unfortunately, the cost keeps increasing. Under the best-case 
scenario, the United States' cost to help build ITER will be $4 
billion for the Department of Energy (DOE), twice the original 
cost estimate. Under a more realistic scenario, the cost may 
exceed $6 billion. That's according to an independent review by 
your own department, Mr. Secretary.
    To make matters worse, an independent assessment of the 
ITER organization found a long list of problems that could lead 
to additional cost increases and schedule delay. Some of these 
include the lack of project management skills and a sense of 
urgency to complete the project; a lack of realistic 
milestones; too few staff with large project management and 
industrial experience to integrate thousands of components for 
the most complex engineering project in the world.
    Mr. Poneman, I hope you can share your views of whether you 
think the project management problems at ITER can be fixed and 
whether the United States should continue to fund ITER given 
the cost increases and higher scientific priorities.
    Actually, this may be an opportunity to experience the 
power of the purse.
    Joining us today to explore these national security and 
energy issues is Dr. Ernie Moniz, the Secretary of Energy. Next 
to him is Dan Poneman, the Deputy Secretary of Energy. 
Secretary Moniz is recused from the topic of fusion, so Deputy 
Secretary Poneman is here to answer any fusion-related 
questions, and I believe that that is because of your past 
association with MIT and the fusion facility there. So I thank 
you both for taking the time to be here today.
    Our distinguished ranking member, Senator Alexander.


                  statement of senator lamar alexander


    Senator Alexander. Thank you, Madam Chairman.
    Mr. Secretary, Mr. Poneman, thank you for being here. I 
look forward to this.
    I want to start by thanking Secretary Moniz and Mr. Poneman 
for your attention to mercury contamination at Oak Ridge. That 
is our highest environmental priority, and yesterday was a day 
of remembrance for families who were victimized by their work 
at Oak Ridge during the cold war and died or were severely 
injured by exposure to toxic materials. This is our concern 
now, and I'm glad we're beginning to get a start on it.
    My goals are, one, basic research; two, getting control on 
the construction progress for major projects to reduce spending 
on mature technologies and focus spending on research for new 
technologies, and to modernize the deterrent.
    Briefly about research, the one piece of advice I've given 
to the Secretary, and I don't want to give much to him because 
he has lots of experience, is to do some missionary work on my 
side of the aisle on ARPA-E (Advanced Research Projects 
Agency--Energy), because the Republicans look at some of the 
Obama administration energy adventures and don't like what they 
see over the last several years, and some have lumped ARPA-E in 
with that.
    I think it's a very different idea. It came out of a 
bipartisan proposal called America COMPETES (America Creating 
Opportunities to Meaningfully Promote Excellence in Technology, 
Education, and Science), which had as many Republican as 
Democrat Senators on it, 30 on each side. It's a descendant of 
DARPA (Defense Advanced Research Projects Agency), which is a 
Defense Department miracle, really, in terms of it leading 
literally to the Internet, the stealth technology, and I think 
Republicans would like ARPA-E, and I encourage you, and I will 
help, to make sure that we know the story about the creation of 
24 new companies, new projects, the fact that they're thrown 
back out in the marketplace very quickly and Government gets 
out of their way, and we're beginning to see some advances.
    So I'm a big believer in the fact, as I think are most of 
us here, that since World War II, it's hard to think of a major 
technological advance in our country that's not had some 
Government-sponsored research involved in it. That's an 
important story. The Office of Science is at the center of 
that, and I strongly support generous budget recommendations 
for that part of the budget.
    We should be about setting priorities, and we shouldn't let 
the runaway mandatory entitlement spending squeeze out 
investments in research that improve family incomes, improve 
lives, and make our country better.
    Now, sometimes people say to me, Madam Chairman, what do 
you find satisfying about serving in the Senate, and I say, 
well, sometimes I go to bed at night thinking I may have done 
just a little something to make our country better, and my 
little something today is something that the chairman and I 
have been working on, and that is I think I may see the light 
at the end of the tunnel on this way for us to do a better job 
of getting control of these massive construction projects which 
are eating up billions of dollars, and it's very difficult for 
members of Congress to have the expertise or the ability to 
deal with those.
    I'm looking for the description of the red team that I had 
on one page here. Here it is. And I would cite to the chairman 
the red team with the uranium facility, Madam Chairman. A few 
months ago we decided that we would meet on a regular basis 
with someone who's in charge. But since then--this is what I 
understand from the preliminary briefings--they've taken the 
review process that the Office of Science has had, which has 
been successful in keeping its projects under control. I think 
of the Spallatian Neutron Source at Oak Ridge, which was on 
time, on budget, even though it was $1.5 billion, and they've 
taken the head of the Oak Ridge Lab, Thom Mason. He has had a 
60-day process with a team of 25 people from all over DOE. 
They've gone to the uranium facility. They spend an entire week 
there. Then they went away and did a week of homework. Then 
they went back again for an entire week, and they're going to 
give us a report this month on what we need to do to keep it 
within budget and still meet the objective.
    I don't want to pre-judge the report. Maybe it won't turn 
out to be something we want. But I like the process. And what I 
like is that if there is an existing process in DOE on the 
Office of Science side, this is not a hearing about the NNSA, 
but I would like to talk about when my time comes why we 
wouldn't consider using that same process with the 
MO<INF>X</INF> (mixed oxide fuel) process at Savannah River, 
initial projected cost of nearly $5 billion, current cost 
between $13 billion and $25 billion. The uranium process 
initial cost, $650 million, current cost between $4 billion and 
$6 billion. ITER, the Chairman mentioned, where are we going 
with that? Billions more. The Chemistry and Metallurgy 
Replacement Facility, $3.7 to $5.8 billion.
    We need to get control of these runaway costs, and if the 
red team review is a way to do that, Madam Chairman, I think we 
need to focus some time on it. So I want to suggest, if I may, 
to you and to the Secretary that when that report is available, 
perhaps we have a special hearing for us to hear it and then to 
consider whether to apply that same sort of discipline one-by-
one to these other projects.
    Now, finally, I didn't say anything about nuclear weapons, 
but that's another area that's hard for us to work on, these 
big weapons programs. They're complicated, they're secret, and 
we don't have all of the expertise to deal with it. Maybe a 
similar type of discipline or review of nuclear weapons 
programs would assist us in making sure that we meet our 
mission, but that we literally don't waste billions of dollars 
that could have otherwise been avoided.
    So that's what I'm looking forward to talking about today, 
and I thank the chairman for indulging me in a little extra 
time to comment on it.
    Senator Feinstein. Just to say this, and then we'll proceed 
to the Secretary. As you know, Senator, I agree with you 100 
percent. We have held these meetings. I think they have been 
helpful, but the problem continues on, and it seems to grow. 
With the nuclear weapons, we're cutting non-proliferation, 
which, heaven knows, is necessary, to pick up all this dirty 
stuff, and a lot of progress has been made in doing it. So 
we're cutting non-proliferation to add more for nuclear 
weapons. Plus you have uranium processing, you have all these 
problems with virtually every area of fissile material 
production running way over budget.
    So the whole arena, I think, is up for very serious 
scrutiny, Mr. Secretary.
    In any event, we're delighted that you're here. We have 
spoken before. So you, as I understand it, will make some short 
comments, Mr. Poneman, and we will then go to questions. The 
minority leader is here. He has to return to the floor, so we 
will take his questions out of order.
    Please proceed, Mr. Secretary.


                   summary statement of ernest moniz


    Secretary Moniz. Thank you, Chairman Feinstein and Ranking 
Member Alexander and members of the committee. I will be very 
brief in light of your constraints.
    First, as you've already said, the budget request in a very 
constrained environment overall is for a 2.6 percent increase, 
and I would just argue that reflects, I think, some of the very 
important missions we have in terms of a clean energy future 
and on nuclear security in particular, in addition to 
maintaining the scientific enterprise in this country, 
sustaining it, growing it, and of course meeting our 
obligations to clean up the mess of the cold war.
    I would just say that our budget was organized around our 
reorganized Department with our three main focus areas: energy 
and science, nuclear security, management performance. As you 
have both commented, we have tried very much to elevate the 
focus on management performance because we feel we cannot 
execute our nuclear security and energy and science missions 
unless we, frankly, raise our game in that area.
    On science and energy, the budget request is $9.8 billion, 
a 5-percent increase.
    Again, in the spirit of trying to hurry up, I'll skip many 
things. But I'd like to just comment on Senator Alexander's 
very kind comments on ARPA-E, which I agree has been a big 
success. I would add one thing to some of the things you said, 
24 start-ups, et cetera, and that is that uniquely in this 
program is also the entrepreneurial flavor that every project, 
for example, has, if you like, an advisor on tech-to-market. So 
it's a very novel program, and I appreciate the support.
    Another thing I'll just mention, in our energy and science 
proposals principally, although sometimes involving NNSA, I'd 
like to highlight a set of cross-cutting initiatives where we 
are trying to bring together the strengths of different offices 
in a complementary way in areas like grid modernization, exa-
scale computing, sub-surface science and engineering, areas of 
this type. Our laboratory directors are very excited about this 
and are prepared to work together.
    Nuclear security, budget request $11.9 billion. Chairman 
Feinstein has gone through the way that is broken out. Let me 
first say that on the weapons side, frankly, the plan put 
forward last year was not supportable in any credible budget 
environment that we could see. So we went through a very 
engaging process with the Department of Defense, with the 
National Security Council, with the Weapons Council, and we 
committed that we had to sustain the fundamental stockpile 
posture put forward in the Nuclear Posture Review, but we had 
to just, frankly, stretch it out in ways that had a budget 
profile that cut over $1 billion a year over the Life Extension 
Programs in the 2017 to 2020 timeframe.
    So we made that commitment, and we must have a safe and 
reliable stockpile. Regrettably, and I say that honestly, quite 
regrettably within our relatively small part of the 2015 
budget, we must support weapons, non-proliferation, Naval 
reactors, environmental clean-up, and intelligence programs, 
and we do believe we still have a very strong non-proliferation 
program, which we can discuss. As you said, 2 weeks ago or 3 
weeks ago in The Hague, there was the Nuclear Security Summit. 
We had some great successes to announce, including the 
repatriation of many hundreds of kilograms of HEU (highly 
enriched uranium) and plutonium.
    I do want to point out that over half of the reduction in 
the non-proliferation program was in the specific project of 
MO<INF>X</INF>, where we called for a pause to evaluate that. I 
do want to just clear up right now, there has been some 
confusion on numbers. Apples and oranges are being compared 
when you may have heard a $17 billion number recently. That was 
strictly for the fuel fabrication facility. As Secretary of 
Energy, I have to look at the entire program to make 
MO<INF>X</INF>, and that's where our estimate is $30 billion, 
and we need a discussion to see what our priorities are going 
to be in terms of how we dispose of those 34 tons of weapons 
plutonium and have the Russians do the same.
    Management performance, $6.5 billion. Again, I'll just note 
that that is a new focus area with a new organization stood up 
to enforce that.
    I'll end by saying in the theme that you have both raised 
about project management, I'm sure we'll come back to it, but 
we are providing, trying to provide a completely new discipline 
in how these are advanced. I view, in fact, one of the major 
projects not mentioned is the waste treatment project at 
Hanford, probably the largest, most complex, and there we're 
still negotiating with the State. But we have put forward a new 
phased framework that the State has agreed with. Now we have to 
work out dates and things.


                           prepared statement


    But I think, again, we're trying to bring realism and 
discipline to this process, give you a baseline when we've done 
90 percent design, not 10 percent design.
    With those comments, thank you for your time, and I look 
forward to the discussion.
    [The statement follows:]
                   Prepared Statement of Ernest Moniz
    Chairwoman Mikulski and Chairman Feinstein, Ranking Members Shelby 
and Alexander, and Members of the Committee, thank you for the 
opportunity to appear before you today to discuss the Department of 
Energy's (DOE) Budget Request for fiscal year 2015. This is my first 
time appearing before this subcommittee since I joined the Department 
of Energy last May, and I appreciate the opportunity to discuss how the 
budget request advances our clean energy, science, nuclear security, 
and nuclear waste cleanup goals to carry out the President's 
priorities.
    The President has made clear that the Department of Energy has 
significant responsibilities for advancing the Nation's prosperity and 
security through its mission. In particular, I would like to highlight 
three critical mission areas of the Department.
    As the President said in the State of the Union address, ``the all-
of-the-above energy strategy I announced a few years ago is working, 
and today, America is closer to energy independence than we've been in 
decades.'' This strategy is driving economic growth and creating jobs, 
while lowering our carbon emissions. We are producing more natural gas 
in the United States than ever before. And for the first time in 20 
years, we are producing more oil at home than we import from the rest 
of the world. We have also made remarkable progress in clean and 
renewable energy. In the last 5 years, we have more than doubled the 
amount of electricity we generate from wind and solar. At the same 
time, we are making the investments that will enable coal and nuclear 
power to be competitive in a clean energy economy, and aggressively 
advancing efficiency for its economic and environmental benefits.
    In June 2013, the President launched the Climate Action Plan. Under 
this plan, the Department is working to reduce the serious threat of 
climate change and, with a heightened focus on resilience, preparing 
American communities for the impacts of a changing climate that are 
already being felt.
    Just over a week ago at the Nuclear Security Summit in The Hague, 
the President reiterated his commitment to nuclear nonproliferation and 
security, calling on the global community to decrease the number of 
nuclear weapons, control and eliminate nuclear weapon-usable materials, 
and build a sustainable and secure nuclear energy industry. All of 
these areas are central to the Department of Energy's mission: 
maintaining a strong and credible strategic deterrent, working to 
secure and eliminate vulnerable nuclear materials around the world, and 
advancing safe nuclear power technology for the decades ahead.
    Both of these mission areas--clean energy and nuclear security--
depend on sustaining America's research and development (R&D) 
leadership. The Department of Energy, to a large extent through our 17 
national laboratories, plays a key role in our Nation's respective 
advantage in the physical sciences.
    Finally, the President's Management Agenda includes an emphasis on 
Federal agencies' effective and efficient execution of their missions 
for the American people.
  carrying out doe's top priorities through an effective organization
    The Department of Energy's budget request for fiscal year 2015 
aligns the agency's funding and organization with these three 
presidential priorities.
    First, while the Department's science and energy programs have 
previously been managed and overseen separately by two under 
secretariats, we have merged those roles into a single Under Secretary 
for Science and Energy to more effectively carry forth our science and 
energy priorities. I'll discuss some of the cross-cutting initiatives 
facilitated by this new organizational structure, as well as how we are 
reexamining and strengthening the way we work with our National 
Laboratories to better carry out our science and energy missions.
    Next, an Under Secretary for Nuclear Security, who also serves as 
Administrator for the National Nuclear Security Administration, 
oversees our nuclear security missions and ensures effective and 
efficient collaboration across under secretariats on crosscutting 
activities and missions. This Under Secretary is also engaging in 
discussions with the National Laboratories and with Congress to ensure 
that all of our sites are working to serve the public interest to the 
greatest extent possible. This position is, of course, established with 
the principle high level charge of preserving U.S. nuclear security, 
this why we are moving the Office of Environmental Management to the 
new Under Secretary for Management and Performance.
    Finally, we created the Under Secretary for Management and 
Performance to implement a strong focus on management to effectively 
carry out our missions on behalf of the American people. It is not a 
secret that DOE has room for improvement in this area, and establishing 
this new position will bring focus and leadership to these challenges.
    This Under Secretary focuses on management across the Department, 
and oversees our environmental cleanup programs. It is inherently 
complex and challenging to design and implement one-of-a-kind projects 
to nuclear safety standards. We have had many successes in implementing 
major projects at the Department of Energy, and obviously we have had 
and are continuing to have major challenges. We have reduced our Cold 
War legacy ``footprint'' by 74 percent. But of course, the most complex 
and difficult projects remain. A focus on management and performance is 
critical to further building upon our successes and overcoming our 
challenges.
    The Department of Energy's top-line discretionary budget request 
for fiscal year 2015 is $27.9 billion, a 2.6 percent increase above 
fiscal year 2014. The Department of Energy's 2.6 percent increase 
recognizes our high-priority missions for clean energy and addressing 
climate change, nuclear security, and innovation. The Department of 
Energy's budget request includes $9.8 billion for energy, science, and 
related programs, $11.9 billion for nuclear security, and $6.5 billion 
for management and performance and related programs. I will discuss the 
budget request for each of these three programmatic areas in more 
detail.
    Recognizing the importance of the 2-year budget agreement Congress 
reached in December, the Budget adheres to the 2013 Bipartisan Budget 
Act's discretionary funding levels for 2015. However, these levels are 
not sufficient to expand opportunity to all Americans or to drive the 
growth our economy needs, and the need for pro-growth investments in 
infrastructure, education, and innovation has only increased due to the 
Great Recession and its aftermath. For that reason, the Budget also 
includes a separate, fully paid for $56 billion Opportunity, Growth, 
and Security Initiative (OGSI), which shows how additional 
discretionary investments in 2015 can spur economic progress, promote 
opportunity, and strengthen national security. Consequently, in 
addition to the base budget submission of $27.9 billion for the 
Department of Energy, OGSI provides $1.6 billion for additional 
investments at the Department of Energy. Those investments consist of 
over a billion dollars in the energy and climate arena--including $355 
million for climate resilience and $684 million for clean energy and 
energy efficiency activities--and $600 million for additional 
investments in nuclear security.
    In addition to our discretionary budget and OGSI, the Budget also 
proposes an Energy Security Trust. This $2 billion investment over 10 
years will support R&D into a range of cost-effective technologies--
like advanced vehicles that run on electricity, homegrown biofuels, 
renewable hydrogen, and domestically produced natural gas--and will be 
drawn from existing royalty revenues generated from Federal oil and gas 
development.
                           science and energy
    The budget request includes $9.8 billion for science and energy 
programs to further our all-of-the-above energy strategy, support the 
President's Climate Action Plan, continue the Quadrennial Energy 
Review, and maintain global scientific leadership. The request includes 
$4.7 billion for a portfolio of energy activities consisting of our 
applied energy programs, the Advanced Research Projects Agency--Energy 
(ARPA-E), the Loan Programs, International Affairs, the Energy
    Information Administration, our new Energy Policy and Systems 
Analysis program, our proposed consolidation of the Office of Indian 
Energy Policy and Programs, and the Power Marketing Administrations. 
These offices reflect the wide diversity of programs, roles, and 
responsibilities that we have in the Nation's energy sector.
    The budget request for science and energy also includes $5.1 
billion for the Office of Science, which provides the national research 
community with unique research opportunities at major facilities for 
nuclear and particle physics, energy science, materials research and 
discovery, large-scale computation, and other disciplines.
    Together, these programs support the President's Climate Action 
Plan, further an all-of-the-above energy strategy, and promote and 
sustain U.S. leadership in science and technology innovation to ensure 
that clean energy technologies are invented and manufactured here in 
America.
Energy Efficiency and Renewable Energy
    The Department's Office of Energy Efficiency and Renewable Energy 
(EERE) is the U.S. Government's primary clean energy technology 
organization, working with many of America's best innovators and 
businesses to support high-impact applied research, development, 
demonstration, and deployment (RDD&D) activities in the areas of 
sustainable transportation, renewable power, and energy efficiency.
    EERE has experienced tremendous success in contributing to efforts 
to reduce U.S. dependence on foreign oil, save American families and 
businesses money, and grow the domestic clean energy industry. For 
example, EERE has helped manufacturers increase their energy 
productivity, including providing technical support to 590 combined 
heat and power projects between fiscal year 2009 and fiscal year 2013. 
Since 1979, EERE-supported RD&D has advanced 220 new manufacturing 
technologies that can and will continue to significantly increase 
energy efficiency. In addition, through the EERE-supported SuperTruck 
Initiative, EERE partners have developed a full-scale, prototype class 
8 heavy-duty truck that is 61 percent more efficient than current 
technology. And these are only a couple of examples of the work 
underway.
    The budget request for EERE is $2.3 billion, a 22 percent increase 
over the fiscal year 2014 enacted level to fully support investments in 
these areas of sustainable transportation, renewables, and efficiency 
and manufacturing.
    From day one as Secretary, I have placed a strong emphasis on 
energy efficiency. This budget follows through on that focus by 
proposing a 39 percent increase in energy efficiency programs in 
building efficiency, weatherization of homes, advanced manufacturing, 
and Federal energy and State and local partnership activities. This 
increase includes funding for activities, such as developing and 
issuing new appliance standards and working with States on building 
code development, to strongly promote energy efficiency in support of 
our goals for the climate, the economy, and American competitiveness.
    In his State of the Union address, the President articulated his 
vision for supporting American manufacturing, including a focus on 
increasing the number of our manufacturing institutes to accelerate 
U.S. development of world-leading manufacturing technologies and 
capabilities. These Institutes connect businesses to research 
universities that can help America lead the world in advanced 
technologies. In addition to DOE's contribution to the first institute 
on additive manufacturing led by the Department of Defense, the 
Department of Energy awarded an additional institute this year that 
specializes in wide bandgap semiconductors and announced a competitive 
solicitation for an additional institute on advanced composites. The 
fiscal year 2015 budget request will support at least one additional 
manufacturing institute funded at up to $70 million over 5 years, with 
at least one-to-one matching funds from the recipient.
    Vehicle technologies are a major focus of DOE's EERE budget request 
and of the Energy Security Trust proposal. The fiscal year 2015 budget 
request supports research, development, demonstration, and deployment 
of efficient and alternative fuel vehicles, including the EV Everywhere 
goal that aims to make electric vehicles as affordable and convenient 
as the gasoline powered vehicles we drive today by 2022. This would be 
accomplished through cost reduction and improved performance in 
batteries, electric drive systems, lightweight materials, and 
integration with the electric power grid. The request also includes 
funding to continue a focused research and development effort to reduce 
the cost and increase the durability of fuel cell systems. The request 
further includes $60 million, administered through authority provided 
by the Defense Production Act, in collaboration with the Departments of 
Agriculture and Defense, to continue to enable the objective of 
producing advanced biofuels that meet military specifications at a 
price competitive with petroleum--an initiative first supported with 
DOE funding in fiscal year 2014.
    The Department's budget request also continues to advance renewable 
energy through a number of ongoing initiatives. The request supports 
the SunShot Initiative's mission to make solar energy technologies, 
including both solar photovoltaic (PV) and CSP technologies, cost-
competitive with traditional sources of electricity, without subsidies, 
by 2020. It supports research, development and demonstration for wind 
energy, including funds for three advanced offshore wind demonstration 
projects to be operational by 2017, and it includes funding to advance 
technologies in both conventional hydropower and marine and 
hydrokinetic devices. The request continues to support the Frontier 
Observatory for Research in Geothermal Energy (FORGE), a new geothermal 
energy R&D project started in fiscal year 2014, and a critical step for 
learning how to harness our vast but untapped domestic geothermal 
resources through enhanced geothermal systems.
Fossil Energy
    As part of our all-of-the-above energy strategy, DOE's Fossil 
Energy Research and Development program advances technologies related 
to the reliable, efficient, affordable, and environmentally sound use 
of fossil fuels which are essential to our Nation's security and 
economic prosperity. Since President Obama took office, the Department 
of Energy has invested more than $6 billion in carbon-capture and 
storage (CCS) research, development and demonstration. The Office of 
Fossil Energy is leading this charge, supporting critical research and 
deployment efforts to ensure that all sources of energy, including 
fossil fuels, are competitive in a carbon constrained economy.
    The budget request continues the Department's strong focus on 
carbon-capture and storage (CCS) through its $476 million request for 
Fossil Energy (FE) Research and Development. In addition to our current 
portfolio of demonstration projects, The request includes $25 million 
for a new demonstration program, Natural Gas Carbon Capture and Storage 
(NG-CCS), to support a project to capture and store carbon emissions 
from natural gas power systems. Looking into the future, CCS 
technologies will be required for natural gas, as with coal, to be a 
major player in a low-carbon world.
    In addition, the Loan Guarantee Program is currently receiving 
applications for up to $8 billion in loan guarantees focused on 
advanced fossil energy projects that reduce CO2 emissions. Together 
with these ongoing projects and the fossil loans, the fiscal year 2015 
budget request constitutes a major fossil energy program.
    The request includes $15.3 million to implement priority 
collaborative research and development with the Environmental 
Protection Agency and Department of the Interior to ensure that shale 
gas development is conducted in a manner that is environmentally sound 
and protective of human health and safety; $4.7 million to fund a new 
midstream natural gas infrastructure program focused on advanced cost-
effective technologies to detect and mitigate methane emissions from 
natural gas transmission, distribution, and storage facilities and to 
communicate results on methane emissions mitigation to stakeholders; 
and, $15 million to conduct lab- and field-based research focused on 
increasing public understanding of methane dynamics in gas-hydrates 
bearing areas.
    The budget request provides for the full operational readiness of 
the Strategic Petroleum Reserve including restoration of its designed 
drawdown capability.
Nuclear Energy
    The Office of Nuclear Energy works to advance nuclear power as a 
resource capable of contributing to meeting the Nation's energy supply, 
environmental, and national security needs. The budget request for the 
Office of Nuclear Energy, $863.4 million, is roughly flat compared to 
the fiscal year 2014 appropriated level. The Office will continue 
ongoing work with particular focus in two main areas: the development 
of next-generation nuclear reactors and the management of nuclear 
waste.
    For next-generation reactors, the budget request continues to fund 
research and development on advanced reactor technologies, as well as 
technical support for two awards to help accelerate the 
commercialization of small modular reactors. It also provides funding 
for the continuation of the Department's first Energy Innovation Hub 
into a final 5 year term, assuming the determination is made that the 
Hub meets all requirements and criteria to be eligible for renewal. The 
Department is using a formal process make the renewal determination, 
which will be completed within fiscal year 2014. This hub is focused on 
nuclear energy modeling and simulation and currently centered at Oak 
Ridge National Laboratory.
    In addition to the focus on new reactor technologies, the budget 
request funds for activities to advance the Administration's Strategy 
for the Management and Disposal of Used Nuclear Fuel and High-Level 
Radioactive Waste. The budget request continues to lay the groundwork 
for implementation within existing authorities by providing $79 million 
for Used Fuel Disposition activities, including $30 million for generic 
process development and other activities related to storage, 
transportation, disposal, and consent-based siting, and $49 million for 
related generic research and development. The budget also includes a 
funding reform proposal needed to support implementation of the nuclear 
waste management program over the long term.
Electricity Delivery and Energy Reliability
    The Electricity Delivery and Energy Reliability (OE) program drives 
electric grid modernization and resiliency in the energy infrastructure 
through research and development, partnerships, facilitation, modeling 
and analytics, and emergency preparedness and response. OE also serves 
as the Federal Government's primary liaison to the energy sector in 
responding to energy security emergencies, both physical and cyber.
    OE's development of advanced sensors to measure the flow of 
electricity in real time is enabling grid operators to monitor system 
health and mitigate disturbances.
    Roughly 1,700 sensors have now been installed nation-wide, 
providing wide visibility of the grid that can prevent the kind of 
cascading events that caused the 2003 blackout. OE's cybersecurity 
research has produced commercially available tools designed 
specifically for the energy sector. Just one example is a tool to 
assist the electricity sector assess and strengthen their cybersecurity 
maturity posture. This program has been accessed by over 100 utilities 
and has now been adapted and released for use by the oil and natural 
gas sector. OE also responded to three energy emergency events in 
fiscal year 2013, including Superstorm Sandy, facilitating restoration 
efforts through trained analysts and responders coupled with the 
deployment of the program's near-real time visualization capability, 
enabling quicker power restoration and fuel delivery systems.
    The budget request, $180 million, includes a substantial increase 
for OE, over 20 percent, to emphasize grid modernization and resiliency 
in several areas. The budget increase supports the Department's growing 
focus on increasing the resiliency of the energy infrastructure through 
emergency preparedness and response. From the severe cold weather over 
the past winter to extreme storms, including Superstorm Sandy, we have 
seen how important these activities are. The Department is also focused 
on the growing danger of cyber-attacks and the physical security of the 
grid. The budget increases funding to strengthen the energy 
infrastructure, critical for national, economic and energy security, 
against both natural and man-made hazards, through research and 
development and through the establishment of an Energy Resilience and 
Operations Center.
    The budget increase also helps move the Nation closer not only to a 
more resilient grid, but one that is also more reliable, efficient and 
flexible through research and development into microgrids and grid-
scale energy storage. It also invests in transformation of the 
distribution system toward higher performance through new, more 
advanced control systems.
Advanced Research Projects Agency--Energy
    The Advanced Research Projects Agency--Energy (ARPA-E) program 
takes a unique entrepreneurial approach, supporting high-risk high-
reward energy technology research projects that could create the 
foundation for entirely new industries, but are too early in their 
development for private sector investment. With ARPA-E, we are swinging 
from the heels and trying to hit home runs, not just base hits.
    ARPA-E has invested over $900 million across 363 projects through 
18 focused programs and two open funding solicitations. In the past 
year alone, ARPA-E has launched focused programs to improve techniques 
to manufacture light-weight metals, develop robust battery chemistries 
and architectures for electric vehicles, biologically convert natural 
gas to liquids, create innovative semiconductor materials for improved 
power conversion, and use solar concentration techniques for hybrid 
solar converters. To date, 22 ARPA-E projects have attracted more than 
$625 million in private-sector follow-on funding after ARPA-E's 
investment of approximately $95 million.
    ARPA-E funded companies and research teams have successfully 
engineered microbes that use carbon dioxide and hydrogen to make a fuel 
precursor for cars, developed a one megawatt silicon carbide transistor 
the size of a fingernail, produced a new hardware device that regulates 
the flow of power on the electrical grid and software that allocates 
electricity in much the same way Internet routers allocate bandwidth 
throughout the Internet.
    The budget request provides $325 million for ARPA-E, a 16 percent 
increase, which will be split between an open solicitation to capture 
potentially transformational ideas not within the scope of existing 
programs, as well as 4-5 new programs looking at critical energy 
challenges.
Loan Programs
    The Department's Loan Programs Office supports a large, diverse 
portfolio of more than $30 billion in loans, loan guarantees, and 
commitments, supporting more than 30 closed and committed projects. The 
projects that LPO has supported include one of the world's largest wind 
farms; several of the world's largest solar generation and thermal 
energy storage systems; the first new nuclear reactors to begin 
construction in the United States in more than three decades; and more 
than a dozen new or retooled auto manufacturing plants across the 
country. The program as a whole is performing very well to date, with 
losses below expected levels.
    The example of utility scale solar shows how the Loan Program can 
jumpstart an entire industry. If we think back to 2009, photovoltaic 
projects larger than 100 MW were non-existent in the United States. And 
there was no commercial financing market for large solar projects. 
Using Recovery Act Funds, our Loan Program Office financed the first 
six utility scale PV projects in the United States. And these projects 
helped prove to private industry that the technology was viable and 
cost effective. Since our initial investments, 10 new utility scale 
projects have been funded by the private sector.
    The budget request includes administrative funds for the Title 17 
Innovative Technology Loan Guarantee Program and the Advanced 
Technology Vehicles Manufacturing Loan Program. While the budget does 
not propose new loan authority or credit subsidies, I would note that 
the Loan Program celebrated a number of milestones in the last few 
months, including the opening of the Ivanpah solar plant--the world's 
largest solar-thermal plant--and the financial closing of two loan 
guarantees to support the construction of the Vogtle nuclear reactor 
project. We have also begun accepting applications for an $8 billion 
advanced fossil energy loan guarantee solicitation, and we look forward 
to continue to use the Program's existing authority to support the 
President's all-of-the-above energy strategy.
Energy Information Administration
    The Energy Information Administration (EIA) is the statistical and 
analytical agency in the Department of Energy. EIA collects, analyzes, 
and disseminates independent and impartial energy information to 
promote sound policymaking, efficient markets, and public understanding 
of energy and its interaction with the economy and the environment. In 
the last year, EIA released a new Drilling Productivity tool, which has 
already received widespread, praised from industry participants and 
will also lead to a more accurate baseline for production estimates in 
many other of EIA's reports. In 2013, EIA also launched the most 
comprehensive portal of the U.S. Government's national and State energy 
data currently available.
    EIA is important both to the mission of the Department and also to 
the functioning of energy markets. The budget request proposes $122.5 
million, an increase of 5 percent, to fully support EIA's important 
capabilities through upgrades to its infrastructure and the development 
of the new products for evolving energy markets.
Energy Policy and Systems Analysis
    The Office of Energy Policy and Systems Analysis (EPSA), 
established last year, serves as my principal policy advisor on energy 
and related integration of energy systems and acts as a focal point for 
the Department's analysis and development of energy policy that could 
facilitate the transition to a clean and secure energy economy. EPSA 
carries out strategic studies and policy analysis, maintains and 
coordinates a supporting set of analytical capabilities, and carries 
out assessments of the strength, resiliency, and anticipated challenges 
of national energy systems.
    By identifying and prioritizing ways in which DOE programs may be 
strengthened to contribute to the economic well-being, environmental 
quality, and energy security of the United States, EPSA plays a 
critical role in the Department's policy formulation, and in efforts 
like the Quadrennial Energy Review (QER) and DOE's crosscutting grid 
modernization initiative.
    The QER report will provide an integrated view of, and 
recommendations for, Federal energy policy in the context of economic, 
environmental, occupational, security, and health and safety 
priorities, with attention in the first report given to the challenges 
facing the Nation's energy infrastructures. It will review the 
adequacy, with respect to energy policy, of existing executive and 
legislative actions, and recommend additional executive and legislative 
actions as appropriate; assess and recommend priorities for research, 
development, and demonstration programs to support key energy-
innovation goals; and identify analytical tools and data needed to 
support further policy development and implementation.
    The budget request for EPSA is $38.5 million, an increase of $22.4 
million, to support several key initiatives. The increase primarily 
funds the crosscutting grid modernization efforts, as well as analytics 
and modeling in support of DOE's responsibility as secretariat for the 
government-wide Quadrennial Energy Review.
Indian Energy Policy and Programs
    The Office of Indian Energy Policy and Programs (IE) directs, 
fosters, coordinates, and implements energy planning, education, 
management, and competitive grant programs to assist Tribes with clean 
energy development and infrastructure, capacity building, energy costs, 
and electrification of Indian lands and homes. IE performs these 
functions consistent with the Federal Government's trust 
responsibility, Tribal self-determination policy, and government-to-
government relationship with Indian Tribes, and accomplishes its 
mission through technical assistance, education, and capacity building; 
research and analysis; and financial assistance to Indian Tribes, 
Alaska Native Tribes and corporations, and Tribal energy resource 
development organizations.
    The budget request, which provides $16 million for Indian Energy 
Policy and Programs as a separate appropriation, reflects the 
consolidation of our tribal energy programs into a single office.
Science
    DOE's science programs provide the technical underpinnings to 
accomplish the Department's missions and form part of the backbone of 
basic research in the physical sciences in the United States. Almost 
28,000 researchers use Office of Science user facilities each year, and 
the successful construction and operation of these facilities is 
central to the economic competitiveness, national security, and 
scientific leadership of the Nation.
    The budget request provides $5.1 billion for the Office of Science, 
a 1 percent increase above fiscal year 2014. The request builds upon 
the Department's strength in the development of large-scale 
computational capability. The fiscal year 2015 request supports the 
Office of Science in developing next-generation computational tools--
and in applying these tools to many of science's grand challenges, such 
as climate modeling and computational material science.
    In particular, Science will lead, in conjunction with the National 
Nuclear Security Administration (NNSA), research focused on developing 
capable exascale computing platforms. Maintaining a strong program in 
high performance computing will be tremendously important to our 
economic competitiveness and national security, and government-wide 
coordination of this effort will ensure that the United States remains 
a global leader in high-performance computing for science, defense and 
industry.
    The budget request also supports our ongoing commitment to leading-
edge scientific facilities. The request ramps up construction of the 
Facility for Rare Isotope Beams at Michigan State University, which was 
dedicated on March 17. The request also continues construction of the 
Linac Coherent Light Source II--another example of the many cutting-
edge DOE facilities that provide an unparalleled set of research tools 
to tens of thousands of science users.
    In fiscal year 2015, we sustain our commitment to our highly 
productive Energy Frontier Research Centers and three Bioenergy 
Research Centers. The budget request also includes funding for the 
Office of Science's two Energy Innovation Hubs, which focus on 
batteries and converting sunlight to liquid fuels. I would also note 
that I have charged the Secretary of Energy Advisory Board to look at 
how we can evaluate and continue to improve the performance of the 
Department's Hub model moving forward. The Advisory Board's draft 
report was released late last month, and I would be happy to discuss 
its findings once the report is finalized.
Crosscutting Initiatives
    Finally, we have identified a number of areas for crosscutting 
initiatives to tackle common challenges and recognize shared 
opportunities across multiple DOE offices. I have selected these 
initiatives because of their potential to be game-changers in energy 
and security, to add value through collaboration and leveraging DOE's 
full breadth of research and technologies, and to ensure there is no 
duplication of effort. These collaborative efforts extend across DOE's 
programs and National Labs and are designed to leverage the unique, 
first-class array of facilities and capabilities that exist across the 
DOE complex.
    The grid modernization initiative implements a unified strategy to 
address institutional and technological challenges to creating a more 
secure, resilient, and flexible future grid. The initiative enlists the 
unique strengths and focuses of four offices: OE, EERE, EPSA, and the 
Office of Congressional and Intergovernmental Affairs.
    The subsurface environment is critical to the United States for 
energy production, energy and CO<INF>2</INF> storage, remediation of 
existing legacy waste, and ultimate disposal of future energy wastes. 
With the subsurface crosscutting initiative, DOE is bringing together 
its Science, Fossil Energy, Environmental Management, Energy Efficiency 
and Renewable Energy, and Nuclear Energy programs into a coherent, 
coordinated approach to common challenges in characterizing, 
engineering, monitoring, and controlling subsurface systems in various 
geologic environments.
    The exascale computing initiative continues research and 
development with our Office of Science and NNSA leading to the 
implementation of advanced computing systems that will be tremendously 
productive for science, defense, and our Nation's innovation 
leadership. An approach coordinated across DOE Offices as well as 
across the government will help to accelerate that effort. The 
Department of Energy is part of an interagency effort to optimize 
investments to sustain our Nation's leadership in high performance 
computing to the benefit of our research capacity, our nuclear security 
and our industrial base.
    Supercritical carbon dioxide (SCO<INF>2</INF>) power systems have 
broad potential for substantially lower-cost, higher-efficiency energy 
in a number of energy areas. The supercritical CO<INF>2</INF> 
crosscutting initiative continues related work in renewable energy and 
fossil energy, and fully-funds a new 10-megawatt supercritical 
CO<INF>2</INF> technology electric power (STEP) demonstration project 
in the Office of Nuclear Energy.
    Finally, the cybersecurity crosscutting initiative funds activities 
in four offices-- NNSA, OE, Science, and the Chief Information 
Officer--to strengthen the protection of DOE from cyber-attacks, 
bolster the Nation's capabilities to address cyber threats, and improve 
the cybersecurity of the energy sector.
                            nuclear security
    The budget request provides $11.9 billion for our nuclear security 
missions, a 4 percent increase over fiscal year 2014, in support of 
national security priorities articulated in the 2010 Nuclear Posture 
Review, the Stockpile Stewardship and Management Plan, and the 2010 
National Security Strategy of the United States, to secure nuclear 
materials globally, and to ensure protection of DOE's national security 
assets.
Weapons Activities
    The Department of Energy is responsible for certifying a safe and 
reliable stockpile without testing, as long as we have nuclear weapons. 
While budget caps have put difficult constraints on the Nation's 
national security enterprise, the interagency planning process--
involving the Department of Defense, Department of Energy, National 
Security Council, and the Office of Management and Budget--created a 
revised strategy and budget request that remains committed to the ``3+2 
strategy'' to maintain a safe and reliable stockpile while reducing the 
numbers and types of weapons in the next two decades.
    The fiscal year 2015 budget request for Weapons Activities is $8.3 
billion, a $534 million or a 7 percent increase over fiscal year 2014, 
to maintain a safe, secure, and effective nuclear stockpile, and to 
strengthen key science, technology, and engineering capabilities and 
modernize the national security infrastructure. The budget request 
supports the revised strategy to achieve the B61-12 LEP First 
Production Unit (FPU) by fiscal year 2020 and complete production of 
the W76-1 warhead by fiscal year 2019. The strategy defers the W78/88-1 
Life Extension Program by 5 years, achieves the W88 ALT 370 FPU in the 
first quarter of fiscal year 2020, and delays the Long-range Standoff 
warhead by 3 years to 2027, while evaluating the option for a future 
budget request. Under the strategy, the budget continues engineering 
design for the Uranium Processing Facility into fiscal year 2015, and 
it continues to support the Nation's current and future defense posture 
and its attendant nationwide infrastructure of science, technology and 
engineering capabilities. We are also continuing to make the 
investments necessary for maintaining continuity of plutonium 
capability at Los Alamos National Laboratory while reducing safety 
risks in the Chemistry and Metallurgy Research Facility and PF-4.
    The budget request also includes funding for Defense Nuclear 
Security (DNS) to support DOE's physical security reform efforts 
emphasizing mission performance, responsibility, and accountability. 
The request also provides funding within Weapons Activities to sustain 
emergency response and nuclear counterterrorism capabilities that are 
applied against a wide range of high-consequence nuclear or 
radiological incidents and threats.
    In short, the budget request continues to support interconnected 
critical life extension programs; rebuilding of infrastructure; and the 
continuation of the science and engineering base that we will need in 
the long run for certification of the Nation's stockpile.
Defense Nuclear Nonproliferation
    The Defense Nuclear Nonproliferation (DNN) fiscal year 2015 budget 
request is $1.6 billion, a $399 million reduction from fiscal year 
2014. The Office of Defense Nuclear Nonproliferation continues to 
support U.S. leadership in nonproliferation initiatives both at home 
and abroad that increase global nuclear security. While we will 
continue to support a very robust program, the DNN budget reflects a 
substantial reduction, which is a result of difficult choices within 
our prescribed budget caps. Further, more than half of the reduction to 
DNN's budget is due to reduced funding for the Mixed Oxide Fuel 
Fabrication Facility.
    DNN has had many successes in recent years. Since the President 
laid out his nuclear security agenda in 2009, DOE's Office of Defense 
Nuclear Nonproliferation (DNN) has removed or confirmed the disposition 
of over 3,000 kilograms of highly enriched uranium (HEU)--enough 
material for more than 100 nuclear weapons. These removal activities 
have resulted in 11 countries plus Taiwan becoming HEU-free. DNN has 
also overseen the downblending of roughly 13 metric tons of surplus 
U.S. HEU, and cooperated with Russia in the downblending of about 2 
metric tons of Russian HEU. I have just returned from the Nuclear 
Security Summit in The Hague where the United States and Japan 
announced a program to remove hundreds of kilograms of HEU from Japan's 
Fast Critical Assembly.
    After the conclusion of a 4-year accelerated effort, the budget 
request supports continued efforts to secure or eliminate the world's 
most vulnerable nuclear weapon materials. The Global Threat Reduction 
Initiative will continue to convert or shutdown HEU reactors, remove 
vulnerable HEU and plutonium, and protect additional buildings 
containing high-priority materials. The research and development 
program will continue to improve capabilities in nonproliferation and 
foreign weapons program activity monitoring.
    The Fissile Material Disposition program remains a vital 
commitment. However, as part of an ongoing analysis of options to 
dispose of U.S. surplus plutonium, it has become apparent that the 
Mixed Oxide (MO<INF>X</INF>) Fuel Fabrication Facility will be 
significantly more expensive than anticipated, and therefore, the 
budget request places the MO<INF>X</INF> Facility in cold stand-by 
while the Department evaluates plutonium disposition options. While we 
remain committed to the disposal of the 34 metric tons of weapons 
plutonium, we must go into a standby mode while we look at the full 
range of options.
Naval Reactors
    The Office of Naval Reactors supports the U.S. Navy's fleet of 
aircraft carriers and submarines by maintaining its unique 
infrastructure and advanced naval nuclear capabilities. The fiscal year 
2015 budget includes funding for Naval Reactors operations at four 
Program sites including two laboratories, two operating prototype 
training reactors and spent fuel handling operations
    Naval Reactors' request for fiscal year 2015 is $1.4 billion, an 
increase of 26 percent ($263 million) over fiscal year 2014 spending 
levels. The increase is critical to ensuring maintenance of the high 
standards required to operate the U.S. Navy's nuclear-powered Fleet and 
executing its National Security mission. It further funds research, 
development, engineering and testing required to support operating and 
future nuclear powered warships.
    The Program is advancing the design of the life-of-ship core for 
the OHIO-class Replacement submarine and meeting scheduled milestones 
for manufacturing and development efforts being performed as part of 
the Land-based Prototype Refueling Overhaul. Naval Reactors continues 
conceptual design for recapitalizing its spent fuel handling facility 
in Idaho. The facility is critical to meeting the Navy's aircraft 
carrier refueling schedule.
NNSA Federal Salaries and Expenses
    The fiscal year 2015 budget request includes $411 million for NNSA 
Federal Salaries and Expenses, formerly the Office of the 
Administrator, to support the staffing and Federal support needed to 
meet mission requirements. The $33 million increase over fiscal year 
2014 primarily results from the congressionally-directed transfer of 
Corporate Project Management and $20 million to move the Albuquerque 
Complex to a different leased facility.
                       management and performance
    The fiscal year 2015 budget request provides $6.5 billion for 
management and performance programs, to support efforts to manage more 
effectively and to meet our legal and moral obligations to clean up 
nuclear waste from the Cold War. As mentioned, a suite of efforts 
supported by the budget aim to improve how effectively we carry out our 
missions for the American people.
    The budget request moves responsibility for the Environmental 
Management program from the Under Secretary for Nuclear Security into a 
mainline responsibility for the Management and Performance Under 
Secretary in order to improve departmental management and execution of 
some of our most technically-complex cleanup missions. We are currently 
implementing a reorganization to establish an enterprise-wide approach 
to health, safety and security that improves both execution and 
accountability. We continue to support diversity, small businesses, and 
Native Americans across activities at the Department.
    We are pushing forward initiatives to improve the strategic 
partnership with the National Laboratories including by establishing a 
National Laboratory Policy Council and a National Laboratory Operations 
Board to address strategic and management issues with leadership from 
the Department and the Laboratories. We are also working to improve 
delivery and reduce the cost of human resource functions and IT 
services, to strengthen management through new cyber and incident 
management councils, and to institutionalize more effective enterprise-
wide project management by convening a senior-level working group with 
representatives from across the Department.
Environmental Management
    The Environmental Management (EM) program is responsible for the 
cleanup of millions of gallons of liquid radioactive waste, thousands 
of tons of used nuclear fuel and special nuclear material, and large 
volumes of transuranic, mixed, and low-level waste and contaminated 
soil and water. The program also supports the deactivation and 
decommissioning of thousands of excess facilities across the complex.
    The EM Program has achieved a number of recent successes. To 
provide just a few examples, the program has completed cleanup at 91 of 
107 sites across the country and significant portions of the remaining 
16 sites. Sites that once housed large industrial complexes, like Rocky 
Flats in Colorado and Fernald in Ohio, are now wildlife preserves. In 
December 2013, EM closed two additional radioactive waste storage tanks 
at the Savannah River Site, a major milestone that brings the total 
number of tanks closed to six. At Oak Ridge, EM recently completed 
demolition of the K-25 facility, a mile-long, facility that was once 
the world's largest building under one roof. EM has decommissioned and 
demolished another 2 million square feet of excess facilities at the 
Idaho National Laboratory. And at Los Alamos National Laboratory, EM is 
on track to meet its commitment to complete the removal of all above-
ground combustible transuranic waste by the end of June, despite the 
temporary closure of Waste Isolation Pilot Plant.
    The fiscal year 2015 budget request provides $5.6 billion for 
Environmental Management to meet the Nation's legal and moral 
imperatives for environmental remediation at DOE sites. The budget 
request continues to support cleanup progress at 16 sites across the 
DOE complex, including continued progress on environmental management 
of the former uranium enrichment facilities at Oak Ridge, Portsmouth, 
and Paducah. EM has successfully completed many cleanup projects. What 
remains are some of the most complex cleanup efforts.
    For example, the request supports continued construction of the 
Hanford Waste Treatment and Immobilization Plant (WTP) and efforts to 
resolve the project's remaining safety and technical challenges. 
Consistent with the Department's revised option for WTP, which is 
designed to move the WTP toward immobilization of waste as soon as 
practicable while resolution of technical issues continues, the fiscal 
year 2015 budget includes support for analysis and preliminary design 
of a Low Activity Waste Pretreatment System. This approach demonstrates 
a commitment to complete the Waste Treatment Plant in a realistic and 
sustainable way. This will give Congress and the affected communities' 
stronger confidence in the Department to get the job done. We will also 
continue making tank waste cleanup progress at Savannah River and 
Idaho.
    The Budget also proposes $172 million for Legacy Management (LM), 
the final element of site remediation and closure after active 
remediation is complete. LM fulfills the Department's commitments to 
ensure protection of human health and the environment and ensure all 
contractual obligations are met.
                               conclusion
    The Department of Energy's fiscal year 2015 budget request will 
allow it to deliver the innovative and transformative scientific and 
technological solutions to energy, security, economic, and 
environmental challenges facing the United States in the 21st century.
    Through its Science and Energy programs, the budget request will 
further the President's Climate Action Plan to cut carbon pollution 
while reducing America's dependence on foreign oil and will support an 
all-of-the-above energy strategy. The budget request for Nuclear 
Security programs will advance the President's vision for reducing the 
levels of nuclear weapons in the world, strengthen nonproliferation 
efforts, and combat nuclear terrorism. Finally, the request for 
Management and Performance programs will allow DOE to address the legal 
and moral imperative of cleaning up legacy nuclear waste and to better 
manage our programs on behalf of the American people.
    Thank you, and I would be pleased to answer your questions.

    Senator Feinstein. Thank you very much.
    In the interest of comity and non-partisanship and 
progress, Leader, if you would like to----
    Senator Alexander. Justice and truth.
    Senator Feinstein. Oh, justice and truth, absolutely.
    If you would like to ask your questions now, please go 
ahead.

                  THE PADUCAH GASEOUS DIFFUSION PLANT

    Senator McConnell. Well, thank you very much, Chairwoman 
Feinstein and Senator Alexander, for the opportunity to make 
some brief comments and interact with the Secretary on an issue 
very important to my State.
    Mr. Secretary, you and I have talked before, and I'm here 
to inquire again about your department's long-term plans for 
clean-up at the Paducah Gaseous Diffusion Plant.
    For 60 years, the plant has been the major economic driver 
in far-western Kentucky. The facility, as you know, is now 
transitioning following the Administration's decision to cease 
enrichment activities there.
    I want to thank you for the attention you've given the 
Paducah site, and in particular your work on future energy 
development opportunities there.
    However, I remain deeply concerned with the Department's 
long-term plans for clean-up at the site. As you know, the 
Administration's decision to cease enrichment at the facility 
has already led to hundreds of layoffs of hard-working, highly 
skilled Kentuckians and has created a great deal of hardship 
and anxiety in the community.
    As I've noted in our previous conversations, there are 
certain steps that I hope you'll take to mitigate the impact of 
the facility's eventual closing by moving forward with this 
vital clean-up work.
    In that regard, I understand the Department intends to roll 
over some funding that was requested by the Administration last 
year and appropriated for fiscal year 2014 into fiscal year 
2015. So what is the Department's clean-up plan for fiscal year 
2014, and how many jobs do you expect those activities to 
create?
    Secretary Moniz. Thank you, Senator. We have enjoyed the 
opportunity to work with you and other members of the 
delegation in terms of Paducah's future. I would note that 
basically it was the company that decided to stop enrichment 
for market reasons. Now that will return to us and, of course, 
our job is to both go towards D&D (decontamination and 
decommissioning) while at the same time trying to work to get 
new activity at the site, as you mentioned, as we did last 
year.
    In terms of the rollover, we are now negotiating the 
contract for that handover. These large contracts typically in 
EM (Environmental Management) have been 12- to 15-month 
affairs. They're very complex. They're very long term. They're 
very, very large contract commitments.
    Senator McConnell. That leads to what I was going to ask 
you.
    Secretary Moniz. We are trying to accelerate that.
    Senator McConnell. Yes, I was going to ask you when you 
thought that negotiation might be completed.
    Secretary Moniz. We're trying to accelerate that into the 
10-month timeframe, which would be the end of the summer time 
period. That, in turn, will determine how much carryover there 
will be, which we currently estimate will be in the $50 to $70 
million range that we will apply to work in fiscal year 2015. 
So that's the basic structure.
    Senator McConnell. I was troubled to see the phrase ``cold 
and dark state'' used by the Administration to describe a 
potential condition for the Paducah facility in a recent 
Department budget document. I expect the Department to make 
decommissioning and decontamination at Paducah a top priority. 
Is it your intention to begin full D&D at the Paducah site as 
soon as possible?
    Secretary Moniz. We certainly want to move into D&D as soon 
as possible, and that's going to be a discussion in terms of 
the resources available to the program. But we want to do that 
as soon as possible. It's certainly in our interest, and I 
think it's appropriate for the community.
    Senator McConnell. The site has gone without a dedicated 
on-site manager for some time as to the vital position as the 
facility continues its transition. Do you have any idea when 
you're going to fill that position?
    Secretary Moniz. My understanding is the applications are 
closed. We will fill the position, and my understanding is we 
are just evaluating the final candidates. I can get back to you 
with a more precise date.
    Senator McConnell. Yes, that would be helpful, because I 
think everybody is anxious to know when we're going to get 
somebody in that position.
    And finally, Senator Feinstein, just one more question. 
I've heard continually from the community about the frustrating 
lack of communication from the Department regarding these long-
term clean-up plans for the site. Will you please work to 
ensure the Department takes the community's thoughts and 
concerns into consideration when developing these plans and 
communicate them more effectively?
    Secretary Moniz. We will certainly try. As you know, I've 
met with the mayor and others from the town. I think, frankly, 
getting our full-time manager in place hopefully will be a 
major part of that improved communication.
    Senator McConnell. So let me just wrap it up by saying that 
you know, you've been very responsible in this, you know that 
this is the single biggest driver of the economy in far-western 
Kentucky. This is a huge transition for those folks, and to the 
extent that you continue to focus on this, we would all be 
grateful. This clean-up is obviously going to go on for a 
number of years, and I hope it will enjoy a high priority with 
you.
    Secretary Moniz. Thank you.
    Senator McConnell. Thank you.
    Senator Feinstein. Thank you, Senator.
    We'll go back to regular order here.

                   NON-PROLIFERATION PROGRAM FUNDING

    Mr. Secretary, I appreciate your comment, and I wrote it 
down: ``I want to dispose of 34 tons of weapons plutonium and 
have the Russians do the same.'' In this budget, I don't see 
how you do it.
    If I understand what this is, the time goal set in 2012 for 
removing highly enriched uranium from 200 reactors around the 
world was 2022. The 2013 budget let this goal slip 8 years, to 
2030. Your budget submission lets this goal slip another 5 
years, to 2035. This simply is unacceptable at the same time 
we're pouring money into the modernization of certain warheads. 
It's just unacceptable.
    As another example, by 2025, the United States would have 
secured the most dangerous radiological materials in over 2,000 
buildings in the United States. Now instead, your budget 
submission lets this effort slip 20 years, to 2044.
    Has there been a change in threat assessment that I'm not 
aware of? Are terrorists no longer interested in acquiring 
nuclear or radiological bombs for improvised nuclear devices 
and dirty bombs? I don't understand how you can defend this 
budget on non-proliferation cuts.
    Secretary Moniz. Well, Chairman Feinstein, as I said and as 
you know, we certainly have a very constrained 2015 budget, and 
Administration-wide we proposed again the stockpile plan that 
we felt minimized the cost but yet achieved what has been 
agreed to I think very broadly in terms of nuclear posture 
review what we need for a safe and reliable stockpile without 
testing. Given that, we had to make some tough choices, and 
that appeared in many places.
    Now, as I say, the things like the GTRI (Global Threat 
Reduction Initiative) program, et cetera, they do have 
reductions, but I'll put it in the glass-half-full context at 
least, that I think we have accomplished a tremendous amount. 
There has been a surge, really, over the last 4 years with 12 
countries, all HEU removed from them, including I think three 
in the last year, year-and-a-half.
    We will continue that program, and I can assure you that I 
personally and, as you said, the President are very, very much 
committed to the non-proliferation program, and we hope that 
the resources will in the future allow us to accelerate.

          THE INTERNATIONAL THERMONUCLEAR EXPERIMENTAL REACTOR

    Senator Feinstein. Mr. Poneman, ITER, I'm very concerned 
about it. The costs are now between $4 and $6 billion to us, 
with $850 million spent to date. Major construction will be 
completed no earlier than 2023. That's another 4-year slip. And 
in October 2013, independent management review of the project 
found serious project management challenges, which could lead 
to serious, significant cost increases and schedule delays.
    I'm really beginning to believe that our involvement in 
ITER is not practical, that we will not gain what we hoped to 
gain from it, and instead this money could much better be spent 
elsewhere.
    Mr. Poneman. Chairman Feinstein, we share precisely the 
concerns that you've just stated, and indeed quite accurately 
in your opening statement. In fact, one review that we 
chartered ourselves found many of the shortcomings that you've 
identified, and a very hard-hitting management assessment.
    What I can assure you, Senator, is we have used these 
tools, and particularly the management assessment, which went 
to all the seven participating entities, the European 
Commission and six nations in the ITER council to say very 
bluntly and very clearly that we need to respond, and the 
international organization running the ITER project has to 
respond to all of those management assessment recommendations, 
has to come up with a corrective action plan, and has to 
execute it, and we are very much focused on that and holding 
them accountable to that, because it is critically important, 
if the project is to succeed, that we get our arms around these 
exact problems that you state.
    Senator Feinstein. Well, we'll talk more about that.
    Senator, would you like to proceed with questions?
    Senator Alexander. Thank you, Madam Chairman.
    I associate myself with the Chairman's comments about ITER. 
I don't need to repeat them.
    I'd like to make a comment, and then I'd like to ask a 
question and give the Secretary a chance to use the rest of the 
time to comment on the question, if he'd like to.
    My comment--and we can talk about it later--is I'm not very 
impressed with a budget proposal to set aside 5 percent of each 
Energy office's annual R&D (research and development) budget as 
an incubator to support technologies that aren't included in 
the program plans--in other words, not included in 
congressional oversight. As indicated, you like to fund novel 
projects such as the airborne wind turbine, which is basically 
a kite with blades that spins around in the air, which should 
be a fascinating thing to see.
    But I do support the idea of giving the lab directors 6.5 
percent of their budgets for what they think is important and 
novel. I do agree with that. I think that's a good idea. But I 
don't like the 5 percent set aside for each of the divisions, 
and I'd like to talk with you about that sometime.

             COST SAVINGS FROM IMPROVED PROJECT MANAGEMENT

    But I'd like to go back to what I talked about in my 
opening remarks. I mean, you have within your department in the 
NNSA, almost all, the largest Government construction projects 
in the country. You've got them all, just about, all the 
biggest ones, and they're headed to the moon in terms of cost. 
And if I'm concerned--I'd like to double energy research. 
Senator Feinstein is concerned about non-proliferation. We're 
talking about saving billions of dollars if we do a better job 
of cost control on these big projects.
    One of them is in my home State, the uranium processing 
facility. It's gone from, early, a $650 million estimate to 
maybe $4.5 to $6.5 billion. Well, Tennesseans, we like the 
jobs, we like the spending, we have terrific employees who work 
there, but we don't want the Government wasting our money. I 
mean, we pay taxes too. And I suspect that in other States 
which have these big projects, people feel the same way, and I 
know you do, too, Mr. Secretary.
    The problem has been how do we get a handle on these big, 
complex projects? So my question is this: Does the red team 
experience so far--and I know we haven't got a report yet on 
the uranium facility. But does the Department's Layman Review, 
your procedure by which you use to control cost in the Office 
of Science, which has worked pretty well, and this beginning 
process that you've used with this huge facility at Oak Ridge, 
does it offer promise for use on other major construction 
projects, perhaps even nuclear weapons?
    I mean, this is a 60-day process. That's all it is. And 
it's an intensive thing. And then I think the recommendation 
will be that it be done every 6 months, that you don't just do 
it once and then go away and worry about something else, all 
the way through to the end. It's such a simple thing, but it's 
the question of accountability and who's on the flagpole and 
who's responsible for a specific result.
    Can you talk about whether this offers promise? And then 
we'll talk about it again at other times.
    Secretary Moniz. It certainly does, and as you implied, it 
effectively has been used previously. The Science approach is 
kind of a red team in the sense that Danny Layman was always 
supplemented by outside experts. Another one that I'll mention 
is on the plutonium facility. It was effectively a red team. 
That has led to the modular approach. The WTP (Waste Treatment 
and Immobilization Plant) at Hanford was effectively a red team 
that identified previously unidentified technical problems and 
provided at least the start for us to provide a new framework.
    At UPF (Uranium Processing Facility), we are committed to 
$6.5 billion. We are committed to being out of the 9212 
building, which we hope can be maintained safely until 2025. 
And the red team that Thom Mason is heading is absolutely 
critical to looking at what, in effect, will be a modular-type 
strategy and a phased strategy that we can accomplish all that 
we need in terms of uranium facilities, uranium content for our 
weapons, and do it within that budget.
    I would also mention that in my first weeks we put together 
a cross-agency project management group with the Science 
people, the EM people, the NNSA people. We are trying to get 
best practices put in. They are all going to be a little bit 
different in the way they do it, but with a fundamental 
enterprise-wide set of principles, and that project management 
function, the enterprise-wide one, will be within the 
management and performance organization even as Science and 
NNSA, again, operate their review processes using those 
principles.
    Another, as I mentioned, we will not move forward with 
base-lining until we have 90-percent design, and we want to be 
realistic. For example, in the WTP project at Hanford, we 
declared we can do a phased process; we still have some 
unanswered problems. We will not baseline that part of the 
project.
    So if we can bring realism and discipline, shared 
practices, what works--the red team is part of that--I'm 
certainly hopeful that we're going to bring these things under 
control.
    Senator Alexander. Thank you, Madam Chairman.
    Senator Feinstein. Thank you, Senator.
    Senator Collins.

                          OFFSHORE WIND ENERGY

    Senator Collins. Thank you, Madam Chair.
    Mr. Secretary, I'm very pleased today to have the 
opportunity to talk with you about what I view as being one of 
the most promising renewable energy technologies that the 
Department and our country are pursuing, and that is deep-water 
offshore wind energy.
    This innovative technology has the potential to make the 
United States the global leader in a field of clean energy 
development, and also to create jobs right here at home. We are 
making progress, as you know, in developing the potential of 
offshore wind. One project from my home State of Maine actually 
received mention in the Department's budget request, which 
noted that the project at the University of Maine recently 
became the first grid-connected offshore wind turbine in the 
United States and represents the first concrete composite 
floating platform wind turbine to be deployed in the world.
    I am, however, concerned that this is a global race, and 
when you look at what's going on in Europe, Europe has built 
dozens of offshore wind projects with an installed capacity of 
nearly 6,500 megawatts. The United Kingdom has set a goal of 
producing nearly one-quarter of its electricity from offshore 
wind in the 2020s.
    So what my hope is is that we don't lose this technological 
edge to a foreign country but rather that the United States 
become the global leader in this technology. I'm pleased that 
the Administration's budget suggests a commitment to developing 
this technology, and I know that DOE is approaching a decision 
to select three of six projects for further funding.
    My question to you is two-fold. One, is the Department 
looking at making us technological leaders, and the factor of 
creating domestic jobs? And second, is the Department committed 
to a multiyear approach? Because obviously, just 1 year's 
funding is not going to allow us to achieve this goal.
    Secretary Moniz. Yes, thank you for the question, Senator 
Collins. There is no doubt, as is evident in our budget, that 
offshore wind is what we are focusing on principally in the 
wind program. The issue of stimulating our domestic economy is 
very important. I will note, for example, the progress of the 
last several years where, in today's onshore wind, we have gone 
from roughly 25 percent of the supply chain not that long ago 
to about 70 percent of the supply chain now being domestically 
sourced.
    As one goes to offshore wind, we want to make sure we 
continue that. So that involves demonstration projects. As you 
said, we will down-select three probably in the early summer to 
move those forward. We are also in the budget proposing moving 
forward with more research studies in terms of how you 
integrate with grids in general. Some places are easier than 
others to do that.
    But also, at the same time, going back to the jobs, et 
cetera, and domestic manufacturing, as you know, we have a 
strong emphasis on the manufacturing R&D, if you like, moving 
that forward with hubs. For example, we just announced a month 
ago or so another manufacturing initiative on composite 
materials. One of the applications of that will be very large 
wind turbine blades. And as you know, these offshore turbines 
are going to get very, very large, 5 to 7 megawatts per 
turbine.
    So we're moving, we think.

                 THE WEATHERIZATION ASSISTANCE PROGRAM

    Senator Collins. Thank you. I only have 20 seconds left, so 
I'm just going to tell you the topics and ask permission to 
submit the questions for the record.
    One is the Weatherization Assistance Program. This is so 
important to permanently reduce energy costs for homeowners, 
particularly in a State like mine, which has the oldest housing 
stock in the nation, and obviously rather cold winters, though 
I'm mindful that I'm sitting next to the senator from Alaska. 
But this winter we beat you, I believe.
    And I do have a technical question which I'm going to 
submit about the new $15 million competitive State-level 
demonstration of financing methods for multifamily units. I'm 
not quite sure what you're proposing there, and I will submit 
that for the record.
    And finally, with the Chairman's agreement, I will submit 
some other records, including one on the need for finally for 
us to have a nuclear waste storage site. Maine Yankee, Maine's 
nuclear reactor, has been closed for years and years, but we 
have nowhere to ship the nuclear waste.
    Thank you.
    Senator Feinstein. Thank you, Senator. I think we're all in 
agreement with your last commentary, and hopefully our bill 
will have a pilot project in it, and Senator Murkowski and 
Senator Landrieu have before them a big bill that we all have 
worked on for some time. So we are very hopeful that we'll be 
able to move with the nuclear waste policy.
    Secretary Moniz. Amen.
    Senator Feinstein. Amen, yes.
    Senator Cochran, you are next.

                             NAVAL REACTORS

    Senator Cochran. Madam Chairman, on a related subject, the 
budget request submitted for our review supports additions to 
the Office of Naval Reactors to support our Navy's fleet of 
aircraft carriers and submarines that are powered by nuclear 
power.
    My question is: This is a 26-percent increase over the 
current year funding level. That sounds like a substantial 
increase. But I wonder, is that enough to accommodate the need 
for storage facilities and the processing and other execution 
of the national security mission that goes with these reactors?
    Secretary Moniz. Well, I believe Admiral Richardson feels 
that he can accomplish his mission with this rather substantial 
increase. The Department of Defense was certainly very 
supportive about this. As you know, it's for doing things like 
moving forward to the Ohio-class replacement, and 
recapitalizing spent fuel handling at Idaho. So, certainly in 
discussing with Admiral Richardson, he believes this budget 
would certainly allow him to carry forward on these critical 
renewal technologies, if you like, for the nuclear Navy.
    Senator Cochran. Thank you, Madam Chairman.
    Senator Feinstein. Thank you very much, Senator.
    Senator Landrieu.

                       THE MO<INF>X</INF> PROGRAM

    Senator Landrieu. Thank you very much.
    Mr. Secretary, thank you for appearing recently before a 
large group of very influential business leaders from 
Louisiana. I appreciate your comments about the all-of-the-
above strategy and your focus on the future of natural gas, 
which is so important not just to our State but the whole 
country.
    But I do want to associate myself with the remarks of the 
chairman, about her concerns regarding the nuclear 
proliferation issues and the disposal of the core of these 
warheads and how this is working out for the Nation.
    The initial decisions, as you know, years and years ago 
were to retire these nuclear warheads. The idea, after study 
and study that went on, when Bennett Johnson was the chair of 
Energy, which is 20 years ago, was decided that there would be 
some new technologies. We know it today as mixed oxide fuel 
fabrication facility, which is MO<INF>X</INF>. The work is 
being done, I think, in South Carolina, but the contractors are 
all over the country. The idea is to get rid of 34 metric tons, 
8,000 warheads on the U.S. side and on the Russian side.
    So my question is: There has been some push by the 
Department to move this facility into cold standby. I don't 
quite understand that. Number one, there is only $240 million 
in the budget. I think we need something like $500 million to 
continue the work. Why would we put it in cold standby? I 
understand the Department has already studied options for 
plutonium disposition in both the original environmental impact 
statement in 1999 and in 2012.
    So my questions are: Did the Department previously conclude 
that MO<INF>X</INF> was the preferred alternative? And if so, 
what changes have come up to make us move in a different 
direction, as opposed to staying steady on course and getting 
this done?
    Now, my second question is related. Given that any change 
of course would require us to renegotiate with the Russians, 
don't you think that might be a little difficult under the 
present circumstances? Please respond.
    Secretary Moniz. Challenging. Senator Landrieu, to go to 
your first question, let me say that, first of all, when the 
plutonium disposition agreement was negotiated with Russia, 
there were multiple options, specifically MO<INF>X</INF> and 
so-called immobilization as an alternative pathway. As time 
went on, then MO<INF>X</INF> became the choice, in consultation 
with Russia.
    The issue now is, I want to stress, that standby is not 
ending the project. In light of the extremely tight budgets, 
again in the 2015 budget, what we saw is one of these cases 
where the costs have gone very, very substantially up, again a 
$30 billion life-cycle cost for the overall MO<INF>X</INF> 
project. Again, I want to emphasize--I mentioned it earlier, 
because there's been a lot of confusion caused when the 
contractors are speaking, they are speaking only about the fuel 
fabrication facility, which is about a $17 billion life-cycle 
cost in their estimate. So it's about $30 billion. The question 
is: Could we continue that, and that is obviously a discussion 
for the Congress and the Administration.
    Senator Landrieu. But this is a very important question for 
this committee, and I'm glad that the four corners are here, 
the energy authorizers as well as the energy appropriators, 
because this was a commitment that we made, a very important 
commitment to world stability and world peace and getting 
dangerous things easily out of the hands of terrorists. We have 
a contract with no alternative, with no alternative; an 
inability, in my view, to renegotiate with the Russians now or 
for the foreseeable future. And yet this budget is woefully 
underfunded for a project that's not only important to jobs 
here at home, which is a very important reason, but it's 
important to live up to the commitments that we have made.
    So I want to agree with both the ranking member and the 
chairman that this budget is woefully undercutting these 
efforts with no real alternative.
    Secondly, my time is out, so I'm going to submit my second 
questions, and I appreciate the potential development of wind 
and alternatives, but this renaissance of natural gas is game-
changing for our country, for our strength abroad, our economic 
strength at home, our ability to build strong and more 
plentiful middle-class jobs. I want to submit a question about 
that.
    And then finally, my third question will be about stepping 
up our partnership with Israel now that they have a big game-
changer. They actually discovered oil and gas off the coast of 
Israel, our great ally in the Mideast, and what our country is 
doing to take advantage of strengthening this partnership and 
stabilizing the region.
    So I will advance my questions in writing on those two 
things.
    But, please, Madam Chair, I am extremely concerned about 
this MO<INF>X</INF> facility, and I think Senator Graham shares 
those concerns. We've got to just keep this project moving 
forward in a cost-effective way.
    Senator Feinstein. Thank you very much, Madam Chairman of 
the Energy Committee. I think your words fall on shoulders that 
really agree with you. So I would anticipate some changes in 
our process. Thank you very much for the support.
    Senator Hoeven, you were up here and your name is here, and 
you left for a short time, but I'm going to go back to you and 
recognize you.
    Senator Hoeven. Thank you, Madam Chairman.
    Senator Feinstein. Thank you.

                        THE KEYSTONE XL PIPELINE

    Senator Hoeven. The Keystone XL Pipeline has been in the 
process now for 6 years. The State Department released their 
final environmental impact statement towards the end of 
January. There is a 90-day comment period for agencies, one of 
which is yours. I think, then, the process is over, unless I 
guess the Administration can come up with something else.
    But are you going to comment, and what are your comments on 
approval of the Keystone XL Pipeline?
    Secretary Moniz. Senator Hoeven, of course, all I can say 
right now is that we are generating our comments within the 90-
day period, which is not yet up.
    Senator Hoeven. What are they?
    Secretary Moniz. Those are still in process.
    Senator Hoeven. You don't want to give us, like, a sneak 
preview or a hint?
    Secretary Moniz. I would have to talk to my staff.
    Senator Hoeven. Well, I would strongly encourage its 
approval. We worked awfully hard and, I think, met all of the 
requirements on repeated occasions. So I would strongly 
encourage you to recommend its approval.

               LIQUEFIED NATURAL GAS EXPORT APPLICATIONS

    The second question I have is there are a number of 
applications for LNG (liquefied natural gas) export, I think 
about 23 that have been provided to the Department of Energy. 
Some I think have been pending for between 1 and 2 years. 
Obviously, we have a situation in Europe where they're 
dependent on gas from Russia, and we need to work not only to 
help them and, I think, strengthen their hand so that they can 
stand with us to deter Russian aggression, but also it's an 
incredible opportunity for our country. States like mine and 
others are producing more and more natural gas. It's being 
flared off. We need markets for that gas.
    So what can you do to expedite those applications? Again, I 
think we stand ready here in Congress to help in that process. 
I have legislation, along with others, that would provide 
approvals for those applications.
    So what can you do, and are you willing to join with us in 
Congress to try to advance or accelerate that process?
    Secretary Moniz. Thank you, Senator Hoeven, again. Of 
course, I'm very happy to get together and discuss the process, 
which, of course, was established back in 2012, the current 
process.
    A couple of points, if I may make, as context. First of 
all, we should kind of note that the approvals to date, which 
are conditional approvals--we should also remember that they 
won't actually come into existence until 2018, 2019, except for 
the first one, which will start at the end of next year. But 
the point is it's very important, I think, to get a scale. It's 
not like we haven't done anything. We have approved 
conditionally 9.3 billion cubic feet per day. That is very, 
very close to the entire LNG export of Qatar, by far the 
largest exporter in the world, so just to get an idea. This is 
an appreciable volume. It's not some small amount. Now, we have 
more to evaluate, clearly.
    Secondly, when it comes to the issue of--and I understand 
that there are a lot of discussions in Congress and elsewhere 
about, for example, treating European countries as Free Trade 
Agreement countries, as one example.
    I would just note that as part of our process, we have a 
legal obligation for a public interest determination that 
balances domestic market impacts with geo-politics, et cetera, 
environmental impacts.
    We do not approve cargoes going to any specific place. We 
approve applicants to send gas to non-Free Trade Agreement 
countries. If we want to start directing cargoes, that would be 
a very, very different way of getting into the business plans 
and commerce, et cetera. So I just note that as something that 
I think needs to be kept in mind.
    Third, in the options of extending Free Trade Agreement 
privileges to countries without Free Trade Agreements, as a 
general comment I would note that those agreements typically 
are, as you well know, a long, arduous negotiation of give and 
take. The question is whether we want to go around that give 
and take in terms of Free Trade Agreements, whether we want to 
put aside the public interest determination.
    I think these are all questions that we had discussed and 
which I'm certainly very happy to do.
    Senator Hoeven. Projects like Keystone XL Pipeline and 
approving applications for LNG export, for example, I put 
together in the Energy Security Act, legislation I have 
submitted. We need that both for energy security here and to 
help our allies, and I'd ask for your help in accomplishing 
those things.
    Secretary Moniz. And I would just add, if I may, that--
sorry if we're over, so I'll be very short. But we have always 
said that the energy insecurities of our allies is a national 
security issue for the United States. So this is certainly part 
of the geo-political considerations.
    Senator Hoeven. Thank you, Madam Chairman.
    Senator Feinstein. Thank you, Senator.
    Senator Udall.

                     THE B61 LIFE EXTENSION PROGRAM

    Senator Udall. Thank you. Thank you very much, Madam Chair.
    Mr. Secretary, Mr. Under Secretary, thank you both for 
being here. I want to thank you for your continued advocacy of 
the B61 Life Extension Program. This program is important for 
our national security, and I believe the scientists and 
engineers at our national labs have made great progress on this 
endeavor. Full funding of the program is important to 
maintaining this progress. Do you agree that Congress needs to 
fully fund the B61 Life Extension Program?
    Secretary Moniz. Yes. Well, in the discussions that led to 
our submission with the military, we did slip 1 year, but they 
agree that 2020 delivery of the first production unit would 
meet military requirements, and that would require the budget 
as we have submitted to meet that date.
    Senator Udall. Which is full funding.
    Secretary Moniz. Correct.
    Senator Udall. Yes. Well, I want to thank you for that 
answer and for the Department of Energy's commitment to the B61 
LEP. While the B61 LEP progresses, it is important to note that 
it is not only our legacy weapons that are in need of 
refurbishment but the infrastructure of the nuclear enterprise 
is continuing to age, and many of our buildings, especially the 
CMR (Chemistry and Metallurgy Research) in Los Alamos, are in 
need of replacement facilities. Unfortunately, due to NNSA 
mismanagement of many of these large projects, the Nation's 
analytical chemistry and materials characterization 
capabilities are at risk for the future.

       THE CHEMISTRY AND METALLURGY RESEARCH REPLACEMENT FACILITY

    Mr. Secretary, the NNSA's Governance Review Panel has also 
highlighted the problems NNSA has had with managing such large 
programs. What are the next steps to address the CMR 
replacement facility at Los Alamos, and what are the Department 
of Energy's plans to work with the NNSA Governance Review Panel 
once their final report is released to reform the NNSA, get 
these projects on track, and ensure that taxpayer money is not 
wasted in the future?
    Secretary Moniz. Thank you, Senator. Actually, on the B61, 
I would add one other thing. Of course, very important for that 
is also the way it will lead to a decrease in our number of 
weapons and ultimately the retirement of the B83. So I think 
this is a very important program to streamline our stockpile.
    Senator Udall. And what you're talking about there is if 
you can have fewer weapons, they're more accurate, they're more 
modern, then you would reduce the overall stockpile.
    Secretary Moniz. Exactly, fewer models and eliminate some 
entire systems.
    Senator Udall. Yes, yes.
    Secretary Moniz. On the plutonium facility, again, in the 
spirit in which we discussed earlier with Senator Alexander, I 
think the modular approach will meet our needs. We clearly need 
to be out of the CMR that was built in 1952. Historical 
significance is not a criterion for an active plutonium 
facility. But we will be using refurbished radiological 
laboratories, the PF4, and then we will be adding modules to 
eventually get to the 50 to 80 pits per year requirement down 
the road.
    Senator Udall. And have you fleshed out the modular design 
and where you're headed on that?
    Secretary Moniz. The first two phases are pretty well set, 
and the third phase on the modules, the study is continuing, 
but we should be there soon.
    Senator Udall. And this Governance Review Panel that you're 
going to get the final report on that, I think, where do you 
see it?
    Secretary Moniz. Yes. We expect the Augustine-Mies panel 
report in July. We've had very robust, very good discussions 
with them. I'll say one thing quite frankly. They have said, 
including in their hearing a few weeks ago, that having 
engagement at the level of the Secretary in these issues is 
critical. I can assure you there will continue to be engagement 
in these issues. I believe that we have taken a set of steps in 
terms of governance, in terms of culture change which are 
completely in the direction that Norm Augustine and Rich Mies, 
Admiral Mies have recommended.
    As an example, just one example, the reorganization of our 
nuclear security functions with much clearer lines of 
authority, which has important features like the site officers 
reporting directly to the administrator and not having several 
intermediate steps.
    Senator Udall. Thank you, Mr. Secretary. I know I'm out of 
time, but I'm going to submit for the record two questions, one 
on the waste isolation pilot project and where we're headed 
there and with those recommendations, and then also I've been 
trying to work with members of the committee on technology 
transfer, which I think you've had several reports within the 
agency to recommend you move forward. So we'll put those on the 
record.
    But thank you very much and appreciate your timely response 
to those questions.
    Thank you, Madam Chair.
    Senator Feinstein. Thank you, Senator Udall.
    The vote has begun. It's the first vote due at 3:30. It's 
now 3:35. We have three members to go yet, which means we will 
not conclude by the second vote. So my plan would be to go down 
and vote right now and you handle the meeting, if you will, and 
then come back, and hopefully we can conclude.
    So if that's agreeable, the next person up is Senator 
Graham.

                       THE MO<INF>X</INF> PROGRAM

    Senator Graham. Thank you, Madam Chairman.
    This has sort of been a MO<INF>X</INF>-centric hearing, and 
I just want to acknowledge I think you're a very good choice to 
run the Department of Energy. I want to thank the Chairman, 
Chairlady and the Ranking Member for the support they've given 
the MO<INF>X</INF> program. Senator Landrieu has been 
unbelievably helpful.
    I think you gather that we're concerned about 
MO<INF>X</INF>.
    Secretary Moniz. I am, too.
    Senator Graham. Okay. I know you're very smart, so you got 
where we're going on MO<INF>X</INF>.
    Thirty-four metric tons of weapons-grade plutonium could 
result in how many nuclear weapons?
    Secretary Moniz. Well, that's a question that could be 
answered at various levels, but let's just say 9 kilograms is 
the IAEA (International Atomic Energy Agency) significant 
quantity for plutonium.
    Senator Graham. So are we talking about hundreds or 
thousands?
    Secretary Moniz. Thousands.
    Senator Graham. So here's the question for the committee: 
What is it worth to the world and to the country to take 34 
metric tons of weapons-grade plutonium off the market in Russia 
and the United States? That's the question, because you're 
talking about thousands of warheads.
    As to the MO<INF>X</INF> program, it is in South Carolina; 
that's correct?
    Secretary Moniz. Correct.
    Senator Graham. Okay. I have been dealing with this for 
well over a decade, and so have you. Do you have an analysis 
showing the $30 billion life-cycle cost of the MO<INF>X</INF> 
program?
    Secretary Moniz. Yes. The report is now undergoing 
interagency comment, and we expect to have that completed and 
responded to by the end of this month.
    Senator Graham. Okay, thank you.
    Now, how much would it cost to actually build the facility? 
That's not $30 billion, is it? Thirty-billion is the life-cycle 
cost for all three buildings; correct?
    Secretary Moniz. Correct.
    Senator Graham. Okay. So it's about $7 billion; is that 
correct?
    Secretary Moniz. We would say the to-go cost for the 
building itself is $6 to $7 billion.
    Senator Graham. Okay. Sixty percent of the construction is 
complete; right?
    Secretary Moniz. By some counting, yes.
    Senator Graham. This committee last year, thanks to the 
Chairman and the Ranking Member, dedicated over $403 million to 
continue construction. The Administration has put it in cold 
standby. Is that your plan?
    Secretary Moniz. The proposal is that, again, as we know, 
the question is whether the budget can support this. So we 
thought that we----
    Senator Graham. But my question is----
    Secretary Moniz [continuing]. Would pause to evaluate 
options.
    Senator Graham. But my point is that this committee told 
you to build the MO<INF>X</INF> program. We didn't tell you to 
study some other alternative.
    Secretary Moniz. That is our fiscal year 2015 proposal.
    Senator Graham. Well, I'll submit some questions along 
those lines. I've only got 2 minutes left.
    The bottom line here is that the MO<INF>X</INF> program is 
part of an agreement with the Russians; is that correct?
    Secretary Moniz. Yes, it is, sir.
    Senator Graham. Okay. So we've told the Russians that we're 
going to MO<INF>X</INF> our plutonium by turning it into 
commercial-grade fuel to be burned in a variety of light-water-
type reactors; is that correct?
    Secretary Moniz. Yes, it is.
    Senator Graham. Okay. My point is that I want to make sure 
that we don't break our agreement with the Russians. I want to 
make sure that the people of South Carolina are not left 
holding the bag, because there is no alternative to 
MO<INF>X</INF> that's viable, that can meet the time periods 
required, and that's cheaper.
    Do you really, honestly believe there is a viable 
alternative to MO<INF>X</INF> that will allow the disposition 
to go ahead sooner or on time and be cheaper?
    Secretary Moniz. There may be. But as we've discussed, all 
other alternatives require other discussions.
    Senator Graham. What would be some other alternatives?
    Secretary Moniz. Well, as I said earlier, the agreement 
that was reached with the Russians 15 years ago included 
MO<INF>X</INF> and immobilization.
    Senator Graham. So where are you going to put this stuff 
when you immobilize it?
    Secretary Moniz. As I said, there are other issues to be 
addressed.
    Senator Graham. There is no plan. There is no viable plan 
to dispose of 34 metric tons of plutonium. There is nobody 
going to receive this in an immobilized state. The Russians 
have agreed to MO<INF>X</INF> as the disposition plan 2 years 
ago. So I don't know where this is coming from, and I don't 
think it's coming from this Secretary, who is a very fine man.
    This is a major decision for this committee to address. 
We're about to blow a chance to get thousands of nuclear 
warhead material off the market forever. You're breaking faith.
    Do you agree with me that if you do this, States in the 
future are going to be very reluctant to deal with the 
Department of Energy, that if after 60 percent of a program is 
complete you put it in standby, you ignore the directions of 
Congress, you try to come up with an alternative when 60 
percent of the program is complete, you change the game 60 
percent of the way down the field, don't you think that would 
be a wet blanket over future dealings between States and the 
Department of Energy?
    Secretary Moniz. Well, we have certainly committed to 
moving the plutonium out of South Carolina.
    Senator Graham. I'm committed to the deal. I'm committed to 
the deal that you made with South Carolina. I'm committed to 
getting this stuff off the market and finishing the program 
that's 60-percent complete that the Nation needs. What is it 
worth to take thousands of nuclear weapons off the table and 
the world in which we live in? It's worth a lot, and we can do 
this a lot less than $30 billion.
    Thank you, Mr. Chairman.
    Senator Alexander [presiding]. Senator Murkowski.

                     LIQUEFIED NATURAL GAS EXPORTS

    Senator Murkowski. Thank you, Mr. Chairman.
    I want to go back to the conversation that we were having 
about natural gas, and I appreciate your statement, Mr. 
Secretary, that something to the effect of energy insecurity of 
our allies impacts our national security here.
    I think you pretty much said that when you issued the 
license for Jordan Cove last month. The text of the order 
provides, ``To the extent U.S. exports can diversify global LNG 
supplies and increase the volumes of LNG available globally, it 
will improve energy security for many U.S. allies and trading 
partners. As such, authorizing U.S. exports may advance the 
public interest for reasons that are distinct from and 
additional to the economic benefits identified in the LNG 
export study.''
    I think that pretty much speaks to the role that we can 
play here in this country when it comes to our exports and a 
recognition that we can be doing so much more for others.
    Two questions for you. Do you have any plans to spend 
additional Department resources on commissioning yet another 
LNG export study, or are we done?
    Secretary Moniz. We are always re-examining the situation.
    Senator Murkowski. But re-examining is different than what 
we did with the export study.
    Secretary Moniz. Well, so I think we will have to reach a 
decision as to whether we feel--as we re-examine, as you know, 
a criterion that was set out in 2012, I believe, is to look at 
impacts with cumulative potential exports. And so we continue 
to look at supply data. We continue to look at demand data. For 
example, there has obviously domestically been an enormous 
increase in manufacturing there.
    So we keep making these judgments, and I can't say whether 
or not that will lead us to say at some point we need a more 
formal updating of the analyses that we currently have.
    Senator Murkowski. Well, it is something that, again, 
you've laid the case out pretty clearly, I think, in this 
license, this conditional license for Jordan Cove. I would hope 
that we would continue on with the issuance of these licenses 
in a manner that is expeditious, that we don't pause, that we 
don't spend resources, additional resources on yet more 
studies.
    You had mentioned the process that DOE currently has in 
place regarding the licenses, the licensing came about in 2012, 
and you and I have had a limited opportunity to talk about what 
flexibility you might have as Secretary to streamline the 
permitting process even further. You mentioned a little bit in 
your comments to Senator Hoeven.
    I have very little time because I have to rush out to the 
vote here, but I would hope that you would look to whether or 
not there is a possibility to do some reordering within the 
queue. It is something that, while this process was set up in 
2012 within the Department, it was not set up through 
legislation. It appears that you would have a certain amount of 
authority that if the Administration recognizes, as you did 
with the license in Jordan Cove, that this is truly advancing 
the public interest in moving forward with U.S. exports, it's 
something that I would hope that you would be considering as 
you are weighing these licenses and applications in front of 
you.
    Secretary Moniz. Again, we are very, very happy to come and 
complete our discussions, and with other colleagues here in the 
Senate, to see how we might go forward. Right now, as we 
discussed, there is a fairness issue in the sense that a 
specific ordering was established in 2012, and it does imply 
some level of obligation, I suppose.

               THE NATIONAL STRATEGY ON THE ARCTIC REGION

    Senator Murkowski. Let me go to my next question, because 
this is something that I have asked every cabinet secretary as 
I've had an opportunity in these appropriations hearings, to 
inquire within your Department and the budget that is presented 
how you will seek to comply with the Administration's 
implementation plan for the National Strategy on the Arctic 
Region.
    DOE is listed as the lead agency for three programs. You've 
got renewable energy resources, climate predictions, and 
integration of Arctic regional models. You're also the 
supporting agency for other projects.
    So what I'd like to know is what funding is included within 
the Department's budget for the three programs where you are 
the lead agency, as well as any other projects that the 
Department is involved with. My concern is we are saying good 
things about the Arctic, but we're not seeing that translated 
into the budget that has come down from the President, and if 
we're going to say the Arctic is a priority, we have to match 
resources to the message.
    Secretary Moniz. Much of the work that we would do, for 
example, on some of the modeling is part of the ongoing 
programs. But with regard to things like R&D, for example, I 
charged the National Petroleum Council to do a study on what 
the Government, what DOE might do in terms of R&D specifically 
for the Arctic. So we will get that report back later on this 
year.
    Senator Murkowski. Perhaps if you and I can sit down to 
talk about Arctic strategy, I also have some questions for the 
record relating to marine hydrokinetic, as I spill my water all 
over me, and geothermal.
    Secretary Moniz. Hydrokinetic----
    Senator Murkowski. Marine hydrokinetic. It's got great 
resource potential. Methane hydrates, geothermal, and some 
other areas that are of particular concern to us in Alaska.
    Secretary Moniz. Be happy to discuss those with you.
    Senator Murkowski. Thank you.

                       THE WASTE TREATMENT PLANT

    Senator Murray. Secretary Moniz, thank you. Welcome to, I 
think, your first subcommittee hearing. You and I have spoken 
several times since you became Secretary, and I do appreciate 
your commitment to the Waste Treatment Plant, WTP, and making 
progress on our shared goal of treating waste.
    But despite our shared goal, I still find myself waiting 
after years, I will tell you, of waiting for a comprehensive 
plan on the Waste Treatment Plant. The WTP has now been under 
construction for over a decade, and we still do not have a real 
path forward, and significant technical issues remain 
unresolved.
    The framework that you put forward in September, as you 
described it to me, was not intended to be a proposal but 
rather a document for discussion with the State of Washington. 
Well, I think it's pretty clear from the State's actions last 
week that we are past time for discussions. The State and I 
need to see action from your Department, be that on this 
framework or something else. It's time for us to move on this, 
and if the framework is the right solution, as your budget 
request suggests, then we must know that the technology is 
proven. We can't be reinventing the wheel again at this stage.
    I wanted to ask you today how confident you are that the 
direct-feed, low-activity waste is the best course forward for 
the Waste Treatment Plant, and what is your level of confidence 
in your agency's ability to shift the WTP project into this new 
direction and provide proper oversight for the new facility?
    Secretary Moniz. Senator Murray, I'm really very confident 
that this phased approach, starting with DF Law, is the way to 
go. The DF Law will require one new facility but a very 
standard technology to clean up cesium, basically, and that 
will allow us to get going, and the State has agreed with that. 
So I'm very encouraged by that.
    Then on the other pieces, the pre-treatment plant and the 
high-level waste, well, we just said, look, our approach is to 
be realistic. We can set some early milestones, but we have to 
resolve these technical problems on criticality and other 
things, and that will give us the baseline that we need for the 
rest of the project.
    I believe in many ways this framework really is a 
tremendous improvement on the other framework, not only because 
the other framework couldn't work but also because, frankly, 
starting with the low-activity waste and gaining the experience 
of operating this manufacturing facility, producing glass, et 
cetera, will be invaluable. I'm very encouraged by this, but we 
were very up-front that we cannot yet baseline the pre-
treatment plant until we resolve some of these problems.
    But we published something last week about a redesign of 
the pre-treatment plant already in terms of the tanks, which is 
going to solve a lot of the problems, not all of them but a lot 
of the problems, and we've committed to a second new facility, 
which is this new tank waste facility where mixing will go for 
the high-level waste.
    Senator Murray. And are you confident in the technology on 
this?
    Secretary Moniz. I'm confident in the technology other than 
the questions I cannot answer today because of the research we 
need. We are going to do a full-scale tank demonstration with 
mixing. That will answer a lot of the questions. If that comes 
out as we expect, then I would say I am very confident. But we 
have to address these technical issues. We're being very up-
front. They are not resolved. Previously, the plant was 
baselined with unresolved technical issues. So I'm just trying 
to be honest about it.

                    ENVIRONMENTAL MANAGEMENT FUNDING

    Senator Murray. Okay. I appreciate that.
    Well, I am also really concerned about the reductions that 
you made on the Environmental Management, EM, budget, making 
some deep cuts to clean-up sites across the country. The 
largest portion, of course, is from the Richland Operations 
Office. They have made significant progress on the 2015 Vision, 
and in particular on the hazards that could enter the Columbia 
River.
    However, several high-risk projects close to the City of 
Richland, the Columbia River, and the Energy Northwest facility 
remain to be completed. The budget 2015 could hamper this 
progress, and it really is unacceptable for DOE to kick the can 
down the road on this, nor is it acceptable to me and the Tri-
Cities community to put near-term Tri-Party Agreement (TPA) 
milestones at risk.
    The Washington State Department of Ecology and others have 
told me that there are at least four, possibly more, Tri-Party 
Agreement milestones that will be placed at risk due to the 
budget proposal. Less than 24 hours after this budget proposal 
came out, OMB Director Burwell came in front of my committee, 
the Budget Committee, and testified that ``legal commitments 
are something that are very important and the Administration 
takes very seriously and has put forward a budget that we 
believe enables us to do that.''
    Can you confirm with me that Director Burwell's commitment 
that the Federal Government will meet the legal obligations set 
forth under the Tri-Party Agreement within the fiscal year 2015 
budget request?
    Secretary Moniz. Well, first of all, we are committed to 
both the WTP project and the TPA. After all, they are 
interconnected as well. So we understand, this is a system look 
at the site that we have to deal with, and the TPA milestones 
are very important, as are the Consent Decree milestones which, 
of course, we are now renegotiating with the new framework.
    The issue is how do we best fit all of this into the 
available resources, and that's something I would love to be 
able to brainstorm on.
    Senator Murray. Are you going to be able to meet those 
legal requirements with a $98 million cut?
    Secretary Moniz. I will have to look in detail at the 
specific milestones. I think it would be better if I got back 
to you on those specifics.
    Senator Murray. Well, I would appreciate that in writing as 
soon as possible.
    Secretary Moniz. Okay.
    Senator Murray. As you know, this is a really intense 
situation in our State now. We are all focused on it. We are 
well into the chairman's writing this mark, and we need to know 
from all of you if this is going to meet the legal requirements 
that are set forth.
    Secretary Moniz. We'll get back to you promptly.
    Senator Murray. I'm deeply concerned it won't. Okay.
    I have an additional comment, Madam Chairman.
    Senator Feinstein [presiding]. Please, go ahead.
    Senator Murray. I just want to mention one final issue.
    Washington State has really been a leader in efforts to 
develop and demonstrate and deploy a wide array of renewable 
energy technologies. A great example of this is the innovative 
marine and hydrokinetic research that is currently underway at 
our Northwest Marine Renewable Energy Center. It's co-managed 
by the University of Washington and Oregon State University.
    I wanted to just ask you if you would work with me and the 
subcommittee to make sure that the Department is committed to 
developing these technologies. I think they're really 
important, but I just want you to consult with us and with 
everyone involved to make sure that the appropriate Federal 
agencies and stakeholders ensure that there's no harm done to 
our marine endangered species as we move forward.
    Secretary Moniz. Okay.
    Senator Murray. Okay?
    Secretary Moniz. Yes.
    Senator Murray. And on the other ones, I want you to get 
responses back to me as quickly as possible. I know you and the 
State are going back and forth on this right now. We have a few 
months, a month, less than a month to get our bills out, and we 
need to meet these legal requirements, and we need to know from 
you if we're going to be able to do that.
    Secretary Moniz. We'll be happy to work as closely as we 
can with you on all of that, and we'll respond to your specific 
question promptly.
    Senator Murray. Thank you very much. I appreciate that.
    Thank you, Madam Chairman.
    Senator Feinstein. Thank you, Senator Murray.
    Senator Shaheen, welcome.

                   THE ADVANCED MANUFACTURING OFFICE

    Senator Shaheen. Thank you very much, Madam Chair. I will 
try and be quick because I know we have votes, but I just want 
to take this opportunity to welcome Secretary Moniz.
    It's very nice to have a chance to talk to you in this 
setting.
    And, Secretary Poneman, it's nice to see you here as well.
    I am certainly a strong supporter of energy efficiency 
efforts, and I have worked closely and had someone from the 
Office of Energy Efficiency and Renewable Energy up to New 
Hampshire, and I think there has been a great opportunity to 
work together. Certainly, the same is true of the Advanced 
Manufacturing Office, and I know that they work very hard on 
cost-effective programs to help the manufacturing base.
    I have been working on energy efficiency legislation with 
Senator Rob Portman from Ohio, and one of the concerns that 
we've heard from some of the groups and businesses that we've 
worked with is that there are some concerns about program 
priorities and whether they can be better structured to 
maximize energy savings, economic development, and job 
creation. It's something that we've tried to address in our 
legislation, and I know we've worked with some folks in the 
office to try and do that.
    But I wonder if you could talk about what steps might be 
taken within the Advanced Manufacturing Office to better engage 
with the stakeholders who the Office is designed to work with.
    Secretary Moniz. Thank you. Well, first of all, of course, 
the Manufacturing Office has got a number of initiatives. 
Perhaps the most visible lately has been the manufacturing hubs 
which are looking to provide kind of the foundational enabling 
technology, manufacturing technology advances that will 
underpin jobs in American manufacturing, and there are other 
programs with research.
    But getting to the stakeholder question, I personally 
believe that what we need to do is to have a set of strong 
regional focuses, because I think different regions of our 
country really have different sets of challenges here.
    So I think we'd be happy to work with you in terms of 
thinking about how to convene the appropriate groups. Certainly 
in industrial New England, this would be one example of that.
    Senator Shaheen. Well, and certainly I think the hubs are a 
great idea. Unfortunately, we're not going to be able to have 
one in every State or every region, at least not in the near 
term. So thinking about how we can structure the program's 
priorities to address the kind of technology research that the 
stakeholders also envision as important I think will be 
critical as we look at how to be most effective through that 
program going forward, and your help with that would be very 
much appreciated.
    Secretary Moniz. I'd be happy to visit you in Manchester, 
an old manufacturing city.
    Senator Shaheen. Good. That's very high-tech now, I would 
point out.
    Secretary Moniz. Yes, it is. Yes, it is.

                   THE BUILDING TECHNOLOGIES PROGRAM

    Senator Shaheen. My other question has to do with the 
Building Technologies Program because, again, it has a similar 
interest in saving on energy and benefitting from energy 
efficiency. So in what ways can the Building Technologies 
Program ensure that it not only continues to develop new 
technologies but that it also facilitates that private sector 
adoption of those technologies and practices?
    Secretary Moniz. I think there are a number of mechanisms. 
First, of course, in programs like our loan program, there are 
opportunities for energy efficiency, and we will be having 
another solicitation later on this year which is both 
efficiency and renewables.
    Another set of discussions going on in the Congress and in 
the Administration are can we bring forward new financing 
mechanisms that allows one to aggregate investments which tend 
to be smaller and give them a certain liquidity in the market? 
For example, real estate investment trusts, a discussion going 
on there, should those be brought in in terms of their scope, 
because right now they are limited in how they are applied. 
There's combined heat and power activities.
    Senator Shaheen. Right.
    Secretary Moniz. So there is a whole set of these, and I 
think we would be delighted to sit down and try to go through 
those and brainstorm and see what we can add to it.
    We have, I might say, added in the last 9 months two places 
in our organization specifically focused on State interactions. 
One is in our intergovernmental but with a much more active 
outreach, and energy efficiency is clearly a major part of 
that; and second, in our Energy Policy and Systems Analysis 
Office, we have a division, if you like, on state outreach. The 
focus this year is on energy infrastructure. It enables 
efficiency. In fact, in April I think we will be going to New 
England for some meetings on that.
    So I think this issue is outreach and I think a strong 
State and regional focus that is critical for both 
manufacturing and efficiency.
    Senator Shaheen. Well, good. I will take you up on your 
offer to come to New Hampshire. We'd love to have you.
    Secretary Moniz. Okay.
    Senator Shaheen. Thanks very much.
    Secretary Moniz. Thank you.
    Senator Shaheen. My time is up. Thank you, Madam Chairman.
    Senator Feinstein. Thank you, Senator.

                           THE ALCATOR C-MOD

    I have a couple of questions that I would like to ask.
    This Alcator C-Mod, Mr. Poneman, this will be for you. In 
fiscal year 2013 and 2014, you proposed shutting down the 
Alcator C-Mod and requested no funding for this fusion reactor 
at MIT. You assured this subcommittee that shutting down the 
reactor would have no impact on U.S. efforts to support ITER or 
the ability to attract future scientists to this field of 
science.
    I am now questioning ITER, and whether we continue with 
that remains to be seen. But as I understand it, your fiscal 
year 2015 budget asks for $18 million to conduct research at 
this facility. The $18 million is only for 5 weeks of operation 
and supports 12 graduate students. This would be $1.5 million 
per graduate student. Why did you reverse your decision on 
shutting down the facility?
    Mr. Poneman. Chairman Feinstein, we have, as you've heard 
from the Secretary, in all areas made a number of tough 
decisions. We decided that the right thing to do in the case of 
Alcator C-Mod was to transition out, to find appropriate 
placements for these individuals, and therefore initially we 
had not proposed further funding for it. But the Congress did 
appropriate the funds, and in order to accommodate a smooth 
transition we have provided for, as you've indicated, 2 years 
of operations at 5 weeks per year. That will allow the students 
who have been working at those facilities to finish their 
research at that facility, and then we are working on 
transition plans so that they will find other places to pursue 
their interest in fusion.
    We specifically asked if there was any adverse effect in 
terms of other things that we are doing elsewhere, either in 
the domestic program or in support of ITER, and we were assured 
that that was not the case.
    Senator Feinstein. Is it true it's $18 million for 5 weeks 
of operation?
    Mr. Poneman. We are talking about operating that facility 
for 5 weeks in the year. That's true. But, of course, the 
students prepare for the full academic year to do the planning 
for their activities there. Some of the investment goes for 
actually operating the facility, and some of the funds go for 
the research that is in support of the facility.
    For fiscal year 2015, the request for the $18 million 
breaks down $11.855 for the facility operations and $6.145 for 
the research.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Feinstein. My second question--and I'm just told 
there's 4 minutes left on the second vote, so I probably won't 
be able to ask it, and you're going to be happy that I'm not 
able to ask it--is on small modular reactors, and particularly 
I'd like to know what BNW decided today at their meeting, 
whether they intend to continue or not continue. Can you just 
quickly answer that?
    Secretary Moniz. Actually, I have not received any 
information from their meeting today. They were meeting this 
afternoon, I believe.
    Senator Feinstein. Okay.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted to Hon. Ernie Moniz, Ph.D.
              Questions Submitted by Senator Patty Murray
                        environmental management
    Question. As you know, the Department of Energy (DOE) is legally 
obligated to complete the cleanup work of both the Richland Operations 
Office (RL) and the Office of River Protection (ORP) at the Hanford 
Site in Washington State within timelines agreed to under the Tri Party 
Agreement and Consent Decree agreement. I have been clear in my 
conversations with you that I expect DOE to meet these legal 
obligations.
    Secretary Moniz, while I appreciate your efforts to work with the 
State of Washington on the Consent Decree milestones, I remain deeply 
concerned with the cuts proposed in the fiscal year 2015 budget request 
for RL. Furthermore, it is disappointing that you could not confirm or 
deny whether DOE will meet its legal obligations under the Tri Party 
Agreement despite a $98 million cut to the RL budget.
    The Washington State Department of Ecology and others have told me 
that there are at least four near-term Tri Party Agreement milestones 
relating to groundwater treatment, the 200 West Pump and Treat 
facility, and the Waste Encapsulation Storage Facility that will be 
placed at risk due to the budget request. In addition, I have been told 
that milestones in the out-years could be shifted to the right due to 
the fiscal year 2015 budget request.
    Mr. Secretary, will DOE meet its legal obligations under the Tri 
Party Agreement within the fiscal year 2015 budget request for RL. If 
DOE believes no milestones will be missed in the 2014-2015 timeframe 
due to the fiscal year 2015 budget request, please specify what impacts 
the proposed cuts will have on milestones in 2016 and beyond.
    I also ask that you explain your plans to ensure that RL receives 
the funding needed in future budgets to meet its legal obligations to 
complete cleanup along the Columbia River and tackle the remaining 
cleanup on the Central Plateau. In building these future budgets, I 
remind you that the Richland Operations Office and Office of River 
Protection each have their own mission, are separate and distinct 
sites, and have independent budgets. It will never be acceptable to me 
or the Tri-Cities community to rob RL to pay for ORP.
    Answer. The Richland Operations Office (RL) is implementing the 
2015 Vision for cleanup of the Hanford site, and RL will make 
significant cleanup progress with the President's fiscal year 2015 
budget request of $914 million. Assuming Congress appropriates the 
President's request, key progress will include continued removal of 
radioactive equipment from the Plutonium Finishing Plant (PFP) in 
preparation for demolition to slab-on-grade, the start of construction 
of a facility and purchase of equipment to remove radioactive sludge 
from the K Reactor basin, continued safe operation of radioactive and 
hazardous solid and liquid waste facilities, removal of hazardous and 
radioactive contamination from 1.8 billion gallons of groundwater, 
continued removal of contaminated soil from along the River Corridor, 
and progress toward the initiation of demolition of the highly 
contaminated 324 Building.
    While significant cleanup progress has been achieved and will 
continue to be made in fiscal year 2015, several challenges have 
impacted our progress on certain important projects. These challenges 
include the Balanced Budget and Emergency Deficit Control Act, which 
enacted sequestration, reduced funding at RL by $78 million in fiscal 
year 2013, and the fiscal year 2014 lapse in appropriations and 
partial-year Continuing Resolution delayed work. The culmination of 
these events is anticipated to delay some fiscal year 2015 milestones 
that cannot be met even with additional funds.
    To the extent milestones are anticipated to be delayed, DOE will 
follow the provisions of the Tri-Party Agreement for working with 
regulators regarding milestone adjustments, as necessary.
    Question. Secretary Moniz, as we have discussed several times, I 
have been asking the Department for a comprehensive plan that will 
address how to get the Waste Treatment Plant (WTP) back on track and 
moving toward completion for several years. The WTP has been under 
construction for over a decade now and yet we still do not have a real 
path forward and significant technical issues remain unresolved. While 
I appreciate the attention that you personally have given to Hanford 
and the WTP, I continue to wait to hear from you as to what the 
Department believes is the best path forward for WTP and will lead to 
our shared goal of treating waste.
    Is the ``Hanford Tank Waste Retrieval, Treatment, and Disposition 
Framework'' which you shared with the State of Washington in September 
2013 the comprehensive plan that I have been asking for? Or does DOE 
intent to produce this path forward through the Consent Decree process 
which the Department and State of Washington just began on March 31, 
2014?
    Answer. The Department's March 31, 2014, proposal to amend the 
Consent Decree is a prudent and reasonable approach to immobilize waste 
in a glass form as soon as practicable while working to resolve the 
technical issues. The Department is working with the State in the hope 
of reaching an agreement on a path forward for the construction and 
initial operation of the WTP. Until such time as the Consent Decree is 
amended by the Court, there will continue to be some amount of 
uncertainty. The Administration's budget request for fiscal year 2015 
provides the resources needed to move forward with continuing technical 
issue resolution, continuing construction on the parts of the Waste 
Treatment and Immobilization Plant not impacted by the unresolved 
technical issues, and advance the capability to remove cesium and 
solids from liquid tank waste so it may be directly fed to the Low 
Activity Waste Facility for vitrification.
    Question. In the past month there has been a series of instances at 
Hanford where workers in or near the tank farms experienced chemical 
vapor related symptoms. While all of the workers were examined and have 
been cleared to return to work, this high number of cases is 
concerning. It is my understanding from discussions with the contractor 
and ORP that several short- and long-term measures are being taken to 
ensure the health and safety of workers.
    Mr. Secretary, is the Department satisfied with these proposed 
measures? While we can never completely eliminate chemical vapors in 
the tank farms, does DOE believe the contractor is taking all necessary 
measures to reduce exposure and protect the workforce? Is there 
additional training that could be conducted at the HAMMER Federal 
Training Center to better educate and prepare the workforce on the 
issue of chemical vapors?
    Answer. Worker and public safety is the most important part of our 
work. Doing work safely is paramount to the tank waste retrieval 
mission. In response to recent events in which Hanford tank farm 
workers reported symptoms of chemical vapor exposure, Washington River 
Protection Solutions has taken a number of protective actions. Workers 
in C-tank farm, where retrievals are taking place are required to wear 
respirators. Workers in the A, AX, AY, and AN tank farms, where 
chemical vapors recently have been experienced, are also required to 
wear respirators. In addition, respirators are available upon request 
to other tank farm workers. WRPS is also working closely with the 
Hanford site medical provider to review and communicate its policies 
and practices for taking care of workers exposed to chemical vapors. A 
Chemical Vapors Solutions Team, a joint WRPS management-employee team, 
is evaluating a number of improvements to vapor hazard identification, 
vapors control and training. In addition, the Department has engaged 
the Savannah River National Laboratory to conduct an independent 
technical review of this issue with a focus on comprehensive, 
engineered solutions for the issue. The Hanford Atomic Metal Trades 
Council (HAMTC) has assigned a safety representative as a member of the 
independent review team.
    Question. As the Department of Energy continues to make progress at 
Environmental Management cleanup sites across the country, communities 
adjacent to these sites have been working with DOE to transfer land 
back to the community for economic development, historic preservation, 
tourism, and recreation. Such land transfers are not only a good way 
for the Department to demonstrate the progress made at cleanup sites, 
but also serve as recognition of the sacrifices made by these 
communities to support the Unites States in years past. I have 
supported and continue to support efforts by the Department to transfer 
land back to local communities.
    Unfortunately, this process has proven to be extremely slow, 
inconsistent from one site to the next, and there is a clear lack of 
direction from the Department itself. At Hanford for example, RL has 
been working on a 1,600 acre land transfer since 2011. Despite a 
completed Comprehensive Land Use Plan, the requirements of which this 
land transfer meets, RL has at least another year of work before this 
land transfer may be approved.
    Secretary Moniz, what can the Department do to better facilitate 
these land transfers? Would a Department-wide process, which is 
consistent from site to site, ensure that such transfers occur in a 
more timely fashion? Furthermore, what specifically are you doing to 
ensure the schedule laid out by RL for the Hanford land transfer 
remains on track and continues to progress as planned?
    Answer. All land transfers are unique and must comply with a 
complex set of statutory and regulatory requirements. DOE must comply 
with the detailed requirements of a number of Federal laws, including, 
for example, the National Environmental Policy Act, National Historic 
Preservation Act and National Endangered Species Act, all of which 
require extensive study and documentation. There are a myriad of 
``preparatory'' activities ranging from field work (some of it driven 
by seasonal conditions) such as sampling and analysis, to coordination 
with a range of other State and Federal agencies, stakeholders, and 
tribal governments that take time and have to occur before a transfer 
for economic development, historic preservation, tourism, or recreation 
can be finalized.
    The transfer of DOE unneeded property is governed by and 
consistently implemented under 10 CFR 770. The Cross-Cut Guidance on 
Environmental Requirements for DOE Real Property Transfers (Update) of 
2005 (DOE-EH-413/9712; October 1997; Revised March 2005), provides 
guidance as the title indicates.
    I have asked the Deputy Under Secretary for Management and 
Performance to work with the Office of Environmental Management to 
ensure that the process we must follow before we can transfer the 1,600 
acres at Hanford stays on schedule, and more broadly that all future 
excess property transfers are managed as projects with established 
schedules, scope, metrics and milestones.
    Question. As you know, the Department of Energy works with the 
Small Business Administration (SBA) to establish small business prime 
contracting goals for each fiscal year. The fiscal year 2014 
Consolidated Appropriations Act made changes to allow DOE to count 
first tier subcontracts awarded by Management and Operating contractors 
to small businesses toward this annual small business contracting goal. 
How will the Department interpret and implement Section 318? Have DOE 
and SBA set a small business prime contracting goal for fiscal year 
2014? If so, was Section 318 taken into account? If not, will this 
recent change assist the Department in meeting the fiscal year 2014 
goal?
    While I supported this change in practice, I am concerned it will 
not cover all first tier subcontracts awarded by prime contractors 
working on nuclear waste cleanup. In my home State of Washington, the 
prime contractors at the Hanford site are committed to working with 
small businesses in the local community as well as across the Nation. 
All of these prime contractors have small business subcontracting goals 
ranging from 49 to 65 percent and all of the prime contractors are 
meeting these goals. Unfortunately, these first tier subcontracts are 
not counted by DOE or SBA towards the prime contracting goals.
    As DOE embarks on determining the fiscal year 2015 small business 
prime contracting goals with the SBA, I urge you to be cautious in 
scope and requirements given that Section 318 could result in 
unintended consequences such as potential delays to nuclear waste 
cleanup or job losses at small businesses currently operating as 
subcontractors on non-Management and Operating contractors. I ask that 
you commit to fully analyzing the impacts of future goals on existing 
small business subcontractors and work to do no harm to these small 
business subcontractors.
    Answer. As you may be aware, the President's fiscal year 2015 
Budget requests to delete the provision that considers contract dollars 
awarded to small business subcontractors under the DOE's management and 
operating (M&O) contracts towards the Department's prime small business 
contracting goals. Currently, the DOE Office of Small Disadvantaged 
Business Utilization is working with the SBA on interpretation and 
implementation of the provision. We note that first-tier subcontracts, 
like the Hanford (non-M&O) first-tier subcontracts, will continue to 
count towards the DOE small business subcontracting goal.
    At the present time, we do not believe that Section 318 will have a 
negative effect upon prime or subcontracting achievements on our non-
M&O contracts across the Office of Environmental Management complex. 
Subcontractors that have contracts with DOE's non-M&O prime contractors 
will still be counted toward DOE's small business subcontracting goals.
    Question. With the ongoing challenges at WTP, it has become clear 
that large portions of the Hanford site will remain in operation longer 
than the Department originally expected. As a result the Department 
will need to maintain critical infrastructure longer in order to 
support continued cleanup operations. It is my understanding that the 
Richland Operations Office will begin planning this year for 
infrastructure upgrades to systems like water, electrical, power, 
sewer, and roads in the Central Plateau to support start up and 
operation of the WTP and continued operation of the Environmental 
Restoration Disposal Facility and 200 West Pump and Treat Facility.
    Does the Department plan to support funding these necessary 
infrastructure improvements in the fiscal year 2016 budget and beyond? 
Please elaborate on how the Department will support RL's efforts 
despite constrained budgets.
    Answer. The Richland Operations Office (RL) is responsible for 
providing site-wide infrastructure support to both its own cleanup 
activities and operations of the Office of River Protection (ORP). The 
Department recognizes the need for and has already begun the planning 
for upgrades and maintenance of the infrastructure of systems, 
including water, electric, power, sewer, and roads, in order to support 
cleanup efforts on the Central Plateau, as well as startup operations 
of the Waste Treatment Plant.
    Question. The Department of Energy is facing a number of nuclear 
waste cleanup challenges, and we must ensure that we have the technical 
understanding, scientific approaches, and tools we need to sufficiently 
address them. I was encouraged to see DOE's continued commitment to 
addressing these challenges through the Technology Development and 
Deployment (TDD) program. However, I am remain concerned that DOE is 
not using all the tools at its disposal in addressing these challenges, 
mainly the national laboratories in their role as federally funded 
research and development centers. National laboratories like the 
Pacific Northwest National Laboratory, Oak Ridge National Laboratory, 
and the Savannah River National Laboratory have unique expertise and 
the technical understanding to address the technology needs at cleanup 
sites like Hanford, Oak Ridge and Savannah River.
    Please elaborate on how the Department's budget request will 
continue these efforts, enable the national laboratories to participate 
in devising technically-grounded strategies for the EM mission, and 
ensure greater alignment of the TDD program priorities with key EM 
challenges.
    Answer. We strongly agree that Technology Development and 
Deployment (TDD) activities are crucial to the Department of Energy's 
(DOE) mission of effectively remediating and closing contaminated sites 
on cost and schedule. Investment in our TDD activities also has the 
potential to generate significant life-cycle cost savings in this 
mission. During fiscal year 2015, the Department will continue to 
actively engage and leverage the expertise of its own national 
laboratories as it executes its cleanup mission. Moreover, DOE will 
continue to take steps to bolster its science and engineering prowess 
by establishing formal collaborations with other Federal Government 
laboratories and academic institutions. Finally, the Department will 
continue to explore opportunities to transfer technology from private 
industrial entities that have not historically conducted work sponsored 
or funded by DOE's cleanup program.
                                 ______
                                 
               Questions Submitted by Senator Tim Johnson
    Question. In the budget justification for the Western Area Power 
Administration (Western), the Program Direction section shows an 
increase of 16 FTE's at WAPA's headquarters. Can you provide further 
explanation for the requested staff increase?
    Answer. The Western Area Power Administration (Western) budget 
justification does not break out Program Direction by location. 
However, of the total FTEs requested in fiscal year 2015 across all 
programs, an increase of 17 FTEs is attributable to Western's 
headquarters. While these positions are staffed out of Western's 
headquarters office, they serve the regional needs across our 15 State 
territory. The specific additional FTEs requested are identified below.
    Two additional FTEs for Enterprise Risk Management (ERM): In fiscal 
year 2013, the Risk Management Office/Program was created to develop an 
Enterprise-wide Risk Program adopting data-driven common industry 
practices in planning, managing, and mitigating risks Western-wide. 
This program contributes to the assurance of continued safe and 
reliable power delivery to our customers by addressing emerging risks 
that present vulnerabilities in the utility industry. The ERM staff 
works across all of Western's activities.
    Four additional FTEs for IT specialists for cyber security: Threats 
to control systems and enterprise-wide networks are at an all-time 
high, nationwide. To protect the grid we are responsibly intensifying 
resilience to cyber security attacks by establishing a Network and 
Security Operations Center (NSOC) to increase protection by logging, 
scanning, alerting, sensor monitoring, and by implementing North 
American Electric Reliability Commission (NERC) Critical Infrastructure 
Protection (CIP-5). We are working closely with the Federal Energy 
Regulatory Commission (FERC), the Department of Energy (DOE) Office of 
Electricity and Energy Reliability (OE), and the Department of Homeland 
Security (DHS) to implement practices that reduce risk and 
vulnerabilities across our large geographical footprint impacting 
millions of residential communities and commercial industries. These 
cyber security specialists support the regions as well as Western's 
data center which is based in Folsom, California.
    Two additional FTEs for General Engineers for Asset Management 
(AM): Western has initiated a formalized asset management program to 
capture data on our portfolio of capital assets more uniformly and 
systematically. Capital asset-related workload is increasing to design, 
develop and implement strategies, plans and policies for proper 
investment valuation and portfolio management, design, construction, 
and monitoring asset health, condition, risks and costs. Asset 
management is a Western-wide activity.
    Two additional FTEs for Attorneys: Workload in compliance, 
regulation and evaluation of market impacts is increasing due to 
various factors (including, but not limited to, FERC Order 1000, inter-
regional planning and cost allocation; FERC Order 764, integration of 
Variable Energy Resources (VER); and Regional Transmission Organization 
(RTO)/Independent Systems Operator (ISO) opportunities) which require 
precision in assessing legal implications to ensure sound 
decisionmaking to protect customer and taxpayers' interests. While 
physically located at the Lakewood headquarters, all of this legal work 
is on behalf of the regions.
    One additional FTE for a Supervisory Public Affairs Specialist: 
Significant dynamic change and related issues, within, and external to 
Western, drive the need for more communication and multi-faceted 
communication strategies. This position will ensure we are meeting the 
public need for timely information and effective communication with 
DOE, other Federal agencies, stakeholders, customers, Congress, State 
and local governments, and tribes.
    Two additional FTEs for contract specialists: The positions are 
required to meet increased workload demands in procurement, address the 
Strategic Integrated Procurement Enterprise System (STRIPES) 
implementation, ensure compliance with changing procurement 
requirements, enable execution of strategic sourcing initiatives to 
promote cost savings and improve efficiencies in material and 
acquisition management.
    Four additional FTEs for the Transmission Infrastructure Program 
(TIP): TIP is a full cost recovery program and these positions. 
(Financial Manager, Budget Analyst, Accountant and Project Management 
Support Technician) are necessary to meet the anticipated increase in 
the number of project proposals that seek to obtain funding through the 
use of Western's borrowing authority.
    Question. Within Western, what are the Corporate Services Office's 
total costs for fiscal year 2013-2015? Please also break out overheads 
and direct charges, total dollars as well as overhead rates.
    Answer. Total costs budgeted for CSO in fiscal year 2013 were $59.3 
million. Of this, $44.4 million was an indirect charge and the 
remaining balance was a direct charge.
    Total costs budgeted for CSO in fiscal year 2014 are $64.7 million. 
Of this, $44.8 million is an indirect charge and the remaining balance 
is a direct charge.
    Total costs budgeted for CSO in fiscal year 2015 are $67.8 million. 
Of this, $50.1 million is an indirect charge and the remaining balance 
is a direct charge.
    As a general rule, about 80 percent of the indirect costs are 
passed into overhead rates. The remaining indirect costs are directly 
burdened to construction or operations and maintenance project rates 
for the regions.
    Question. Western's budget request shows $74,448,000 in alternative 
financing for Construction and Rehabilitation. What alternative 
financing tools are being used, and how much will be coming from what 
sources?
    Answer. Western relies heavily on voluntary customer participation 
in alternative methods for capital financing to supplement the 
appropriations provided for the Construction and Rehabilitation 
program. The authority is provided in Public Law 66-389, ``Sundry Civil 
Appropriations Act'' (1922). Given customer advances for the 
Construction and Rehabilitation program are voluntary contributions, 
they are not mandatory; and generally, are not determined until the 
funds are required near the execution year. Therefore, it is extremely 
difficult to identify with certainty the sources or the distribution. 
Western discusses funding needs with customers and discloses the 
estimated need for capital resources and its reliance on customer 
advance funding in the budget request. The capital needs are requested 
from customer groups benefitting from the power system investments.
    Question. In Western's ``Program Direction Support Services and 
Other Related Expenses,'' the budget request for ``Other Services'' has 
grown from $15,086 in fiscal year 2013 to $24,016, an increase of over 
35 percent in 3 years. What costs are included in ``Other Services,'' 
and what amounts are requested for each category?
    Answer. Western's increase of approximately $8.9 million in the 
fiscal year 2015 President's Budget Request as compared to fiscal year 
2013 within its Construction, Rehabilitation, Operations and 
Maintenance (CROM) Account, Program Direction, ``Other Related 
Expenses'', specifically ``Other Services'' is primarily attributable 
to an increase in architectural and engineering services for design 
work estimated to be beyond available resources, which will require 
outsourcing. Nearly all of the increase in Western's fiscal year 2015 
estimate for ``Other Services'' is due to the following design 
projects: the Central Valley Project (CVP) Easement Improvement 
Project, Keswick-Airport/Airport-Cottonwood Reconductoring Project, 
Cottonwood-Olinda Reconductoring Project, Blythe-Parker rebuild, 
Coolidge-Valley Farms rebuild, and the Henry-Sievers/Coolidge-Valley 
Farms rebuild. NERC/FERC requirements dictate that Western analyze and 
mitigate low, medium and high priority issues with our lines. The 
analysis piece of this effort is reflected in the fiscal year 2015 
estimate for ``Other Services'' and ties into the architectural and 
engineering phased activity reflected in Western's 10-year capital 
construction plan. Over the last few years, Western has placed an 
increased emphasis on performing engineering studies for future 
potential/programmed projects prior to the actual start of the project.
    Question. This year's budget request has significantly less detail 
in describing Western's needs. Why is that?
    Answer. The amount of detail that Western includes is coordinated 
with the Department of Energy, which in recent years has aggressively 
worked to streamline costs by reducing paper, unnecessary detail and 
processing. To add value and reduce costs, Western extensively 
streamlined the budget request document while maintaining and improving 
the quality of the narratives.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
                              lng exports
    Question. The shale boom has opened up the possibility of something 
previously considered impossible; exporting gas from the United States 
to our allies. It is vital, then, that we ensure that permitting and 
approval for these export facilities is not held up by unneeded 
bureaucracy. The Department of Energy has stepped up its approval 
process over the last several months, but it is still not where it 
needs to be. There are twenty four projects currently awaiting 
approval. Some of them have been waiting for over 800 days. I commend 
you on the recent approval of Jordan Cove in Oregon as well as the six 
other approved facilities: Cheniere (Louisiana), Freeport (Texas), Lake 
Charles Exports (Louisiana), Dominion Cove Point (Maryland), Freeport 
(Texas, expansion of earlier approval), Cameron LNG (Louisiana) and 
Jordan Cove (Oregon). Combined, these represent 9.27 bcf/day of export 
capacity.
    What can be done to speed up this process to help open up a freer 
market for our allies across the globe and create more critical U.S. 
jobs?
    Answer. As of April, 2014,\1\ the Department is processing 
applications as expeditiously as possible. The Department has 
conditionally approved LNG export permits from proposed facilities 
equivalent to 9.27 billion cubic feet per day of natural gas (or 96 
billion cubic meters a year) that can be exported to countries with 
which the United States does not have a free trade agreement that 
requires national treatment for trade in natural gas (non-FTA 
countries), such as European countries. In addition, the Department has 
granted authorizations to export LNG from proposed facilities to 
countries with which the United States has free trade agreements that 
require national treatment for trade in natural gas (FTA countries) 
equivalent to 37.96 billion cubic feet per day of natural gas. The FTA 
authorized volumes are from facilities that include the non-FTA 
authorized facility volumes, and therefore are not additive to the non-
FTA volumes authorized.
---------------------------------------------------------------------------
    \1\ On May 29, 2014, the Department of Energy announced that in 
order to reflect changing market dynamics, the Department is proposing 
to review applications and make final public interest determinations 
only after completion of the review required by environmental laws and 
regulations that are included in the National Environmental Policy Act 
review (NEPA review), suspending its practice of issuing conditional 
commitments. The proposed changes to the manner in which LNG 
applications are ordered and processed will ensure our process is 
efficient by prioritizing resources on the more commercially advanced 
projects, while also providing the Department with more complete 
information when applications are considered and public interest 
determinations are made.
    The Department's practice of issuing conditional authorizations to 
export LNG to non-FTA countries was designed to provide regulatory 
certainty before project sponsors and the Federal Energy Regulatory 
Commission (FERC) spend significant resources for the review of export 
facilities required by environmental laws and regulations that are 
included in the NEPA review. However, market participants have 
increasingly shown a willingness to dedicate the resources needed for 
their NEPA review prior to receiving conditional authorizations from 
the Department of Energy. In response to these and other developments, 
the Department intends to make final public interest determinations 
only after a project has completed the NEPA process, instead of issuing 
conditional authorizations. By removing the intermediate step of 
conditional decisions and setting the order of DOE decisionmaking based 
on readiness for final action, DOE will prioritize resources on the 
more commercially advanced projects.
    The proposed procedural change will improve the quality of 
information on which DOE makes its public interest determinations. By 
considering for approval those projects that are more likely to 
actually be constructed, DOE will be able to base its decision on a 
more accurate evaluation of the project's impact on the public 
interest. DOE will also be better positioned to judge the cumulative 
market impacts of its authorizations in its public interest review. 
While it is not assured that all projects for which NEPA review is 
completed will be financed and constructed, projects that have 
completed the NEPA review are, generally speaking, more likely to 
proceed than those that have not.
    In response to an evolving market, this proposed change will 
streamline the regulatory process for applicants, ensure that 
applications that have completed NEPA review will not be delayed by 
their position in the current order of precedence, and give the 
Department a more complete understanding of project impacts.
---------------------------------------------------------------------------
    These are significant volumes. To put it in perspective, the non-
FTA authorized volume of 9.27 billion cubic feet per day of natural gas 
is essentially equal to the 2013 LNG exports from Qatar, the world's 
largest LNG exporter, more than the total amount of LNG that Europe 
currently imports, and equal to over half the natural gas Europe 
currently imports from Russia.
                          keystone xl pipeline
    Question. It has been over 5 years since TransCanada first applied 
for a permit to build the Keystone XL Pipeline. This critical 
infrastructure project will carry an estimated 830,000 barrels of oil a 
day to U.S. refineries and would create over 40,000 jobs and lessen our 
dependence on foreign oil. I have been urging for approval of Keystone 
XL for over 3 years now. I understand that when the 90-day Federal 
agency comment period ends in the coming weeks, Secretary of State John 
Kerry will provide the national interest determination of the Keystone 
XL Pipeline. I recently led an effort with 10 of my Senate colleagues 
calling on the Administration to implement an explicit timeline to get 
the national interest determination no later than 15 days after the 
comment period ends and a final decision on Keystone by May 31.
    Could you define the role of the Department of Energy in providing 
input to the State Department regarding the national interest 
determination of the Keystone XL pipeline?
    Answer. The State Department is responsible, under Executive Order 
13337, to determine if granting a permit for the proposed pipeline 
would serve the national interest. Consistent with the Executive Order, 
the national interest determination involves consideration of many 
factors, including energy security, health, environmental, cultural, 
economic, and foreign policy concerns. The Department of Energy is one 
of several Departments and Agencies that the State Department is 
required to seek input from in terms of the national interest. As such, 
the Department's input will primarily address the energy security and 
energy market implications of the proposed pipeline permit application.
    Question. Given that input, do you intend to push for prompt 
approval of the pipeline?
    Answer. The Department cannot answer this question at this time 
because the Department's input addressing the factors required under 
Executive Order 13337 are currently being reviewed.
U.S.-Israel Energy Cooperative Agreement--Binational Industrial 
        Research and Development (BIRD) Energy Program
    Question. The BIRD Foundation was established by the U.S. and 
Israeli governments in 1977. It was a priority of Presidents Gerald 
Ford and Jimmy Carter, and received its first appropriations in H.R. 
4877, the Supplemental Appropriations Bill of 1977. It is a jointly run 
venture between the U.S. and Israeli governments, and in my view, is 
incredibly efficient. For every $1 of Government funding--half of which 
come from the U.S. Government, half from the Israeli government--, the 
applicants have to match with at least $1 in private financing. In 
2007, we expanded the program and created a BIRD Energy program, 
focused on funding innovative renewable energy and energy efficiency 
ventures, and the Department of Energy runs it on the U.S. side. The 
funding began in 2009, and we've gotten a great bang for our buck. For 
every $1 we put in, the joint venture receives a total of approximately 
we leverage it $4.50 times:
    We have financed innovative companies from Phoenix, Arizona, to 
        Madison, Wisconsin, to Scranton, Pennsylvania working on solar, 
        bio fuels, and energy efficiency. As you know, I've introduced 
        legislation that has passed the Energy Committee, as well as 
        the House, that expands this program to include innovative 
        fossil fuel projects. We usually appropriate $2 million a year, 
        but I am asking for $5 million.
    Given the success of the BIRD Energy program, and the expansion we 
are supporting, do you think that the program would be able to utilize 
the additional bandwidth of $5 million that I'd like to see?
    Answer. Based on previous funding cycles for BIRD Energy, it is 
unclear whether there would be sufficient high-quality applications to 
support this increase in funding. More importantly, this increase in 
funding would require matching from the Israeli government, on which 
DOE cannot comment.
    Question. How else is the Department of Energy supporting Israel's 
development of their newfound natural resources?
    Answer. The Department of Energy plans to continue to develop its 
already strong relationship with Israel on strategic energy matters. 
DOE intends to pursue opportunities to enhance its cooperation with 
Israel, and we look forward to continuing to work with the Government 
of Israel, including the Israeli Ministry of National Infrastructures, 
Energy, and Water Resources (MIEW).
    The U.S. and Israeli Governments participated in the annual U.S.-
Israel Energy Meeting in Israel on March 25, 2014. The Energy Meeting 
covered topics including natural gas regulation, clean transportation 
fuels, the energy/water nexus, energy storage, and critical energy 
infrastructure protection, and the Energy Meeting included energy 
sector site visits around Israel. The U.S. delegation included 
participants from DOE, DOE's National Laboratories, the Department of 
State, and the Department of Interior, and was led by DOE. The Israeli 
delegation included participants from multiple Government of Israel 
agencies, and was led by MIEW.
                              wind energy
    Question. Wind energy holds enormous promise as another source of 
energy for our country, and to create a great number of new jobs. I 
understand that Maine has had great success in their efforts, but there 
are legitimate concerns that other countries will overtake the United 
States' competitive advantage. One of the critical pieces of 
information to clarify for policy makes is price. I understand that in 
most cases, contracts between an operator and a utility are private, 
bilateral agreements that are not made public. Given the government's 
presence in the wind energy space, and the continued strong interest, I 
think it is critical that we have an operating assumption of price, and 
how that compares with more traditional sources of energy.
    Measured in cost per kilowatt hour, how does wind compare to 
consumer costs for energy derived from other sources?
    Answer. While energy contracts are often not made public, the Wind 
Program has collected data on 302 wind power purchase agreements (PPAs) 
representing 24,626 projects, and reports on aggregated trends in the 
annual Wind Program-funded Wind Technologies Market Report. Wind PPA 
prices generally have been falling since 2009 (from $70/MWh) and now 
rival previous lows set a decade ago, with the average levelized long-
term price from wind PPAs signed in 2011/2012 falling to around $40/
MWh. PPA prices are generally lowest in the interior region, where they 
are competitive with wholesale electricity prices, and highest in the 
west.\2\
---------------------------------------------------------------------------
    \2\ http://energy.gov/sites/prod/files/2013/12/f5/
2012_wind_technologies_market_report.pdf.
---------------------------------------------------------------------------
    The cost of energy from wind power, in areas with good wind 
resources, has decreased from over 55 cents per kilowatt-hour (kWh) in 
1980 (current dollars) to under 6 cents/kWh today in the interior 
region of the United States. For comparison, the Energy Information 
Administration reports that the average retail price of electricity for 
all sectors is approximately 10 cents/kWh.\3\
---------------------------------------------------------------------------
    \3\ http://www.eia.gov/electricity/monthly/current_year/
january2014.pdf.
---------------------------------------------------------------------------
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
                          high energy physics
    Question. As you appropriately put it in your testimony, the Office 
of Science:

    ``Provides the national research community with unique research 
        opportunities at major facilities for nuclear and particle 
        physics, energy science, materials research and discovery, 
        large-scale computation, and other disciplines.''

    In many ways, the fiscal year 2015 DOE budget request sustains its 
investment in the basic research by providing the Office of Science 
$5.1 billion. Unfortunately, that support is not equally distributed. 
The budget proposes to cut $52 million from the High Energy Physics 
program--Fermi National Accelerator Lab would disproportionately absorb 
$41 million of this cut.
    While the Department is waiting for the Particle Physics Project 
Prioritization Panel (P5) to issue its report in May, detailing a new 
strategic plan, the U.S. should at least sustain the current budget, 
which is consistent with DOE's previous guidance to P5 that HEP would 
receive 3 years of flat funding.
    With that in mind, what are the promising directions you see for 
U.S. physics community under a flat budget scenario?
    Answer. This is a very exciting time for high-energy physics, with 
several recent major discoveries that open up new areas of 
investigation, including the discovery of the Higgs boson at CERN, the 
measured large mixing of neutrinos enabling qualitatively new 
investigations of fundamental questions, and rapid advances in the 
ongoing searches for dark matter and dark energy. While there are more 
opportunities to pursue than fit into a flat budget, we expect P5 to 
make recommendations for a set of compelling science projects that can 
be executed in such a scenario.
    Question. The particle physics community is a global community, and 
the U.S. is building significant momentum with Europe for the Long 
Baseline Neutrino Experiment (LBNE) with strong support from Congress 
for preliminary work on the project.
    What is DOE prepared to do to ensure a robust future for U.S. 
leadership in high energy physics and the Long Baseline Neutrino 
Experiment?
    Answer. The U.S. is currently the world leader in several research 
areas in the Intensity and Cosmic Frontiers and is making new 
investments to continue this leadership. The U.S. also plays key roles 
and has leadership positions in offshore scientific opportunities that 
maintain our high visibility and impact in the global HEP program.
    Several nations in Europe and Asia as well as CERN have expressed 
interested in joining the world-leading neutrino program at Fermilab, 
including the Long Baseline Neutrino Experiment (LBNE), potentially 
contributing to both the scientific effort and the detectors and the 
neutrino beams. P5 heard from these potential partners while collecting 
input and will carefully consider this as they formulate their 
recommendations The Department is committed to supporting a robust 
program in particle physics including a domestic program that builds on 
the infrastructure and expertise at Fermilab to provide U.S. leadership 
in the global particle physics effort.
                        environmental management
    Question. While the Department has made significant strides to 
reduce the footprint of legacy nuclear waste sites across the country, 
the cleanup of smaller sites with non-defense waste has been largely 
neglected--forcing these sites to use their own funds to clean up the 
waste.
    In the last decade, Argonne National Laboratory used its own funds, 
which could have otherwise been dedicated to scientific research, to 
transport waste to the Waste Isolation Pilot Plant (WIPP) in New 
Mexico. Before WIPP's temporary closure in June, Argonne accounted for 
almost half of all the transuranic waste transported to WIPP.
    Given that reasonable increases in funding to clean small, non-
defense sites could have a substantial effect on DOE's waste footprint, 
what can the Department do to ensure sufficient funding through the 
Environmental Management program is given for these activities?
    Answer. As the Environmental Management program enters its 25th 
year, much progress has been made to clean up and close both small and 
large legacy radioactive sites. EM has completed to date 91 sites and 
has made significant progress at the remaining sites. The Department's 
Office of Science nuclear research and development work at Argonne 
National Laboratory resulted in contamination of some research 
facilities and the generation of radioactive wastes. As you may be 
aware, the Office of Environmental Management (EM) used Recovery Act 
funds to achieve a certain amount of cleanup at Argonne, creating the 
remote-handled transuranic waste stream that you mention. Once the 
Recovery Act funds were spent, the Office of Science continued to fund 
the ongoing cleanup of the Alpha Gamma Hot Cell Facility, to the 
advantage of both the EM and Office of Science efforts. The legacy work 
scope of EM at the Argonne National Laboratory has been completed. The 
cleanup of newly generated waste is the responsibility of the Office of 
Science.
                        office of fossil energy
    Question. FutureGen 2.0, a project to develop a near-zero emission 
coal-fired power plant while reducing greenhouse gas emissions and 
generating tremendous economic opportunity at the same time, is 
scheduled to begin scheduled to begin construction this year.
    How does FutureGen 2.0 fit into the larger clean energy strategy at 
DOE and the President's Climate Action Plan?
    Answer. Carbon Capture and Storage (CCS) is an integral part of the 
President's Climate Action Plan to safely and cost effectively reduce 
emissions of carbon dioxide, a greenhouse gas. The Office of Fossil 
Energy is working to develop a suite of technologies that can 
affordably capture carbon dioxide and then safely and permanently store 
or reuse it. The Office of Fossil Energy has a portfolio of commercial 
scale CCS demonstration projects, including FutureGen 2.0, and is 
intended to demonstrate the technical and commercial viability of these 
technologies.
                                 ______
                                 
             Questions Submitted by Senator Lamar Alexander
                              ceiling fans
    Question. Has the Department of Energy studied the relationship 
between fan use and air conditioning use?
    Answer. In response to comments on the framework document regarding 
the potential interaction between ceiling fan and air conditioner 
usage, DOE published a Request for Information (RFI) in the Federal 
Register on October 22, 2013, asking for additional data and 
information on the subject (78 FR 62494). DOE reviewed third-party 
studies on this topic as well as the 50 comments and data that were 
submitted to DOE in response to the RFI. DOE plans to utilize the 
knowledge and information gained from the RFI and from independent 
research to further study the relationship between fan use and air 
conditioning use during the course of the ceiling fan rulemaking.
    Question. Does the Department have statistics on the amount of 
energy consumption fans save as an alternative to air conditioning?
    Answer. DOE does not have statistics on the amount of energy 
consumption fans save as an alternative to air conditioning. As part of 
the RFI, DOE specifically asked for information and data on consumer 
behavior with regards to ceiling fan usage and purchasing decisions. 
DOE received varying responses to its request in the RFI with some of 
the data indicating that consumers do not adjust their thermostat when 
they use a ceiling fan and there is no clear indication that consumers 
substitute purchases of ceiling fans for purchases of air conditioners. 
In addition, DOE recently released energy efficiency and cost data on 
ceiling fans, which generally shows manufacturers can achieve a 35 to 
45 percent increase in airflow efficiency with a less than $8 increase 
in the manufacturing cost of the fan. At this incremental increase in 
manufacturing cost, DOE does not have data that indicates that consumer 
purchasing behavior would be impacted.
    Question. Will the Department go forward with the rulemaking even 
if it lacks empirical data regarding the relationship between fans and 
A/C?
    Answer. As part of this rulemaking, DOE is interested in reviewing 
any and all information pertaining to ceiling fan energy consumption, 
including information on consumer usage patterns. Among the data that 
DOE has reviewed to date are the following:
  --2009 RECS data to indicate usage patterns and ownership rates of 
        ceiling fan and air conditioning equipment.
  --2003 and 2009 California Residential Appliance Saturation study 
        (RASS) and RECS data to identify potential substitution effect 
        for ceiling fan and air conditioner ownership.
  --A Florida Solar Energy Center (FSEC) study on 400 homes and the 
        comfort levels provided by ceiling fans.\4\
---------------------------------------------------------------------------
    \4\ James, P., J. Sonne, R. Vieira, D. Parker, and M. Anello. ``Are 
Energy Savings Due to Ceiling Fans Just Hot Air?'' In Proceedings of 
the ACEEE Summer Study on Energy Efficiency in Buildings. 8:89-93. 
American Council for an Energy-Efficient Economy. 1996. Washington D.C.
---------------------------------------------------------------------------
  --An AcuPOLL survey on consumer behavior.\5\
---------------------------------------------------------------------------
    \5\ ALA comment, No. 59 at p.15.
---------------------------------------------------------------------------
  --An SDG&E study with information on ceiling fan and air conditioner 
        use.\6\
---------------------------------------------------------------------------
    \6\ SDG&E. Statewide Investor Owned Utility Ceiling Fan Study. 
Prepared by RLW Analytics. 2002. (Last Accessed April 10, 2014).
---------------------------------------------------------------------------
  --2002 Sacramento Municipal Utility District (SMUD) study on 25 
        households with ceiling fans.\7\
---------------------------------------------------------------------------
    \7\ The SMUD study was conducted as part of a larger California-
wide study on ceiling fan operational characteristics, and can be found 
in Chapter 4 of that study. See RLW Analytics, Inc., prepared for San 
Diego Gas & Electric Company, Statewide Investor Owned Utility Ceiling 
Fan Study, Chapter 4 (2002) (SMUD Study).
---------------------------------------------------------------------------
  --Lawrence Berkeley National Laboratory's report ``Ceiling Fan and 
        Ceiling Fan Light Kit Use in the U.S.'' \8\
---------------------------------------------------------------------------
    \8\ Kantner, C.L.S., S.J. Young, S.M. Donovan, and K. Garbesi. 
Ceiling Fan and Ceiling Fan Light Kit Use in the U.S.--Results of a 
Survey on Amazon Mechanical Turk. July 2013.
---------------------------------------------------------------------------
    DOE will take into account all of the information during the course 
of the rulemaking.
    Question. Do you agree that the Department should have sufficient 
empirical data regarding these issues before moving forward with a 
rulemaking that could result in decreased energy savings while 
simultaneously reducing consumer choice?
    Answer. DOE plans to consider the impact on consumer choice as part 
of the rulemaking. Preservation of consumer choice is addressed by one 
of the factors that DOE must weigh when considering energy conservation 
standards for ceiling fans as required by statute.
                   department of energy construction
    Question. You commissioned a ``Red Team'' review of the Uranium 
Processing Facility led by Thom Mason to look at how to fix the 
project. Are you also going to take the lessons learned from the `Red 
Team' review and apply that to these other projects whose budgets are 
constantly growing?
    Answer. DOE/NNSA uses lessons learned from every review to improve 
project performance across our portfolio. We perform these reviews 
annually and at critical decision points to ensure all projects are 
properly progressing. The reviews are staffed with subject matter 
experts from across the complex. The reviews focus on the following 
areas: Technical; Schedule, Cost, and Risk; Management and Acquisition, 
Environmental, Safety, Health & Quality Assurance, and Start-up and 
Commissioning. Each review produces recommendations that the project 
responds to in a time-phased corrective action plan.
    Question. In the Office of Science they do regular reviews of 
construction projects. Shouldn't we be doing that with all DOE 
construction projects?
    Answer. An important improvement driven by the Department's Root 
Cause Analysis and Corrective Action Plan, and codified in DOE Order 
413.3B, Program and Project Management for the Acquisition of Capital 
Assets (November 29, 2010), and overseen by the Department's Office of 
Acquisition and Project Management is the implementation of Project 
Peer Reviews, a best practice successfully employed by the Office of 
Science, across the Department. Project Peer Reviews provide a means to 
monitor project development and execution and foster sharing of design, 
procurement and construction lessons learned by leveraging Federal and 
contractor staff from across the complex that have requisite knowledge, 
skills and experience for particular projects, disciplines, and phases. 
Project risks and how they are effectively being managed are central to 
these reviews. Results of these reviews are provided to the 
Headquarters' Acquisition Executive (which is the Deputy Secretary for 
large projects costing $750 million or more, or those specifically 
determined to require additional attention) soon after completion of 
the review.
                           incubator program
    Question. Could you explain how you could ensure that, if we 
approve it, the Incubator Program proposed for EERE would not be 
duplicative with ARPA-E?
    Answer. The DOE Office of Energy Efficiency and Renewable Energy 
(EERE) is focused on achieving aggressive and well-defined mid-to-long 
term clean energy goals for the United States of America. EERE's 
mission and program goals, including its proposed Incubator Programs, 
are complimentary to, and not duplicative of, ARPA-E's activities.
    EERE works with industry, academia, National Laboratories, and 
other partners to craft Technology Office-specific Multi-Year Program 
Plans (``roadmaps'')--evaluating pathways for future market potential 
and public benefits of clean energy technologies by incorporating in-
house expertise, market awareness, and knowledge of private 
investment.\9\ EERE focuses the majority of its resources on a limited 
number of ``highest probability of success'' pathways and approaches 
identified within each roadmap, to ensure that the program initiatives 
are supported at a critical mass (both in terms of dollars and time) 
for maximum impact. While this roadmap-based approach is one of EERE's 
greatest strengths, it creates inherent challenges in recognizing and 
rapidly onboarding new or unanticipated high-potential pathways which 
may ultimately be superior to approaches envisioned within the existing 
roadmap.
---------------------------------------------------------------------------
    \9\ For an example of one of these roadmaps, EERE-Bioenergy 
Technologies Office's May, 2013 roadmap is available at: https://
www1.eere.energy.gov/bioenergy/pdfs/mypp_may_2013.pdf.
---------------------------------------------------------------------------
    While EERE strategically plans and evaluates its support of RD&D 
activities according to these technology roadmaps, we also recognize 
how dynamic innovators in the clean energy economy constantly integrate 
new ideas and discoveries to create competitive advantages. The fiscal 
year 2015 EERE Budget Request is seeking support from Congress to 
include a small fraction of its annual funding for ``Incubator'' 
programs within each of its technology offices. The Incubator programs 
are intended to allow EERE to develop, assess, and screen new 
potentially impactful ``off-roadmap'' technologies, which may be ``on-
ramped'' into future roadmaps. DOE's pilot SunShot Incubator Program 
began in 2007 and continues to foster innovative solutions across the 
Solar Energy Technologies Office portfolio.
    In fiscal year 2014, EERE assembled a cross-cutting panel of 
technology managers from seven different EERE Technology Offices to 
explore what Incubator programs could look like for each office, and as 
a result, issued several pilot-Incubator Funding Opportunities 
Announcements (FOAs). EERE has and will continue to engage ARPA-E in 
order to clarify the distinctions between the EERE Incubator and ARPA-E 
awards.
    Each EERE Technology Office Incubator FOA is presently intended to 
run annually and be open to all applicants within a given technology 
area. While ARPA-E also runs several competitive solicitation 
processes, ARPA-E seeks potentially transformational and disruptive 
technologies that would require substantial revisions of technology 
roadmaps beyond that of EERE or industry. This is a significantly 
different from seeking ideas that may be added to an established 
roadmap.
    Question. I also want to make sure this doesn't end up looking like 
a slush fund that your program managers can spend on their projects 
without involving the Appropriations Committee, like kite-based wind 
power that you know we would never approve. Could you explain what 
oversight role this Committee would have in the projects this program 
would fund?
    Answer. Incubator funding may not be used by an EERE Technology 
Office Director at his or her discretion, and therefore it is in no way 
a slush fund. To spend funding appropriated for an Incubator award, the 
Office Director must issue a Funding Opportunity Announcement (FOA) 
soliciting proposals. Each Technology Office FOA is presently intended 
to run annually and eligible topic areas and projects would be limited 
to Congressionally-authorized EERE program office activities.
    Under EERE's procedures, all proposals submitted will be evaluated 
and scored by outside independent technology and industry experts in 
the field to identify the most promising emerging new approaches using 
key criteria such as technical merit, impact on national energy goals, 
project research and commercialization plan, and project team 
capabilities and resources.\10\
---------------------------------------------------------------------------
    \10\ Applications that are determined to be compliant will be 
evaluated in accordance with each FOA, and by the standards set forth 
in EERE's Notice of Objective Merit Review Procedure (76 Fed. Reg. 
17846, March 31, 2011) and the guidance provided in the ``Department of 
Energy Merit Review Guide for Financial Assistance,'' which is 
available at: http://energy.gov/sites/prod/files/meritrev.pdf.
---------------------------------------------------------------------------
    This vigorous review process involves written applications 
culminating in a Federal Consensus Board recommendation to the 
Selection Official. The Selection Official would select projects based 
on the recommendations of the Federal Consensus Board, after 
considering policy factors. If the Selection Official deviated from the 
recommendations of the Federal Consensus Board, the Selection Official 
must justify this deviation in writing. Finally, all selections would 
be communicated to the Chairmen and Ranking Members of each 
Appropriations Committee prior to obligation.
                        oe emergency operations
    Question. Given the small amount of time that these Federal 
Regional Energy Advisors would spend under FEMA emergencies, what would 
they do the rest of the year, especially in the three FEMA regions 
where they haven't been needed since 2012?
    Answer. The Regional Energy Advisors (REA) will be composed of 
highly technical staff who will be focusing, year-round on three key 
areas: (1) risk management, (2) enhancing resilience & reliability, and 
(3) cutting edge solutions. The work they would be doing in these areas 
would be to help States and regions tackle the unique challenges they 
face that require tailored solutions to address resilience and 
reliability issues. The ultimate goal is to equip States (as well as 
tribal and territorial entities) and critical energy assets owners and 
operators with appropriate tools and knowledge to enable them to better 
protect from and quickly restore and recover against all hazards. It 
also gives each key stakeholder (State and energy asset owner and 
operator) the ability to share information with the Federal Government 
about their unique State and regional needs. Ultimately, this can serve 
to drive R&D and other technical solutions.
    Because energy permeates throughout all other critical sectors, 
DOE's regional employees will work with other Federal partners within 
the region to ensure interdependencies are considered. While other key 
Federal partners have regional representation to address resiliency 
issues (e.g., Federal Bureau of Investigations, Department of Homeland 
Security/Federal Emergency Management Agency (FEMA), U.S. Army Corps of 
Engineers, Department of Transportation, etc.), DOE lacks suitable 
regional presence. Furthermore, the Department recognizes that not 
every energy incident is supported under the Stafford Act nor does it 
involve FEMA. Threats such as aging infrastructure, geomagnetic 
disturbances, electromagnetic pulse, cyber attacks, or physical attacks 
on key components of the electric grid or other energy infrastructure 
rarely fall under the FEMA umbrella. There are also high-impact-low-
frequency events such as potential catastrophic earthquakes within the 
New Madrid Seismic Zone (directly threatening Illinois, Indiana, 
Missouri, Arkansas, Kentucky, Tennessee, Mississippi and indirectly 
impacting most of the East Coast) or the 2003 blackout that affected 55 
million people in the Northeast. Therefore, support to FEMA emergency 
response is not the sole driver of the need for the REAs and the 
activities they will perform.
    In addition, residing within the region provides the Federal 
Regional Energy Advisors with the ability to understand needs and 
identify some of the trigger points that otherwise could be missed, 
especially in this dynamic environment, where new trigger points can 
arise as a result of newly emerging threats.
    An example to consider is last winter's propane shortage which 
impacted the Midwest and Northeast. A number of events triggered the 
crisis:
  --The agricultural sector experienced a late, wet harvest (Fall 2013) 
        which required a greater than normal amount of propane to dry 
        crops;
  --A key pipeline was shut down for maintenance (November and December 
        2013) which moves supplies from Canada to the Midwest;
  --A key propane storage facility in the Midwest was shut down for 
        leak testing which impacted a major propane storage location 
        before the start of winter); and
  --Very cold winter impacting the majority of the Nation.
    These events or triggers, when viewed individually, might not draw 
national attention due to the relatively low magnitude of the trigger, 
but when these triggers are combined, the cascading effects are major. 
An embedded DOE employee within the region could have been aware of the 
triggers and been able to provide advance warning and recommend 
potential solutions well in advance of potential shortages. Moreover, 
each of the DOE regional employees will have a direct line of 
communication with one another which will facilitate the identification 
of geographical interdependencies and a better understanding of trigger 
points that extend beyond geographical boundaries.
    In summary, the Federal Regional Energy Advisor has a dual role: to 
respond to emergencies and to assist States and critical energy 
infrastructure owners and operators to minimize energy disruptions as a 
result of strong resiliency and reliability efforts. In addition, 
having a consistent physical presence opens up communication channels 
in both emergency and non-emergency situations. Year-around activities 
include but are not limited to:
  --Leading DOE's regional mitigation efforts against those regional 
        threats that pose the greatest risk to the security of the 
        regional energy sector by developing and coordinating 
        activities with key stakeholders and partners within State and 
        local government and the private sector.
  --Conducting or managing complex analysis of existing systems in 
        order to assist individual States with identification of energy 
        policy issues impacting the protection and security of systems 
        that makeup the energy infrastructure within the assigned 
        region.
  --Serving as technical expert responsible for mapping new strategic 
        approaches, providing situational awareness and identifying 
        rapidly changing parameters including trigger points leading to 
        potential future impacts to the energy sector both inside and 
        outside of the assigned region.
  --Applying expert engineering knowledge of the interdependencies of 
        the energy infrastructure with other critical infrastructure 
        and comprehensive understanding by identifying areas vulnerable 
        to potential threats, attacks, or disruptions.
  --Identifying potential opportunities for State and/or regionally-
        tailored technology or mitigation solutions to protect or 
        enhance the resilience of critical energy infrastructure.
  --Engaging with States representatives, critical infrastructure 
        owners and operators, regional Federal partners and 
        collectively identifying potential requirements for 
        technological solutions.
  --Evaluating systems and concepts, for the purpose of assessing areas 
        where changes or modification are needed to enhance the 
        integrity and reliability of the existing energy 
        infrastructure.
  --Performing work to enable integrated assessments of programs, 
        policies or legislative initiatives affecting the areas 
        involving electricity and other energy systems.
  --Leading regional energy exercises or workshops for States and 
        representing DOE in workshops led by other regional s agencies 
        (including FEMA; Army Corps of Engineers; Department of 
        Homeland Security; Environmental Protection Agency; and 
        others).
  --Collaborating with other DOE Federal Energy Regional Advisors by 
        identifying dependencies between energy in the region with 
        different critical infrastructure sectors in other regions and 
        vice-versa. This includes providing warnings to other Energy 
        Regional Advisors, DOE Washington DC Office, and Federal 
        partners about trigger points with potential for future 
        cascading effects.
    Question. Is there another less expensive way to provide this 
service without hiring 10 additional Federal workers?
    Answer. The level of service envisioned through this structure 
would be difficult to achieve without the permanent presence of the 
full time Federal employee in the respective regions. Nonetheless, DOE 
is exploring less costly alternatives to meet some of those services.
                                  wind
    Question. Secretary Moniz, the Department has to prioritize its 
research and development funding to make the biggest impact. With all 
of the good research and development you have going on at the 
Department of Energy, should we really be helping wind developers get 
permits more quickly?
    Answer. The Department is focused on addressing major market 
barriers and challenges to enable wind cost-competitiveness and 
increased deployment, including access to transmission and mitigation 
of radar, environmental, and permitting issues which can impact access 
to higher wind classes and constrain siting decisions. These activities 
make the process more efficient and transparent, and reduce investment 
uncertainties by enabling realistic capital and operating cost 
estimates for financing purposes. Reducing permitting costs and 
ensuring that permitting and siting decisions are based on the best 
available science has relevancy to all applications (land-based, 
offshore and distributed), and is therefore broadly applicable to the 
goal of deploying cost-competitive wind power.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins
                             offshore wind
    Question. Mr. Secretary, building on my comments on deepwater 
offshore wind, another exciting opportunity in marine renewable energy 
is tidal power. I would like to highlight one project in Washington 
County, Maine: the Cobscook Bay Tidal Energy Project. This project is 
the Nation's first commercial, grid-connected tidal energy project, and 
is the result of innovative research and development by a Maine company 
with research and development assistance from Sandia National Labs, the 
National Renewable Energy Laboratory, and a number of institutions of 
higher education throughout the U.S., including the University of 
Maine. It has been funded in part by the U.S. Department of Energy, the 
Maine Technology Institute, and private investors. This project has 
already injected more than $25 million into the local economy and has 
supported more than 100 local and supply chain jobs. While Congress has 
provided critical funding for R&D activities in support of a marine 
energy industry in the U.S., I believe that our funding strategy must 
also focus on commercialization of promising technologies. The 
Department of Energy will continue to play a critical role in efforts 
to accelerate the speed and scale of marine hydrokinetic technology 
deployment and help secure American leadership in this emerging clean 
energy industry. How does the Department's budget request reflect a 
strategy of capitalizing on the current levels of investment in tidal 
and other marine energy technologies?
    Answer. Fostering a domestic MHK industry requires strategic 
investments in research, development, testing, and demonstration to 
drive down the cost and improve the performance of the most promising 
and cost-competitive technologies. The Department plans to invest $30.5 
million in fiscal year 2015 to promote MHK technology development and 
testing in laboratory and open-water settings, while gathering the 
operational, environmental, and cost data needed to accelerate the 
responsible deployment and commercialization of MHK technologies such 
as wave and tidal. Given the relatively low technical maturity of 
devices and the nascent state of the industry, DOE will support the 
technological research and development necessary to drive MHK down the 
cost curve towards competitiveness with localized electricity markets. 
Testing and demonstration will also help drive a domestic MHK industry. 
For example, supporting in-water demonstrations, the Water Power 
Program will have the opportunity to evaluate the entire innovation 
process from demonstration inception to completion, validating 
construction, generation, and operating expenses and informing the 
investor community on the status and progress of MHK systems. The 
Department also expects to compile, analyze, and disseminate 
performance data from device testing to enable the validation and 
improvement of numerical modeling tools. DOE anticipates that the 
datasets will be freely available to entrepreneurs and industry to 
allow for the simulation of device array designs and array impacts on 
marine surroundings. Continued support of research, development, 
testing, and demonstration is expected to be important for helping the 
U.S. MHK industry achieve technology cost-competitiveness at local 
coastal hurdle rates over the long-term.
                             nuclear waste
    Question. I was encouraged to see that the Department's 
Congressional Justification notes the importance of the safe, long-term 
management and disposal of used nuclear fuel, and references the 
strategy released by the Administration in January 2013 that followed 
the 2012 Blue Ribbon Commission report. The Maine Yankee site in 
Wiscasset, Maine, is one of twelve shutdown commercial reactor sites in 
the country that would benefit from an interim storage solution. The 
facility is staffed 7 days a week, 24 hours a day. The storage fees, 
insurance, security and taxes come at the expense of Maine utility 
ratepayers. To date, DOE has not fulfilled its obligation to dispose of 
this material or removed any spent fuel from the site. An interim-
storage solution would allow old nuclear plant sites to be completely 
decommissioned and put to other beneficial community uses. I understand 
that there are some State and local jurisdictions that have expressed 
an interest in discussing the possibility of hosting a centralized 
storage facility, including most recently Governor Perry of Texas. I 
certainly hope that the Department has taken advantage of those 
expressions of interest and have opened a dialogue with some of these 
officials. Can you spend a few moments telling us what you plan to do 
with the funding in the fiscal year 2014 Omnibus to advance this issue 
within your existing authorities?
    Answer. In fiscal year 2014, the Department is laying the ground 
work and developing options for decision makers on the design of an 
integrated waste management system. Activities being conducted to 
support the Strategy for the Management and Disposal of Used Nuclear 
Fuel and High-Level Radioactive Waste and are limited to those that are 
permitted under existing legislative authority. These activities 
include planning for a consent-based siting process, developing 
conceptual designs for interim storage, planning for large-scale 
transportation with a focus on used nuclear fuel from shut down reactor 
sites, and performing cross-cutting analyses and evaluations of 
storage, transportation, and disposal with an integrated, systems 
approach.
    Question. Can you describe the additional authorities you might 
need to allow the DOE to enter into an agreement with a State and local 
jurisdiction whereby DOE would take title to the material at sites such 
as Maine Yankee and ship that material to a licensed centralized 
storage facility in a consenting State?
    Answer. Authority is needed that permits DOE to proceed with the 
siting, construction and operation of centralized interim storage 
facilities. We believe that a linkage between opening an interim 
storage facility and progress toward a repository is important so that 
States and communities that consent to hosting a consolidated interim 
storage facility do not face the prospect of becoming a de facto 
permanent facility without consent: however the linkage should not be 
such that it overly restricts forward movement on a pilot or larger 
storage facility that could make progress against the waste management 
mission.
                   weatherization assistance program
    Question. Mr. Secretary, the Weatherization Assistance Program 
request comes close to restoring the 2008 funding level as many of my 
colleagues and I have been urging. Weatherization plays a vital role in 
permanently reducing home energy costs for low-income families and 
seniors in all States. With some of the oldest housing stock in the 
Nation, Maine has a great many homes that can benefit from 
weatherization. I wanted to ask you today about the multi-family 
financing demonstration initiative proposed in the budget request. I 
noted the proposal to use $15 million of the amount provided for WAP 
for what is described as competitive ``State-level demonstrations of 
financing methods for low-income multi-family units, including 
technical assistance for recipients . . . '' Will you describe in 
greater detail what the Department is proposing, including what 
financing methods the Department has in mind?
    Answer. The Weatherization Assistance Program (WAP) proposed in 
Volume 3 of the Department of Energy fiscal year 2015 Congressional 
Budget Request that $15 million be available on a competitive basis for 
weatherization assistance for State level demonstrations of financing 
methods for low-income multi-family units, including technical 
assistance for recipient of the total proposed fiscal year 2015 WAP 
funding, $15 million is expected to be used to fund competitively 
selected projects to demonstrate the viability of a variety of 
financing options, including, but not limited to revolving loan funds 
(RLFs), interest rate buy-downs, on bill repayment (OBR) and other 
mechanisms in the multi-family residential buildings sector. The 
financing models that prove successful could support expansion of 
weatherization activities in the underserved residential multi-family 
sector.
                      funding assistance to states
    Question. I also wanted to ask about available funding to States. 
We struggled to find every possible dollar to fund Weatherization in 
the past 2 years, and yet I understand that the Department has not made 
all the fiscal year 2013 funds available to the States. Also, I 
understand that the funding notice telling States their 2014 funding 
level was issued just days before the start of the Program Year. 
Moreover, States need to make decision about 2015 funding in the next 
few weeks. Why has DOE been unable release all the 2013 funds to nearly 
a third of States even though the program year has ended? Do you expect 
States will have unspent funding in their Weatherization `pipeline' at 
the end of the 2014 program?
    Answer. The Department appreciates efforts by members of Congress 
to restore Weatherization Assistance Program (WAP) funding levels. 
These formula funds are essential to support the infrastructure of 
States and local agencies that provide WAP services to low-income 
families throughout the Nation.
    For context, the WAP operates on a series of Program Years (PY) for 
its 59 grantees (fifty States, District of Columbia, five U.S. 
Territories, and three Native American Tribes). Sixteen grantees use an 
April 1 PY start date; 31 grantees use a July 1 PY start date; and 8 
grantees use an October 1 PY start date.
    Congress appropriated $68 million in fiscal year 2012, below prior 
years due to the temporary availability of unspent Recovery Act and 
prior-year appropriations. In fiscal year 2013, the Congress provided 
$64 million for WAP, after sequestration cuts imposed on funding 
provided by the fiscal year 2013 continuing resolution (CR), which was 
based on the fiscal year 2012 level. This funding level is below that 
required to maintain the WAP network at minimum capacity.
    Once fiscal year 2013 CR funding became available to allocate in 
January, 2013, WAP grantees had spent all but $70 million of prior-year 
funds. Recognizing the shortfall caused by the fiscal year 2013 CR and 
sequestration, DOE reprogrammed $68 million in additional funds into 
WAP to help maintain the network. Formulation and congressional 
approval of the reprogramming were not completed until June 6, 2013, at 
which point DOE developed the final formula allocations. DOE 
distributed the official notification of funding availability to the 
grantees on June 21, 2013, nearly 6 months later than normal.
    In addition, there were several new requirements added to improve 
the quality and accountability of applications in 2013 that required 
additional time for several grantees. These included: new requirements 
for using WAP funds for expanded health and safety purposes; detailed 
descriptions of how training and technical assistance funds were to be 
used; more details on staffing and other operating costs; and outlining 
of implementation strategies for quality control certification and 
ASHRAE 62.2 ventilation standards.
    As of May 9, 2014, 51 grantees (or 86 percent) have approved 2013 
Grant Applications and are spending funds and weatherizing homes. There 
are eight grantees (or 14 percent) that still do not have 2013 
applications in place. Each has access to sufficient funds to continue 
operations until their 2013 funds are made available through the 
approval process. DOE anticipates making the fiscal year 2014 awards on 
a normal schedule.
    DOE expects that there may be a limited amount of funds available 
in the pipeline at the end of the 2014 Program Year. This is normal, 
since the WAP is a reimbursement program and final quarter reports and 
reconciliation occurs after the end of any Program Year. In addition, 
grantees and subgrantees operate a ``production line'' business model, 
meaning that funds need to remain available when transitioning from one 
program year to the next in order to maintain production while 
retaining staff, warehouses, vehicles, insurance and other operating 
costs. It is normal to expect 60 to 90 days of cash equivalent on hand 
at the end of a program year--or $25 million to $40 million--to fund 
operations until new contracts can be executed between grantees and 
their subgrantees.
    As of April 30, 2014, grantees had $107 million available in 
unspent funds from Program Year 2013 and previous balances. The grantee 
network reports average WAP expenditures of $14 million per month or 
$42 million per quarter. The spending levels are lower than normal 
because of lower allocations in 2012 and 2013. The network has about 7 
months of funding left from all previous allocations.
    The 2014 Program Year expenditures are anticipated to begin within 
the next 30 to 60 days as new applications are approved. It is expected 
that the average per month expenditure will increase to normal levels 
($17 million to $20 million per month) now that WAP funding has 
returned to near normal. For the last 8 months of the 2014 Program 
Year, WAP expenditure should be $120 million to $140 million--leaving a 
balance of $35 million to $55 million as transition to the 2015 Program 
Year. This is within the normal range for funds available to grantees 
and subgrantees from 1 year to the next as described above.
    Question. Will you provide an estimate of the program's capacity 
for expending the available funding before the start of the 2015 
program year?
    Answer. As stated in the response to question 2 above, the 2014 
Program Year expenditures are expected to begin within the next 30 to 
60 days. It is expected that the average per month expenditure will 
increase to normal levels--$17 million to $20 million per month--now 
that WAP funding has returned to higher levels. For the last 8 months 
of the 2014 Program Year, WAP expenditure should be $120 million to 
$140 million, leaving a balance of $35 million to $55 million as 
transition to the 2015 Program Year. This balance is within the normal 
range from 1 year to the next.
    Question. Have procurement and contracting processes slowed down 
the funding flow?
    Answer. DOE has been managing a transfer in WAP procurement 
functions from the National Energy Technology Laboratory (NETL) to the 
Golden Service Center in Golden, Colorado. As noted in the DOE Response 
to Question 1 above, there were new program requirements associated 
with the fiscal year 2013 funding. DOE staff are working to streamline 
the application review and approval processes and to ensure timely 
approvals of grant applications.
                           deep offshore wind
    Question. The United States has nearly 4,000 GW of offshore wind 
capacity within 50 miles, enough to power the U.S. four times over. 
Approximately two-thirds of this capacity is in deep water. In order to 
foster the development of ocean energy resources, other countries such 
as the United Kingdom, Canada, Germany, and Portugal have established 
test sites for ocean energy. They have funded environmental-permitting 
studies and provided electrical infrastructure, including undersea 
cabling and grid interconnection, for these test sites. Private 
industry, working with research institutions, has then used these 
``ready'' sites to build and test advanced offshore wind turbines and 
other ocean energy harvesting devices, spurring further commercial 
developments. Considering that the Advanced Technology Demonstration 
projects are currently slated to each test one proprietary basic 
technology family, their ability to spur innovation could be multiplied 
many-fold if we can build on this investment. What role do you see for 
DOE to establish national offshore wind test sites that are designed to 
test multiple technologies for years to come?
    Answer. The Department does not currently have plans to establish 
dedicated national offshore wind test sites due to the cost, size, and 
timelines needed to test offshore wind systems, as well as the fact 
that many challenges for offshore wind are regional and even site-
specific. However, the fiscal year 2015 Budget Request supports 
continued operation of world class testing infrastructure to provide a 
wide breadth of testing and research capabilities for all wind market 
segments. The program will continue to support its existing full scale, 
accredited test facilities, and also continue to support the 
development of test methods, which are critical for supporting U.S. 
wind energy innovation and cost of energy reductions. The test 
infrastructure supports wind turbine design testing and wind turbine 
component and system research.
    For example, the fiscal year 2015 budget supports the development 
of blade and drive train test procedures and methods through 
partnerships with the Massachusetts Wind Technology Testing Center for 
blade testing and the Clemson Large Wind Turbine Drivetrain Testing 
Facility. These state of the art facilities have unique testing 
capabilities and are sized to support the trend toward larger wind 
turbines for both utility scale and offshore wind.
    The advanced technology demonstration projects for offshore wind 
will also test out new innovations in offshore wind technologies, 
conduct additional research on topics such as environmental impacts and 
interactions between turbines, and share data with DOE to benefit the 
industry at large.
    Question. In addition, grid connectivity is a huge cost barrier for 
smaller projects, and can be estimated near $30-50 million for a 
project in the 25 megawatt range that is 10 miles from shore. Has DOE 
considered providing competitive funding to permit and construct grid 
interconnection for one or more national test sites?
    Answer. In fiscal year 2014, the second phase of the competitively 
selected Advanced Offshore Wind Demonstration projects will provide 
funding and technical assistance, and will support inter-agency 
coordination, to accelerate the implementation of the offshore wind 
demonstration project by, in part, eliminating uncertainty due to 
large-scale market and permitting barriers, including all necessary 
grid interconnection requirements.
    In fiscal year 2011, the Wind Program also competitively selected 
four projects to study the impacts of adding offshore wind to the U.S. 
grid. These efforts, which are well underway, include a national multi-
year integration, resource, and technology assessment with 
participation from industry, labs, and academia, as well as regional 
studies on the Carolinas, Mid-Atlantic, and Great Lakes.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                        national arctic strategy
    Question. In the Administration's Implementation Plan for the 
National Strategy for the Arctic Region, the Department of Energy is 
listed as the lead agency for three programs. These include:
  --Pursuing development of renewable energy resources;
  --Climate predictions; and
  --Integrate Arctic Regional Models.
    The Department was also designated as a supporting agency for 
numerous other projects. The intent of having multiple agencies 
involved is to avoid duplication, make the Federal Government's role in 
the Arctic more efficient and effective, and enhance the potential for 
government support by showing the interest across agencies.
    Could you tell me what funding is included in your Department's 
budget request for the three programs DOE is the lead agency for, as 
well as any other projects the Department is involved in for the Arctic 
region?
    Answer. DOE supports the National Strategy for the Arctic Region 
(NSAR) and its Implementation Plan through various activities across a 
number of DOE program offices. The Office of Indian Energy anticipates 
allocating approximately $750,000--30 percent of its total technical 
assistance budget--to Arctic efforts in Alaska. The Office of Science 
has also requested $37 million for ongoing basic research to support 
the NSAR. The Office of Fossil Energy has a $15 million budget request 
for gas hydrates, which will be distributed across several projects 
using future Funding Opportunity Announcements, some of which may be 
Arctic-related. Further, the Office of Emergency Operations budgets 
$50,000.00 per year for Arctic Council related activities. While the 
program is not involved in any of the three programs under the National 
Strategy for the Arctic Region, our participation in the Arctic Council 
is to address radiological issues.
    Question. What is the current status of the WIPP facility and how 
does its shutdown impact your current fiscal year budget and your 
budget request for the next fiscal year?
    Answer. DOE is working to determine the source of the radioactive 
release, and multiple entries into the underground repository have been 
completed. The teams continue to take videos and photos and gather 
technical information for analysis by industry leading experts.
    DOE is currently evaluating impacts on fiscal year 2014 work in 
progress, and fiscal year 2015 plans, both in response to the fire and 
radiological events at WIPP and impacts of the WIPP shutdown on TRU 
waste generator sites. The root cause of the incidents is still not 
precisely known, so cost and schedule for the recovery plan is still 
under development.
                 lng licensing--jordan cove lng project
    Question. DOE issued a conditional license for the Jordan Cove LNG 
project last month. According to the text of the order: ``To the extent 
U.S. exports can diversify global LNG supplies, and increase the 
volumes of LNG available globally, it will improve energy security for 
many U.S. allies and trading partners. As such, authorizing U.S. 
exports may advance the public interest for reasons that are distinct 
from and additional to the economic benefits identified in the LNG 
Export Study.'' Do you have any plans to expend additional departmental 
resources on commissioning yet another LNG export study?
    Answer. As of April, 2014,\11\ the Department has not determined 
whether or not to update the 2012 Two-Part LNG Export Study. However, 
it bears observing that the Department has found in its most recent 
decisions, including Jordan Cove, that the overall conclusions reached 
in the 2012 LNG Export Study are still valid. This finding was based in 
part on a review of the Annual Energy Outlook 2014 which contains the 
most up-to-date analysis from the Energy Information Administration. In 
order to maintain high confidence in future actions, there may come a 
time when the Department seeks to conduct additional study.
---------------------------------------------------------------------------
    \11\ On May 29, 2014, the Department of Energy announced plans to 
undertake an economic study in order to gain a better understanding of 
how potential U.S. LNG exports between 12 and 20 billion cubic feet per 
day (Bcf/d) could affect the public interest. Using more recent data 
from sources like the Annual Energy Outlook 2014, the Energy 
Information Administration (EIA) will update its 2012 LNG Export Study, 
which only looked at export cases of 6 and 12 Bcf/d. Following the EIA 
update, DOE will again contract for an external analysis of the 
economic impact of this increased range of LNG exports and other 
effects that LNG exports might have on the U.S. natural gas market. 
While these studies are underway, the Department will continue to act 
on applications as stated above. To date, the Department has issued 
final authorization for export to non-FTA countries at a rate of 2.2 
Bcf/d. If at any future time the cumulative export authorizations 
approach the high end of export cases examined, the Department will 
conduct additional studies as needed to understand the impact of higher 
export ranges. At all levels, the cumulative impacts will remain a key 
criterion in assessing the public interest.
    Both the EIA study and the external analysis of economic impacts 
will be made available for public comment.
---------------------------------------------------------------------------
    Question. How much flexibility do you have, as Secretary, to modify 
DOE's licensing process with an eye towards streamlining?
    Answer. As of April, 2014,\12\ DOE could modify its licensing 
process, but it would need to be done carefully, with a reasoned 
explanation for changing course, while taking into consideration the 
fairness to applicants and responsiveness to market forces.
---------------------------------------------------------------------------
    \12\ On May 29, 2014, the Department of Energy announced that in 
order to reflect changing market dynamics, the Department is proposing 
to review applications and make final public interest determinations 
only after completion of the review required by environmental laws and 
regulations that are included in the National Environmental Policy Act 
review (NEPA review), suspending its practice of issuing conditional 
commitments. The proposed changes to the manner in which LNG 
applications are ordered and processed will ensure our process is 
efficient by prioritizing resources on the more commercially advanced 
projects, while also providing the Department with more complete 
information when applications are considered and public interest 
determinations are made.
    The Department's practice of issuing conditional authorizations to 
export LNG to non-FTA countries was designed to provide regulatory 
certainty before project sponsors and the Federal Energy Regulatory 
Commission (FERC) spend significant resources for the review of export 
facilities required by environmental laws and regulations that are 
included in the NEPA review. However, market participants have 
increasingly shown a willingness to dedicate the resources needed for 
their NEPA review prior to receiving conditional authorizations from 
the Department of Energy. In response to these and other developments, 
the Department intends to make final public interest determinations 
only after a project has completed the NEPA process, instead of issuing 
conditional authorizations. By removing the intermediate step of 
conditional decisions and setting the order of DOE decisionmaking based 
on readiness for final action, DOE will prioritize resources on the 
more commercially advanced projects.
    The proposed procedural change will improve the quality of 
information on which DOE makes its public interest determinations. By 
considering for approval those projects that are more likely to 
actually be constructed, DOE will be able to base its decision on a 
more accurate evaluation of the project's impact on the public 
interest. DOE will also be better positioned to judge the cumulative 
market impacts of its authorizations in its public interest review. 
While it is not assured that all projects for which NEPA review is 
completed will be financed and constructed, projects that have 
completed the NEPA review are, generally speaking, more likely to 
proceed than those that have not.
    In response to an evolving market, this proposed change will 
streamline the regulatory process for applicants, ensure that 
applications that have completed NEPA review will not be delayed by 
their position in the current order of precedence, and give the 
Department a more complete understanding of project impacts.
---------------------------------------------------------------------------
                 marine hydrokinetics and test centers
    Question. Coming from Alaska, I am a big supporter of funding to 
advance development of a marine hydrokinetic industry, producing so-
called ocean wave, tidal, current and thermal energy. I see your water 
power budget does call for a $3.9 million increase in funding, to $62.5 
million, a rather modest increase apparently directed toward more 
convention hydropower from non-powered dams. My concern is that you 
seem, by this budget, to be cutting funding for wave, tidal and current 
energy down to about $30 million from $41 million this year and $35 
million in fiscal year 2013. This industry is on the cusp of 
demonstrating commercial systems, but needs more help with funding of 
additional demonstration projects to prove the commercial viability of 
systems and to get projects into the water to prove their efficiency 
and durability. This budget doesn't seem to provide enough funding for 
demonstrations, plus the continual need for research and testing 
centers. By comparison, wind is being proposed for a $26.8 million 
increase and wind is a very mature technology. Why isn't the Department 
devoting more to fund research and demonstrations for marine 
hydrokinetics?
    Answer. EERE is taking MHK research, development and demonstration 
seriously, and does believe it has an important role in the 
Administration's ``all of the above'' energy strategy moving forward. 
Given the relatively low technical maturity of devices and the nascent 
state of the industry, significant technological research and 
development is necessary to drive MHK down the cost curve towards 
competitiveness with localized electricity markets.
    In fiscal year 2015, the Department's Budget Request reflects a 
more equitable split across MHK and hydropower. The $30.5 million 
requested in fiscal year 2015 for MHK allows the Water Power Program to 
continue its ongoing efforts to advance water power technologies and 
accelerate their market adoption. For example, the fiscal year 2015 
Request supports continued MHK applied research and development and 
testing of innovative component technologies designed specifically for 
the challenges of the marine environment, and testing and research to 
address key environmental uncertainties that arise within the rapidly 
developing industry, among other activities. In summary, the 
Department's Budget Request provides the priority and funding stability 
necessary to continue making progress in marine and hydrokinetic 
technologies.
    Question. Let me follow up. Congress in 2007 created the National 
Marine Renewable Energy Centers to conduct research on marine 
hydrokinetics and that legislation gave them the authority, at least in 
DOE's past views, to test and verify the performance of MHK devices. 
This year you seem--admittedly with congressional involvement in the 
fiscal year 2014 consolidated budget bill--to want to recreate the test 
centers inside DOE. I can live with the Department wanting a testing 
facility, but only if the Department does not sacrifice all its already 
sunk investments in the test centers. Will you continue to provide 
operational plus planning and construction grant funding for 
competitively selected open-ocean deep water wave energy testing 
facilities if we approve this budget?
    Answer. The Water Power Program will aim to test and demonstrate 
the viability of MHK systems at pre-permitted open-water site(s)--that 
is, at existing sites and test facilities that DOE has helped to 
develop for which FERC licenses and environmental assessments have 
already been secured. While the Department is continuing to support 
ongoing work such as the fiscal year 2013 Wave Testing Infrastructure 
Development Funding Opportunity and existing collaborations with the 
Navy's Wave Energy Test Site, no new funding is planned in fiscal year 
2015 for the planning or construction of deep-tank or open-ocean deep 
water wave energy test facilities.
    Following Congressional intent in the explanatory statement 
accompanying the fiscal year 2014 Omnibus Appropriations Act, the 
Department will not provide funding support for a deep tank test 
facility in fiscal year 2014. The Department will not replicate any 
existing research and device verification facilities, including any 
facilities that might exist at DOE NMRECs.
                            methane hydrates
    Question. Mr. Secretary your budget calls for a $14.4 million 
increase in funding for natural gas technologies. And it mentions your 
plans to ``conduct lab and field-based research'' on methane hydrate 
dynamics. Back in 2012 the Department conducted what appeared to be a 
very successful test in Alaska's Prudhoe Bay oil field of technology 
using carbon dioxide to help unlock methane from hydrate structures--a 
test predominately paid for by industry including the Japanese. I want 
to see enough funding in your budget to support practical testing of 
technology to unlock methane hydrates, while also adequately funding 
research to understand the hazards and environmental issues with 
tapping this resource. Exactly what amount and type of field research 
is the Department intending to undertake in fiscal year 2015 by this 
proposal?
    Answer. In fiscal year 2012 and fiscal year 2013, appropriations 
were used to fund Funding Opportunity Announcements (FOAs) to re-engage 
the research community and the National Labs in the development of a 
comprehensive portfolio of projects which researches and addresses 
critical issues in methane hydrate R&D and the resulting resource, 
hazard, and environmental implications. A total of 21 projects were 
awarded supporting laboratory, modeling (including analysis of the data 
acquired during the successful arctic testing during fiscal year 2012 
that you referenced), and to a lesser extent, field research 
opportunities in the areas of resource characterization and increasing 
the understanding of methane hydrates' role in the natural environment. 
For fiscal year 2014, DOE issued a FOA for applications that focus on 
two technical areas: (1) field evaluation of the potential resource 
through scientific tests in Alaska, and (2) field programs for marine 
gas hydrate characterization. In fiscal year 2015, the increased 
appropriation requested will be utilized to fund the field projects 
awarded through the fiscal year 2014 FOA.
    Question. Are you planning a year-long flow test of this technology 
in your budget to be conducted with help from the State of Alaska and 
the oil industry on Alaska's North Slope? And is the funding sufficient 
to fund such a test?
    Answer. The nature and duration of any project is dependent upon 
the projects that are proposed and awarded in response to the fiscal 
year 2014 FOA. The State of Alaska has reserved lands on Alaska's North 
Slope which can be utilized for arctic methane hydrate research, and 
potential applicants are aware of the availability of those State 
lands. The fiscal year 2014 FOA makes it clear that applications 
proposing highly-leveraged projects (i.e., a high recipient cost-share) 
are anticipated.
    Question. Does your budget provide enough money to do both in the 
coming year?
    Answer. The $15 million request provides adequate funding to ensure 
steady progress towards our goal of furthering the scientific 
understanding of naturally-occurring gas hydrates; understanding the 
links between methane hydrates and global environmental processes; and 
the resulting resource, hazard, and environmental implications. Field 
testing and resource characterization projects will be designed to 
simultaneously provide research on environmental implications.
                           geothermal energy
    Question. The geothermal budget proposes a hefty increase of $15.7 
million. I have supported increases in recent years to push enhanced 
geothermal system technology and demonstrations. The biggest risk in 
geothermal is finding the exact location of the resource to reduce 
expensive exploration drilling. What are we getting for that increase?
    Answer. The Geothermal Technology Office budget request will allow 
us to advance the Frontier Observatory for Research in Geothermal 
Energy (FORGE), which DOE hopes will accelerate a commercial pathway to 
Enhanced Geothermal Systems (EGS) development in the United States. EGS 
is critical as it provides the potential to create viable geothermal 
resources that otherwise might be commercially impractical. In 
addition, the increase proposes key initiatives intended to reduce the 
cost and risk of geothermal development, such as critical materials, 
play fairway mapping, and the new subsurface crosscut that seeks to 
accelerate innovation in below ground R&D across DOE. Play fairway 
mapping and resource confirmation from temperature gradient wells or 
slim hole exploration wells holds excellent potential for locating and 
testing resources in a cost-efficient manner.
    Specifically, the increased funding reflects a number of key 
initiatives that will diversify the Geothermal Technologies Office's 
RD&D portfolio:
  --the initiation of site characterization activities for the EGS 
        FORGE initiative;
  --validation of play fairway maps through targeted exploration of 
        slim hole and/or temperature gradient well drilling to 
        characterize and confirm the most prospective geothermal areas 
        identified;
  --funding to advance extraction of important materials from 
        geothermal brines --such as lithium, zinc or manganese--as 
        additional value streams to power production; as well as 
        additional funding for advanced direct use, and cascaded 
        surface technologies whose applications extend the reach of 
        geothermal beyond the western U.S.;
  --an incubator activity that will fund high-impact ``off-roadmap'' 
        geothermal technologies and help industry surmount critical 
        technological barriers to commercialization; and
  --a subsurface crosscut initiative that leverages DOE resources and 
        expertise to address common subsurface R&D challenges across 
        the agency.
    Question. Exactly what will we get from additional EGS funding in 
fiscal year 2015 and what will we get from your ``play fairway'' effort 
to provide better public assessments of exploration risks--I assume new 
nationwide heat maps--showing the real potential and location of 
conventional geothermal resources?
    Answer. EGS.--EGS has advanced from a long-term vision to a 
commercially-viable growth opportunity for geothermal, with an 
estimated resource potential of 100+ GW in the U.S. The National 
Renewable Energy Lab further estimates that in-field and near field EGS 
projects have the near-term potential to add 7-10 GWe in the U.S. 
alone, at highly competitive rates and at very low risk. Building off 
of GTO's successful portfolio of EGS demonstration projects, the 
Geothermal Technologies Office is focused on creating and accelerating 
a replicable commercial pathway to large-scale, domestic EGS power 
production through the Frontier Observatory for Research in Geothermal 
Energy (FORGE) initiative. The fiscal year 2015 request focuses on site 
characterization at FORGE, to identify the best candidate site for 
developing a DOE-managed site for high-risk and transformative EGS 
testing and validation--at a larger and more complex scale than the 
current EGS demonstration portfolio.
    Play Fairway.--In January 2014, EERE/GTO announced $3 million to 
spur geothermal energy development using play fairway analysis, a 
technique that identifies prospective geothermal resources in areas 
with no obvious surface expression. These mapping projects, which will 
be regional in nature, are intended to focus on using existing geologic 
and geophysical data to develop maps that identify areas with a higher 
probability of containing a geothermal resource. While commonly used in 
oil and gas exploration, play fairway analysis is not yet used in the 
geothermal industry. By improving success rates for exploration 
drilling, this data-mapping and analytical tool could help attract 
investment in geothermal energy projects across mapped regions and 
significantly lower the cost of geothermal exploration. The ultimate 
goal is to move beyond the ``known geothermal resource areas'' 
(identified by industry and the government in the 1970s and 80s) to a 
new and more-highly reliable approach to resource and opportunity 
mapping.
    Question. Are you making any progress in that regard and exactly 
how will funding in fiscal year 2015 produce better results?
    Answer. The Geothermal Technologies Office has made significant 
progress in our EGS R&D and demonstrations portfolio, which serves as 
the technical foundation for our FORGE initiative. Similarly, the 
Office has made key advancements over the years in our Innovative 
Exploration Technologies, and those lessons learned undergird the Play 
Fairway Analysis initiative. The Play Fairway Analysis competitive 
announcement was issued in January 2014, and the Department is 
currently reviewing applications; the FORGE competitive announcement is 
scheduled for release in Q3 fiscal year 2014. Requested fiscal year 
2015 funding is expected to advance the next phase of development in 
both the FORGE and Play Fairway efforts, which were launched in fiscal 
year 2014. Planned activities in fiscal year 2015 include:
  --FORGE. The identification and initial characterization of a FORGE 
        site that maximizes scientific and operational return on 
        investment with the broadest applicability to future industry 
        activity. We expect to issue the FORGE competitive announcement 
        in Q3 fiscal year 2014.
  --Play Fairway. Validation of play fairway maps through additional, 
        select data collection such as temperature gradient wells. We 
        expect to announce awardees of the fiscal year 2014 FOA by Q4 
        fiscal year 2014.
                      renewables construction aid
    Question. Given the Administration's concerns about carbon 
emissions, I would think this administration would want to encourage 
construction of renewable energy generation projects. Back in 2007 
Congress passed two provisions that I sponsored in the Energy 
Independence and Security Act, Section 803 for all renewables and 
Section 625 for solely geothermal projects in high-cost areas, that 
provided grants of up to 50 percent to aid in the actual construction 
of renewable energy projects. The Department has never proposed to 
provide any money to fund such grants, even in years such as 2009 when 
it received vast additional funding under the terms of the American 
Recovery and Reinvestment Act. Why is the Department so adverse to 
modify its priorities and provide some assistance to implement these 
matching grants for projects in high-cost areas and actually bring more 
low-carbon energy production on line?
    Answer. Section 803 and section 625 of the Energy Independence and 
Security Act (EISA) allows 50:50 cost share of renewable energy 
construction grants. To date, the Department has not requested funding 
for Section 803 or 625. In alignment with the Department's mission, DOE 
believes that investment in research and development will provide the 
maximum rate of return on taxpayer investment as compared to more 
expensive, location-specific demonstration and deployment projects. For 
instance, EERE's total fiscal year 2015 budget request for renewable 
electricity is $521.3 million. Even if this amount were matched by 
private cost share, it would be dwarfed in comparison to what is 
invested in building renewable energy projects with other policy 
incentives. However, the Department will look to sponsor, when 
appropriate, demonstration projects where applying this authority to 
validate new technology performance and economics in high cost areas 
could spur follow-on private investment and be replicated at scale. DOE 
looks forward to working with Congress and other government agencies to 
determine the best policy mechanisms and existing authorities to 
incentivize private investment in building new renewable energy 
projects.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
                 mixed oxide fuel fabrication facility
    Question. The President's fiscal year 2014 budget request asked for 
money for construction of the Mixed Oxide Fuel Fabrication Facility 
(MO<INF>X</INF>). Congress authorized and appropriated funds in fiscal 
year 2014 for this purpose. However DOE now plans to use the money to 
put MO<INF>X</INF> in cold standby.
    What does ``cold standby'' mean?
    Answer. The Department has determined and communicated to the 
contractor, MO<INF>X</INF> Services, that we will continue with 
construction activities through 2014, retaining the key nuclear 
engineers and other highly-skilled workers that will be needed 
regardless of the path forward. The NNSA intends to work with the 
contractor on a plan for placing the project in cold standby during 
fiscal year 2015, and we are continuing our ongoing discussions with 
Congress as they review and evaluate the fiscal year 2015 budget 
request.
    Beginning in fiscal year 2015, the Department intends to place the 
MO<INF>X</INF> project in a reversible cold standby condition, 
preserving the taxpayer investment while we independently validate 
whether there is a more efficient path forward to dispose of excess 
plutonium. As part of these efforts, we would stop design and 
construction activities not required to support placing the 
MO<INF>X</INF> facility in a safe and secure state. This action will 
minimize costs while working with MO<INF>X</INF> Services to develop a 
detailed cold standby execution plan. This plan would include but not 
be limited to closing and securing design documents, developing 
equipment maintenance and preservation plans, completing work efforts 
to protect the site such as closing construction openings, closing pipe 
and conduit, and securing purchased materials, and developing a 
staffing retrograde plan for professional and craft labor. We will 
complete subcontracts where it is more cost effective to finish or take 
delivery rather than suspending or terminating a subcontractor's 
performance. We will account for and protect Government property, 
records, and data and perform any other activities that the project 
teams believe need to be taken to preserve the Government investment 
should the project be restarted.
    Question. How much cost will it add to the MO<INF>X</INF> program 
to put the facility in cold standby? How much would it cost the 
taxpayer to terminate the MO<INF>X</INF> program?
    Answer. If the MO<INF>X</INF> project were placed in cold standby 
we would minimize costs to the greatest extent and preserve the 
taxpayer investment while we independently validate that there is a 
more efficient path forward to dispose of excess weapons plutonium. The 
MO<INF>X</INF> project has not been terminated.
    Question. When do you plan to send the program direction letter to 
the site?
    Answer. A letter of direction was provided to the contractor on 
April 30, 2014 directing MO<INF>X</INF> Services to continue 
construction through September 2014 in accordance with the fiscal year 
2014 execution plan they had previously submitted.
                            john macwilliams
    Question. During our multiple meetings on MO<INF>X</INF>, you and 
John MacWilliams both stated that after studying the alternatives you 
chose MO<INF>X</INF> as the preferred path forward. John MacWilliams 
also communicated this to the contractors late last year. What changed 
during the budget process that led DOE to put the program in cold 
standby?
    Answer. It became clear during the analysis of plutonium 
disposition options that given the continuing cost increases and other 
contributing challenges, the MO<INF>X</INF> fuel approach will be 
significantly more expensive than anticipated. Given a life cycle cost 
estimate for the program of approximately $30 billion, we determined 
that it would be best to pause and to look at our options.
                plutonium agreement with south carolina
    Question. Is there any way for the government to comply with the 
terms of 50 USC 2566 which mandate a metric ton of plutonium leave 
South Carolina by January 2016? Specifically under existing 
authorities, how can DOE remove a ton of plutonium from SC by the date 
required in the statute? Where would it be stored?
    Answer. We understand our commitments under the current 
legislation, and we will look to ensure compliance with the law. The 
Department will submit a report to Congress on options for removing an 
amount of defense plutonium or defense plutonium materials from the 
State of South Carolina equal to the amount of defense plutonium or 
defense plutonium materials transferred to the State of South Carolina 
after April 15, 2002.
       u.s.-russia plutonium management and disposition agreement
    Question. The President's budget states that the Administration 
``is committed to the U.S.-Russia Plutonium Management and Disposition 
Agreement'' yet it puts the only disposition path for plutonium in 
``cold standby.'' These statements seem to conflict. How do you 
reconcile them?
    Answer. The Administration recognizes the importance of and remains 
fully committed to the U.S.-Russia Plutonium Management and Disposition 
Agreement (PMDA), whereby each side commits to verifiably dispose of at 
least 34 MT of weapon-grade plutonium. The PMDA specifically provides 
authority to the Parties to agree on any disposition methods that are 
not already provided for in the agreement. Therefore, a decision to 
place the MO<INF>X</INF> facility in cold standby in no way diminishes 
the U.S. commitment to the PMDA.
    Question. Will the budget request require the U.S. to renegotiate 
that agreement with Russia?
    Answer. No. Article III, paragraph 1 of the PMDA reads: 
``Disposition shall be by irradiation of disposition plutonium as fuel 
in nuclear reactors or any other methods that may be agreed by the 
parties in writing.'' Therefore, the Parties already have the authority 
to consider and agree on other disposition methods.
    Question. Is now the best time to start renegotiating a 
nonproliferation agreement with Russia?
    Answer. Since the PMDA already gives the parties the right to agree 
on other disposition methods, incorporation of a non-irradiation 
disposition method would not require renegotiation of the agreement.
    Question. What concessions do you expect Russian's will ask for if 
the U.S. pushes to renegotiate the PMDA?
    Answer. Russia has indicated that it remains committed to the PMDA 
and to its program.
                        negotiations with russia
    Question. Regarding negotiations with Russia, On April 4, Anne 
Harrington testified before the House that, ``we had an unexpectedly 
sympathetic reaction'' when discussing the challenges of 
MO<INF>X</INF>. Can you give greater context to this comment?
    Answer. In the context of budget considerations for the U.S. 
disposition program, Russian interlocutors made reference to the period 
in 2006-2007 when cost considerations on their side led them to propose 
a change in their disposition program to concentrate on options that 
would be much more closely aligned with their own planned nuclear 
energy program, and by analogy appeared to be indicating a sympathetic 
reaction to U.S. budgetary constraints. Russia had conceded the point 
that disposing of plutonium is a costly effort.
    Question. When did this conversation take place?
    Answer.

 
 
 
When:                              April 5, 2013
Participants:                      DOE/NNSA (Assistant Deputy
                                    Administrator for Fissile Materials
                                    Disposition Peter Hanlon), and
                                    Russian Official (Vladimir Kuchinov,
                                    Advisor to Rosatom Director General)
Discussion:                        Briefly discussed the fiscal year
                                    2014 budget request and the
                                    beginning of the U.S. analysis of
                                    plutonium disposition options.
rrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrr
When:                              April 9, 2013
Participants:                      DOE (Deputy Secretary Poneman) and
                                    Russian Officials (Nikolai Spassky,
                                    Deputy Director General, Rosatom
                                    State Corporation for Atomic Energy
                                    of the Russian Federation)
Discussion:                        Discussed with Russian officials the
                                    fiscal year 2014 budget request and
                                    the beginning of the U.S. analysis
                                    of plutonium disposition options.
rrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrr
When:                              April 25, 2013
Participants:                      DOE/NNSA (Assistant Deputy
                                    Administrator for Fissile Materials
                                    Disposition Peter Hanlon), and
                                    Russian Official (Vladimir Kuchinov,
                                    Advisor to Rosatom Director General)
Discussion:                        Discussed with Russian officials the
                                    nature of the U.S. analysis of its
                                    plutonium disposition options in
                                    light of the fiscal year 2014 budget
                                    request.
rrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrr
When:                              December 5, 2013
Participants:                      DOE (Deputy Secretary Poneman) and
                                    Russian Officials (Nikolai Spassky,
                                    Deputy Director General, Rosatom
                                    State Corporation for Atomic Energy
                                    of the Russian Federation)
Discussion:                        Brief call regarding the meeting on
                                    December 10, 2013.
rrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrr
When:                              December 10, 2013
Participants:                      DOE (Secretary Moniz and Deputy
                                    Secretary Poneman) and Russian
                                    Officials (Rosatom Director General
                                    Kiriyenko and Ambassador Kislyak of
                                    the Russian Federation to the United
                                    States)
Discussion:                        Provided an update on the ongoing
                                    U.S. analysis of plutonium
                                    disposition options.
rrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrr
When:                              December 18, 2013
Participants:                      DOE/NNSA (Assistant Deputy
                                    Administrator for Fissile Materials
                                    Disposition Peter Hanlon), and
                                    Russian Official (Vladimir Kuchinov,
                                    Advisor to Rosatom Director General)
Discussion:                        Updated Russian officials on the
                                    status of the U.S. analysis of
                                    plutonium disposition options.
rrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrr
When:                              March 3, 2014
Participants:                      DOE (Secretary Moniz) and Russian
                                    Officials (Sergey Ivanovich Kislyak,
                                    Ambassador of the Russian Federation
                                    to the United States)
Discussion:                        Brief call to update Russian
                                    officials on the status of the U.S.
                                    plutonium disposition program.
rrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrr
When:                              March 11, 2014
Participants:                      DOE/NNSA (Assistant Deputy
                                    Administrator for Fissile Materials
                                    Disposition Peter Hanlon), and
                                    Russian Official (Vladimir Kuchinov,
                                    Advisor to Rosatom Director General)
Discussion:                        Briefly discussed the fiscal year
                                    2015 budget request for U.S.
                                    plutonium disposition program and
                                    updated status of the U.S. analysis
                                    of disposition options.
rrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrr
 


    Question. What conversations has our government had with the 
Russians regarding MO<INF>X</INF>?
    Answer. Please refer to the question above.
                     savannah river site plutonium
    Question. What is the current disposition path for the 12.8 MT of 
weapons grade plutonium already at the Savannah River Site?
    Answer. Of the 12.8 MT, the planned disposition path for 
approximately 7.8 MT is through the MO<INF>X</INF> fuel approach, some 
of which is contingent on completing NEPA analysis. The preferred 
alternative for the remaining material as identified in the July 2012 
Draft Surplus Plutonium Disposition Environmental Impact Statement is 
at the Waste Isolation Pilot Plant (WIPP).
    Question. Does DOE plan to ship more plutonium to South Carolina 
before the issues surrounding disposition are resolved?
    Answer. As of January 1, 2014, the Department has suspended any 
further transfers of defense plutonium or defense plutonium materials 
for processing at the MO<INF>X</INF> facility to South Carolina.
    Question. What has DOE done since the budget was released to 
continue negotiations with the contractors to bring down the cost of 
the program?
    Answer. We have had discussions with the contractor about ways to 
reduce costs and intend to continue to do so.
                           japanese plutonium
    Question. Recently, the New York Times reported that the 
Administration is seeking to bring over 700 pounds of weapons grade 
plutonium from Japan to the United States for disposition. Where does 
the U.S. plan to store this material in the United States?
    Answer. NNSA continuously looks to identify additional nuclear and 
radiological materials that should be removed to eliminate the risk 
that they could fall into the hands of terrorists. In all cases, NNSA 
works with its foreign partners to identify the best disposition 
pathway to eliminate material, and anticipates removing or 
dispositioning approximately additional 1,100 kg of highly enriched 
uranium (HEU) and plutonium through 2022.
    DOE has yet to make final determination as to where the material 
from Japan will be received and stored. Before a final determination is 
made, DOE will follow all requirements of the National Environmental 
Policy Act (NEPA).
    Question. What is the disposition path for this material?
    Answer. DOE has yet to make final determination as to where the 
material from Japan will be received and stored.
    Question. Under 50 U.S.C. 2566, can you send this material to SRS?
    Answer. 50 U.S.C. 2566 applies only to defense plutonium materials 
to be processed by the MO<INF>X</INF> facility. The material from Japan 
has not been designated to be processed by the MO<INF>X</INF> facility.
    Question. SC DHEC sent a letter to DOE requesting a waste 
determination be completed on this plutonium prior to making plans to 
ship the material to SC. Can you commit to honoring this request?
    Answer. DOE will ensure that you and this committee are informed 
when a final determination is made as to where the material from Japan 
will be received and stored.
                                 ______
                                 
             Questions Submitted to Hon. Daniel B. Poneman
              Questions Submitted by Senator Patty Murray
                    bonneville power administration
    Question. Deputy Secretary Poneman, as you know I have been closely 
following the Department of Energy and Bonneville Power 
Administration's (BPA) actions since DOE's Inspector General first 
reported findings of unlawful and discriminatory hiring practices 
effecting veterans and others seeking employment at BPA in July 2013. 
The failures in BPA's hiring system and its impacts on veterans are 
simply unacceptable.
    While I am encouraged by the steps that you and Administrator 
Mainzer are taking to fix the problems within BPA's human resources 
department, your priority should continue to be ensuring that all 
veterans who were disenfranchised are made whole. To that end, please 
provide me with an update on the ``get well-plan'' you announced in 
October 2013. Specifically:
    How is the work on reconstructing the more than 1,200 hiring cases 
progressing? It was my understanding that it was your goal to complete 
the reconstruction by September 30, 2014. Is the Department on track to 
meet this goal?
    Answer. The Department is making good progress toward the September 
30 goal for completion of the reconstruction process. As of May 2, the 
case reconstruction process is as follows:
  --Total Cases--75 percent of all cases have been reconstructed
  --Delegated Examining cases (jobs that were open to the public)--74 
        percent complete
  --Merit Promotion cases (jobs that were open only to current Federal 
        employees and those with a special status allowing them to 
        apply)--82 percent complete
  --BID List (blue collar positions open to current BPA employees 
        only)--100 percent complete
  --Ninety-nine priority placements (applicants entitled to a job 
        offer) have been identified. From these, 24 veterans have 
        accepted job offers and 43 more offers are in process. There 
        have been 32 offers declined. See the attached charts for 
        reference.
    Question. How many illegal hires have you found in the 
reconstruction process? Of these, how many impacted veterans?
    Answer. BPA's reconstruction is to determine whether it fully 
followed Federal hiring practices in each case. So far in the 
reconstruction process, BPA has identified, through 34 separate hiring 
cases, 99 disadvantaged veterans who warrant priority placement. These 
priority placements have resulted from 24 veterans accepting job 
offers.
    Question. How many disenfranchised individuals were offered and in 
turn placed in a job at BPA?
    Answer. BPA has completed 24 priority hires to date and has 43 in 
process. Another 32 impacted veterans have declined job offers.
    Question. Does DOE expect to complete all necessary placements 
within the available openings BPA currently has?
    Answer. Yes.
    Question. At the same time, it is also important that you educate 
and train BPA's human resources department in order to make sure this 
never happens again. How is the education and training of human 
resources department employees--managers included--on Federal hiring 
regulations and practices progressing? When will this process be 
completed and what metrics will be use to determine that BPA can again 
make hiring decisions on its own, without the oversight of the 
Department?
    Answer. BPA has made significant progress towards regaining full 
Human Resources (HR) authority. The BPA ``Get Well'' Plan was signed by 
BPA on February 6, 2014. Key activities necessary to regain HR 
authority, as outlined within the BPA ``Get Well'' Plan, are being 
accomplished on time or ahead of schedule. BPA has worked in a 
collaborative and proactive manner with the Department of Energy's 
(DOE) Office of the Chief Human Capital Officer (CHCO) to facilitate 
the restoration of full HR authority necessary for it to operate 
independently and in a manner that is in accordance with applicable 
legal, regulatory, and Departmental policy requirements. BPA has 
regained provisional authority to conduct labor relations activity, 
conduct its internal bid list process, and process personnel actions.
    Additionally, BPA's Human Capital Management (HCM) staff has 
completed all required Office of Personnel Management training and 
regained their individual delegated examining certification. BPA is 
migrating to the Department's ``Hiring Manager'' HR IT recruitment 
system to ensure consistency with the rest of the Department's 
recruiting efforts.
    Question. Finally, the ``get well-plan'' included a 6 month review 
for the new BPA-DOE human capital and BPA-DOE general counsel reporting 
arrangements. April marks 6 months under the ``get well-plan.'' Have 
these reviews taken place? If so, I ask that you explain the 
Department's next steps with regard to these reporting arrangements and 
whether sufficient progress has been made to end these reporting 
arrangements. If not, I ask that these reviews take place as soon as 
possible. I note that in a November 8, 2013 letter to Secretary Moniz 
signed by 23 members of the Northwest Delegation, including myself, we 
made a request that ``in the event that this reporting relationship is 
still in effect after 6 months, we request that DOE explain to the 
Northwest Congressional delegation in writing why this arrangement is 
still in place.''
    Answer. The 6 month review occurred on April 24, 2014, and a copy 
of the memorandum which DOE and BPA officials (including Administrator 
Elliot Mainzer) developed for the Deputy Secretary was provided to your 
office when finalized.
    The reporting relationship of BPA HR to CHCO will be reevaluated 
when full HR operating authority is returned to BPA. With respect to 
the reporting relationship between the BPA General Counsel and the 
Department's General Counsel (DOE GC), on November 12, 2013, DOE GC 
sent a letter to the BPA Acting Administrator memorializing the 
reporting and communications structure for the BPA General Counsel that 
they had discussed and agreed upon. BPA's General Counsel retired in 
March 2014, and an Acting General Counsel has recently been designated. 
The existing reporting relationship between the BPA General Counsel and 
DOE GC is expected to remain in place until a permanent BPA General 
Counsel is put in place, with a reevaluation likely to occur after an 
appropriate transition period.
                           office of science
    Question. National scientific user facilities like the 
Environmental Molecular Sciences Laboratory and Atmospheric Radiation 
Measurement Facility located at the Pacific Northwest National 
Laboratory in Washington State play a central role in the U.S. research 
ecosystem by providing thousands of scientists access to unique 
instruments, expertise, and facilities. As State and Federal budgets 
endure ongoing downward pressure in the coming years, the importance of 
user facilities will continue to grow as they are shared resources 
available to the entire scientific community.
    How does the fiscal year 2015 budget request ensure that scientific 
user facilities will have the resources they need to serve the 
scientific community and maintain U.S. global leadership in science and 
technology innovation?
    Answer. The fiscal year 2015 budget request for the Office of 
Science provides the resources to successfully deliver our highest 
priority investments in new and upgraded user facilities while 
continuing to serve today's mission needs. In this way we can sustain 
U.S. leadership in our areas of highest priority without skewing the 
balance among research, facility construction, and facility operations.
    The request for Advanced Scientific Computing Research sustains 
U.S. leadership status in applied mathematics and computer sciences 
research, in high-performance computing (HPC) for science and 
engineering and in networking R&D. The request includes a substantial 
investment in ``capable'' exascale R&D to position the U.S. for 
sustained leadership in HPC, extending capability significantly beyond 
today's petascale computers to address the next generation of 
scientific, engineering, and large-data problems. The goal of the 
exascale computing effort in Science is to provide the forefront 
computing resources needed to meet and advance the Department's science 
missions into the foreseeable future, as well as providing vital tools 
for scientific and technological development, economic growth, and 
national security to maintain U.S. leadership, which may over time, 
erode.
    In Basic Energy Sciences (BES), the U.S. has world leading status 
in materials chemistry, catalysis, and condensed matter and material 
physics. However, the rest of the world is catching up fast, in a 
number of areas including x-ray, neutron, and electron beam scattering, 
and aspects of materials science and chemistry. The budget request 
includes a research activity in computational materials science to 
overcome the need to pay for access to foreign software; we not only 
have no control over the source code, but also these codes are not 
optimized to run on our massively parallel supercomputing user 
facilities. The budget also invests in key upgrades to two x-ray light 
sources, and provides support for optimal operations at the BES user 
facilities, to advance U.S. leadership in those areas.
    The request for Biological and Environmental Research (BER) 
includes investments that will sustain U.S. global leadership in 
synthetic biology for plants and microbes, plant and microbial 
ecosystems, systems biology relevant to energy and the environment, and 
cloud and aerosol observations. BER, in coordination with the 
facilities and the research programs, conducts periodic reviews and 
strategic planning to ensure user facility support is robust and 
optimized.
    The Fusion Energy Sciences budget request includes strong facility 
operations and research programs at the DIII-D tokamak user facility 
and the newly upgraded National Spherical Torus Experiment (NSTX) user 
facility; these major facilities are keys to continuing U.S. leadership 
in magnetic confinement fusion. The request also supports operations at 
the Materials in Extreme Conditions end station at the Linac Coherent 
Light Source, which positions the U.S. to lead in certain key areas of 
high energy-density physics. The request also sustains U.S. leadership 
in measurement and detector science for monitoring what is happening 
inside a fusion device, and theory, modeling, and high-performance 
computing simulation to model plasmas under a variety of conditions.
    The High Energy Physics request supports the operation of the 
Fermilab accelerator complex to produce neutrino beams. Two new 
neutrino experiments, NuMI Off-axis Neutrino Appearance (NOnA) and 
Micro-Booster Neutrino Experiment (MicroBooNE), will take their first 
full year of data in fiscal year 2015. The Cosmic Frontier program 
features a number of leading current efforts and new world-class 
initiatives, including the Dark Energy Survey which began operations in 
September 2013 and is the largest astronomical survey dedicated to the 
study of dark energy and the Large Synoptic Survey Telescope, which is 
now under construction, will continue U.S. leadership in this area in 
the coming decade. At the Energy Frontier, U.S. research groups 
continue to play leading roles at the Large Hadron Collider, both in 
research and in planning for accelerator and detector upgrades.
    In Nuclear Physics, the U.S. is a world leader in hadron physics 
because of our work at the Continuous Electron Beam Accelerator 
Facility (CEBAF) and the research on polarized proton collisions at the 
Relativistic Heavy Ion Collider (RHIC). No other machines in the world 
have these capabilities. Completion of the 12 GeV upgrade project at 
CEBAF is necessary for maintaining world leadership in this scientific 
thrust, and the budget request fully supports that project. The U.S. is 
a world leader in nuclear structure and astrophysics research through 
experiments at the Argonne Tandem Linac Accelerator System (ATLAS). In 
addition, the Facility for Rare Isotope Beams (FRIB), which is entering 
its peak construction phase under this budget request, will position 
the U.S. to become the international leader in nuclear structure and 
astrophysics.
                             nuclear energy
    Question. Small Modular Reactors (SMR) have a role to play in our 
Nation's all of the above energy strategy by offering size, cost and 
safety advantages. The Department is working on two cooperative 
agreements with industry partners to support deployment of this 
technology, one being in partnership with Energy Northwest of my home 
State. Is DOE on track to have both cooperative agreements in place by 
the end of the current fiscal year, fiscal year 2014?
    Answer. The Department completed negotiations on and bilaterally 
signed a cooperative agreement with the Babcock and Wilcox mPower 
America team in April 2013, and signed a second cooperative agreement 
with NuScale Power, LLC, in May 2014.
    Question. Given the funding included in the fiscal year 2015 budget 
request for SMR Licensing Technical Support, it is clear the Department 
is committed to the development and potential deployment of this 
technology. How can SMR technologies assist in meeting our national 
energy security and climate change goals? Also, please explain how the 
SMR program--which focuses on design certification and licensing 
activities--will help move this technology forward?
    Answer. Under the current Administration's ``all of the above'' 
energy strategy, nuclear power is considered a key component of 
domestic energy production in that it provides baseload power with 
nearly zero greenhouse gas emissions. The Department believes that SMR 
technologies have economic, deployment, and size advantages that could 
enable the technology to replace a number of retiring coal plants 
displacing the carbon emissions of those plants. In addition, many 
SMRs, due to their size and load-following capabilities may be an 
effective generating technology for use with other clean energy 
technologies (including wind and solar) on a distributed electricity 
grid and market, where daily load adjustments are necessary. The 
Department believes that fleet-level deployment of SMRs, displacing a 
portion of existing fossil generation, can provide safe, clean, and 
affordable energy to meet the Nation's economic, energy security and 
environmental goals.
    The SMR Licensing Technical Support (LTS) program supports first-
of-a-kind costs associated with design certification and licensing 
activities for SMR designs through cost-shared arrangements with 
industry partners (industry contributions are a minimum of 50 percent 
of the cost). A standardized design certification for a reactor 
technology and a combined operating license approval by the Nuclear 
Regulatory Commission is a pre-requisite for plant construction. 
Industry currently estimates that efforts to design, certify, and 
license a SMR could cost on the order of $700 million--$1 billion. The 
SMR LTS is intended to help selected first mover U.S. vendors take the 
first step toward completing their designs and achieving the licenses 
required to commercialize these products.
                national nuclear security administration
    Question. Secretary Moniz, President Obama has reiterated on a 
number of occasions the importance of combatting the nuclear threat 
with nonproliferation activities being a vital element. However, the 
fiscal year 2015 budget request for the National Nuclear Security 
Administration continues a troubling trend of declining budgets for the 
Defense Nuclear Nonproliferation account in favor of increases for the 
Weapons Activities and Naval Reactors accounts.
    I am concerned that given our budget constraints we will continue 
to see declining budgets for Defense Nuclear Nonproliferation 
activities in favor of Weapons Activities. What is the Department's 
plan to ensure that important nonproliferation activities are 
continued?
    Answer. The Administration and DOE/NNSA remain committed to our 
nuclear nonproliferation and nuclear modernization objectives, 
consistent with the President's vision of reducing nuclear dangers and 
our reliance on nuclear weapons. As a demonstration of our continued 
commitment to nuclear security as a priority, the fiscal year 2015 
budget request provides funding to continue remaining high-priority 
nuclear and radiological threat reduction efforts, following completion 
of the accelerated four-year effort activities. For example, we plan to 
remove an additional 125 kilograms of HEU and plutonium from high 
priority countries; protect an additional 105 buildings with high-
activity radioactive sources; and initiate some important new 
activities in the Middle East.

                          SUBCOMMITTEE RECESS

    Senator Feinstein. Thank you very much, and we thank you 
for being here, and the hearing is adjourned.
    Secretary Moniz. Thank you, Chairman Feinstein.
    Mr. Poneman. Thank you.
    [Whereupon, at 4:05 p.m., Wednesday, April 9, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
